App. 1
APPENDIX A
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

Nos. 19-1586, 19-1640
PROJECT VERITAS ACTION FUND,
Plaintiff, Appellee / Cross-Appellant,
v.
RACHAEL S. ROLLINS, in her ofﬁcial capacity as
District Attorney for Suffolk County,
Defendant, Appellant / Cross-Appellee.
-----------------------------------------------------------------------

No. 19-1629
K. ERIC MARTIN & RENÉ PÉREZ,
Plaintiffs, Appellees,
v.
RACHAEL S. ROLLINS, in her ofﬁcial capacity as
District Attorney for Suffolk County,
Defendant, Appellant,
WILLIAM G. GROSS, in his ofﬁcial capacity as
Police Commissioner for the City of Boston,
Defendant.
-----------------------------------------------------------------------

APPEALS FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Patti B. Saris, U.S. District Judge]

App. 2
-----------------------------------------------------------------------

Before
Barron, Circuit Judge,
Souter,* Associate Justice,
and Selya, Circuit Judge.
Eric A. Haskell, Assistant Attorney General of
Massachusetts, with whom Maura Healey, Attorney
General of Massachusetts, was on brief, for Appellant/
Cross-Appellee Rachael S. Rollins.
Benjamin T. Barr, with whom Steve Klein and
Statecraft PLLC were on brief, for Appellee/CrossAppellant Project Veritas.
Jessie J. Rossman, with whom Matthew R. Segal,
American Civil Liberties Union Foundation of Massachusetts, Inc., William D. Dalsen, and Proskauer
Rose LLP were on brief, for Appellees K. Eric Martin
and René Pérez.
Adam Schwartz and Sophia Cope on brief for Electronic Frontier Foundation, amicus curiae.
Bruce D. Brown, Katie Townsend, Josh R. Moore,
Shannon A. Jankowski, Dan Krockmalnic, David
Bralow, Kurt Wimmer, Covington & Burling LLP,
Joshua N. Pila, James Cregan, Tonda F. Rush, Mickey
H. Osterreicher, Robert A. Bertsche, Prince Lobel Tye
LLP, David McCraw, Elizabeth C. Koch, Ballard Spahr
LLP, D. Victoria Baranetsky, Bruce W. Sanford, Mark I.
* Hon. David H. Souter, Associate Justice (Ret.) of the Supreme Court of the United States, sitting by designation.

App. 3
Bailen, and Baker & Hostetler LLP on brief for The
Reporters Committee for Freedom of the Press; The
American Society of Magazine Editors; Boston Globe
Media Partners, LLC; First Look Media Works, Inc.;
The Media Institute; Meredith Corporation; MPA –
The Association of Magazine Media; National Freedom
of Information Coalition; National Newspaper Association; National Press Photographers Association; New
England First Amendment Coalition; The New York
Times Company; Politico, LLC; Reveal from the Center
for Investigative Reporting; Society of Environmental
Journalists; Society of Professional Journalists; and
Tully Center for Free Speech, amici curiae.
Oren N. Nimni and Lauren A. Sampson on brief
for Lawyers for Civil Rights, Center for Constitutional
Rights, and LatinoJustice PRLDEF, amici curiae.
Nicolas Y. Riley and Robert D. Friedman on brief
for Institute for Constitutional Advocacy and Protection, amicus curiae.
-----------------------------------------------------------------------

December 15, 2020
-----------------------------------------------------------------------

BARRON, Circuit Judge. Massachusetts, like
other states concerned about the threat to privacy that
commercially available electronic eavesdropping devices pose, makes it a crime to record another person’s
words secretly and without consent. But, unlike other
concerned states, Massachusetts does not recognize
any exceptions based on whether that person has an

App. 4
expectation of privacy in what is recorded. See Mass.
Gen. Laws ch. 272, § 99 (“Section 99”). As a result, Massachusetts makes it as much a crime for a civic-minded
observer to use a smartphone to record from a safe distance what is said during a police ofﬁcer’s mistreatment of a civilian in a city park as it is for a revengeseeker to hide a tape recorder under the table at a private home to capture a conversation with an ex-spouse.
The categorical and sweeping nature of Section 99
gives rise to the important questions under the First
Amendment to the United States Constitution that
the challenges that underlie the consolidated appeals
before us present.
The ﬁrst appeal that we address stems from a
2016 suit ﬁled in the District of Massachusetts by two
civil rights activists in Boston – K. Eric Martin and
René Pérez (“the Martin Plaintiffs”). They allege that
Section 99 violates the First Amendment insofar as it
criminalizes the secret, nonconsensual audio recording
of police ofﬁcers discharging their ofﬁcial duties in
public spaces. The other appeal that we address stems
from a suit ﬁled in that same year in that same district
– and eventually resolved by the same district court
judge – by Project Veritas Action Fund (“Project Veritas”), which is a national media organization dedicated
to “undercover investigative journalism.”
Project Veritas’s suit targets Section 99 insofar as
it bans the secret, nonconsensual audio recording of
any government ofﬁcial discharging ofﬁcial duties in
public spaces, as well as insofar as it bans such recording of any person who does not have a reasonable

App. 5
expectation of privacy in what is recorded. Project Veritas also alleges that Section 99 must be struck down
in its entirety pursuant to the First Amendment doctrine of overbreadth.
We afﬁrm the District Court’s grant of summary
judgment to the Martin Plaintiffs, based on its ruling
that Section 99 violates the First Amendment by prohibiting the secret, nonconsensual audio recording of
police ofﬁcers discharging their ofﬁcial duties in public
spaces. We also afﬁrm the District Court’s order dismissing Project Veritas’s First Amendment overbreadth challenge for failing to state a claim on which
relief may be granted. However, we vacate on ripeness
grounds the District Court’s order dismissing with
prejudice Project Veritas’s First Amendment challenge
to Section 99 insofar as that statute prohibits the secret, nonconsensual audio recording of individuals who
lack an expectation of privacy in what is recorded. For
the same reason, we vacate the District Court’s grant
of summary judgment to Project Veritas on its claim
that Section 99 violates the First Amendment insofar
as that statute bars the secret, nonconsensual audio
recording of government ofﬁcials discharging their duties in public. We remand the claims asserting these
two latter challenges to the District Court with instructions to dismiss them without prejudice for lack
of subject matter jurisdiction.

App. 6
I.
We begin by reviewing the background that led to
the enactment of Section 99, its key terms, and the way
that the Supreme Judicial Court of Massachusetts
(“the SJC”) construes them. We then describe the
travel of the two cases.
A.
In 1964, Massachusetts created a commission to
study whether to strengthen the Commonwealth’s prohibitions on electronic eavesdropping. The commission
issued its ﬁnal report in June of 1968, which found
“that eavesdropping devices are readily available to
members of the public from commercially available
stores” and that these devices make it quite easy for
even laypeople to use them “for purposes of illegally
intercepting wire or oral communications.” Report of
the Special Commission on Electronic Eavesdropping,
1968 Mass. Sen. Doc. No. 1132, at 6 (“1968 Commission
Report”). The report recommended “that wiretapping
and eavesdropping other than by law enforcement ofﬁcers should be strictly prohibited,” and it proposed
the adoption of an “ ‘all-party consent’ provision,”
“which would require the consent of all parties to a conversation before that conversation could be recorded or
otherwise electronically ‘intercepted.’ ” Id. at 9, 11.
A month later, the Massachusetts legislature enacted Section 99, which states in its preamble “that
the uncontrolled development and unrestricted use
of modern electronic surveillance devices pose grave

App. 7
dangers to the privacy of all citizens of the commonwealth.” Mass. Gen. Laws ch. 272, § 99(A). The measure goes on to make it a crime for “any person” to
“willfully commit[ ] an interception, attempt[ ] to commit an interception, or procure[ ] any other person to
commit an interception or to attempt to commit an
interception of any wire or oral communication.” Id.
§ 99(C)(1).
Section 99 deﬁnes a “wire communication” as “any
communication made in whole or in part through the
use of facilities for the transmission of communications
by the aid of wire, cable, or other like connection between the point of origin and the point of reception.”
Id. § 99(B)(1). An “oral communication” is deﬁned as
“speech, except such speech as is transmitted over the
public air waves by radio or other similar device.” Id.
§ 99(B)(2). The term “interception” is deﬁned as follows: “to secretly hear, secretly record, or aid another
to secretly hear or secretly record the contents of any
wire or oral communication through the use of any intercepting device by any person other than a person
given prior authority by all parties to such communication.” Id. § 99(B)(4).
B.
Roughly a decade after Section 99’s enactment,
the SJC construed the measure in Commonwealth v.
Jackson, 370 Mass. 502, 349 N.E.2d 337 (1976), which
concerned, among other things, whether audio recordings of a kidnapper’s ransom calls had been made in

App. 8
violation of Section 99. Id. at 339. In holding that they
had been, the SJC agreed that even a recording of the
audio of a person who had no “reasonable expectation
of privacy” in what was recorded could fall under Section 99’s prohibition. Id. at 340.
The SJC explained that if it “were to interpret ‘secretly’ as encompassing only those situations where an
individual has a reasonable expectation of privacy,” it
“would render meaningless the Legislature’s careful
choice of words” in Section 99. Id. The SJC concluded
that a nonconsensual audio recording is made “secretly” – and thus in violation of Section 99 – if the person recorded does not have “actual knowledge of the
recording.” Id. The SJC added that actual knowledge
of the recording could be “proved where there are
clear and unequivocal objective manifestations of
knowledge.” Id.
Some years later, in Commonwealth v. Hyde, 434
Mass. 594, 750 N.E.2d 963 (2001), the SJC again held
that Section 99 did not impliedly exempt recordings of
audio of persons who lacked an expectation of privacy
in what was recorded. Id. at 965-66. This time, unlike
in Jackson, the issue arose in connection with a prosecution for a violation of Section 99 itself. In the case,
the criminal defendant had been charged with violating that statute for having recorded the audio of his
encounter with police – without the ofﬁcers’ knowledge
– during a trafﬁc stop. Id. at 964-65. The defendant
moved to dismiss the criminal complaint against him
on the ground that Section 99 did not apply to recordings of “police ofﬁcers . . . performing ofﬁcial police

App. 9
duties.” Id. at 965. In such a situation, the defendant
contended, the ofﬁcers “had no privacy expectations in
their words, and, as a result, their conversation should
not be considered ‘oral communication’ within the statute.” Id.
The SJC affirmed the denial of the defendant’s
motion by explaining that “[t]he statute is carefully
worded and unambiguous, and lists no exception for a
private individual who secretly records the oral communications of public ofﬁcials.” Id. at 966. For that reason, the SJC held, “the plain language of the statute
accurately states the Legislature’s intent” and nothing
in that language “would protect, on the basis of privacy
rights, the recording that occurred here,” regardless of
“[t]he value of obtaining probative evidence of occasional ofﬁcial misconduct.” Id. at 966-69.
The SJC emphasized that “[t]he commission
clearly designed the 1968 amendments to create a
more restrictive electronic surveillance statute than
comparable statutes in other States.” Id. at 967. In fact,
the SJC explained, to permit the recording “on the
ground that public ofﬁcials are involved” would necessarily permit the secret, nonconsensual recording “of
virtually every encounter or meeting between a person
and a public ofﬁcial, whether the meeting . . . is stressful . . . or nonstressful (like a routine meeting between
a parent and a teacher in a public school to discuss a
good student’s progress).” Id. at 970. “The door once
opened would be hard to close, and the result would
contravene the statute’s broad purpose and the

App. 10
Legislature’s clear prohibition of all secret interceptions and recordings by private citizens.” Id.
Hyde did note, however, that “[t]he problem . . .
could have been avoided if, at the outset of the trafﬁc
stop, the defendant had simply informed the police of
his intention to tape record the encounter, or even held
the tape recorder in plain sight.” Id. at 971 (emphasis
added). In this way, Hyde clariﬁed Jackson’s prior holding about what constituted “secretly” recording under
Section 99.
The dissenting opinion in Hyde asserted that neither Section 99’s text nor its legislative history indicated “that the Legislature had in mind outlawing the
secret tape recording of a public exchange between a
police ofﬁcer and a citizen.” Id. at 974 (Marshall, C.J.,
dissenting). To support this narrower understanding of
the measure, the dissent offered an example that remains all too relevant today. It claimed that, under the
majority’s ruling, George Holliday “would have been
exposed to criminal indictment rather than lauded for
exposing an injustice,” if his then-recent recording of
Rodney King’s beating at the hands of police ofﬁcers in
Los Angeles, California had taken place in Massachusetts. Id. at 972.
The majority responded that “[t]here is no basis
to ignore the plain language and legislative history” of
Section 99, “or our case law interpreting it, in favor of
speculation as to how an imaginary scenario might
have played out, had the Rodney King episode occurred
in Massachusetts and not in California.” Id. at 971. The

App. 11
majority did assert, though, that “[a]lthough the Rodney
King videotape visually captured the conduct of the
police ofﬁcers’ [beating of ] King, the recording was virtually inaudible, until electronic enhancements ﬁltered the audio portion to allow the actual commands
of the police ofﬁcers to be heard.” Id. at 971 n.11.
C.
The appeals before us arise from two different
suits that challenge Section 99. But, while these suits
ultimately intersected below, it is useful to describe
their travel separately.
1.
On June 30, 2016, Martin and Pérez ﬁled suit in
the United States District Court for the District of
Massachusetts against the Commissioner of the Boston Police Department (“BPD Commissioner”) and the
District Attorney for Suffolk County (“District Attorney”) in their ofﬁcial capacities. We will refer to the
BPD Commissioner and the District Attorney collectively as “the Defendants.”
The Martin Plaintiffs’ complaint alleges that they
are civil rights activists who have regularly and openly
recorded the audio of police ofﬁcers without their consent as they discharge their ofﬁcial duties in public.
Their complaint alleges that the Martin Plaintiffs
would like to undertake that same type of recording
secretly but fear doing so due to the criminal

App. 12
prohibition that Section 99 imposes. The Martin Plaintiffs’ complaint alleges that others have been prosecuted by the District Attorney for such recording and
that the BPD’s “ofﬁcial training materials,” including a
“Training Bulletin” and “training video” distributed to
police cadets in 2010, “instruct ofﬁcers that they may
arrest and seek charges against private individuals
who secretly record police officers performing their
duties in public.”
Based on these allegations, the complaint claims
that Section 99 “as applied to secretly recording police
ofﬁcers engaged in their ofﬁcial duties in public places,
violates the First Amendment by causing Plaintiffs to
refrain from constitutionally protected information
gathering” and from “encouraging, or aiding other individuals to secretly record police conduct in public.”
The complaint requests “declaratory and injunctive
relief under 42 U.S.C. § 1983 and the First and Fourteenth Amendments to the United States Constitution” on the ground that Section 99 is unconstitutional
when “applied to prohibit the secret audio recording of
police ofﬁcers performing their duties in public.”
On September 30, 2016, the Defendants ﬁled motions to dismiss for lack of jurisdiction under Federal
Rule of Civil Procedure 12(b)(1) and for failure to state
a claim under Federal Rule of Civil Procedure 12(b)(6).
In March of 2017, the District Court denied both motions. Martin v. Evans, 241 F. Supp. 3d 276, 288 (D.
Mass. 2017). Discovery proceeded for roughly a year
before the parties ﬁled dueling motions for summary
judgment. The District Court granted summary

App. 13
judgment to the Martin Plaintiffs on December 10,
2018. Martin v. Gross, 340 F. Supp. 3d 87, 109 (D. Mass.
2018).
The District Court ﬁrst rejected the Defendants’
contention that the Martin Plaintiffs’ First Amendment claim was not ripe for essentially the reasons
set forth in its earlier ruling rejecting the Defendants’
12(b)(1) motion. Id. at 103. But, the District Court
added, discovery reinforced the basis for that earlier
ruling, as the plaintiffs had “attested to their prior recordings of police ofﬁcers” and “aver[red] that they desire to secretly record police ofﬁcers but have refrained
from doing so because of” Section 99, and “the defendants have sought criminal complaints or charged persons for violating [the statute] numerous times since
2011.” Id. The District Court also noted that “the government has not disavowed enforcement of ” the statute. Id. Accordingly, the District Court determined that
the “facts give rise to a live controversy over genuine
First Amendment injuries.” Id.
As to the merits, the District Court ﬁrst addressed
whether the Martin Plaintiffs were bringing a “facial”
or “as applied” attack on Section 99. The District Court
explained that the Martin Plaintiffs’ challenge targets
only a slice of what Section 99 bans, and so in that
sense was “as applied.” Id. at 105. But, the District
Court noted, the Martin Plaintiffs sought relief that
would “block the application of Section 99 to any situation involving the secret recording of police ofﬁcers
. . . performing their duties in public, not just in a speciﬁc instance of the plaintiffs engaging in such

App. 14
conduct.” Id. In that respect, the District Court concluded, the Martin Plaintiffs’ challenge was facial in
nature, notwithstanding that their challenge did not
seek to invalidate Section 99 in its entirety. Id.
The District Court also explained that the Martin
Plaintiffs’ planned recording warranted at least some
First Amendment protection, just as it had held in
denying the Defendants’ motion to dismiss. Id. at 9698; see Martin, 241 F. Supp. 3d at 287-88. There, the
District Court explained that it disagreed with the Defendants’ contention that “the First Amendment does
not provide any right to secretly record police ofﬁcers,”
as it ruled that “[e]xisting First Circuit authority” –
namely Glik v. Cunniffe, 655 F.3d 78 (1st Cir. 2011),
and Gericke v. Begin, 753 F.3d 1 (1st Cir. 2014) – “holds
otherwise.” Martin, 241 F. Supp. 3d at 286.
The District Court then trained its attention on
the level of First Amendment scrutiny that applied to
Section 99’s ban on the recording at issue. Martin, 340
F. Supp. 3d at 105. The District Court concluded that
Section 99 was a content-neutral restriction on the
time, place, or manner of the Martin Plaintiffs’ planned
speech-related activity and that, in consequence, the
measure’s prohibition was not subject to strict scrutiny.
Id. The District Court went on to subject the ban at issue to “intermediate scrutiny,” noting that although
the Defendants had suggested that an even less demanding level of scrutiny “might” apply, they had not
developed an argument as to why that would be the
case. Id. at 105-06. In addition, the District Court explained that our prior precedent did not support the

App. 15
application of less than intermediate scrutiny. Id. at
106 (ﬁrst citing Glik, 655 F.3d at 82-84, then citing
Jean v. Mass. State Police, 492 F.3d 24, 29 (1st Cir.
2007)).
Finally, the District Court evaluated Section 99’s
ban on such recording under intermediate scrutiny
and determined that – on its face – it could not survive
review due to its sweep. Id. at 106-08. Despite recognizing that, “[i]n this context, narrow tailoring does not
require that the law be the least restrictive or least intrusive means of serving the government’s interests,”
the District Court explained that the ban “is not narrowly tailored to protect a signiﬁcant government interest when applied to law enforcement ofﬁcials
discharging their duties in a public place.” Id. at 10607. The District Court noted that Section 99 prohibits
such recording even in circumstances in which police
ofﬁcers would have no expectation of privacy in what
is recorded. Id. at 108. The District Court added that,
given its analysis to that point, it “need[ ] not decide
whether [the statute] leaves open adequate alternative
channels for” the speech-related activity at issue. Id.
(quoting Am. C.L. Union of Ill. v. Alvarez, 679 F.3d 583,
607 (7th Cir. 2012)).
2.
Project Veritas brought a similar though more expansive First Amendment challenge to Section 99 on
March 4, 2016 in the same federal district as the Martin Plaintiffs. The two suits ultimately ended up before

App. 16
the same judge. Martin, 340 F. Supp. 3d at 92-93. Like
the Martin Plaintiffs, Project Veritas brought suit under 42 U.S.C. § 1983. Project Veritas Action Fund v.
Conley, 244 F. Supp. 3d 256, 259 (D. Mass. 2017).
The Defendants moved to dismiss Project Veritas’s
complaint for lack of subject matter jurisdiction under
Federal Rule of Civil Procedure 12(b)(1) and for failure
to state a claim under Federal Rule of Civil Procedure
12(b)(6). The District Court determined that it had
jurisdiction under Article III of the United States
Constitution over Project Veritas’s challenge to the
statute’s prohibition on the secret recording of individuals who lack a reasonable expectation of privacy and
as to its challenge to the statute in its entirety. Id. at
262. However, the District Court concluded that Project Veritas’s allegations that it wanted to use secret
recording to investigate government ofﬁcials were “too
vague” to render ripe its pre-enforcement challenge to
Section 99 insofar as it banned the secret, nonconsensual audio recording of any such ofﬁcials in public
spaces, though it left Project Veritas the opportunity
“to replead[ ] more speciﬁc allegations.” Id.
With that latter challenge to Section 99 out of the
way for the time being, the District Court took up the
merits of Project Veritas’s claim that Section 99 violated the First Amendment both “as-applied,” insofar
as the measure prohibited the secret recording of private individuals who lacked an expectation of privacy
(though, apparently, even as to circumstances not involving Project Veritas’s own recording), and facially
under the First Amendment overbreadth doctrine as to

App. 17
the statute as a whole. Id. at 262-66. The District Court
rejected both contentions. Id. at 265-66.
With respect to what the District Court characterized as Project Veritas’s “as-applied” challenge – which
concerned Section 99’s ban on the secret, nonconsensual audio recording of any person lacking a reasonable expectation of privacy in what was recorded but not
Section 99 as a whole – it applied intermediate scrutiny. Id. at 262-63. It then rejected this challenge on
the merits, because it concluded that Section 99’s ban
on such recording “is narrowly tailored to serve the
purpose of protecting privacy by permitting only nonsecret recordings of private conversations,” even
though the statute banned secret recordings in circumstances where the private speaker might not have a
reasonable expectation of privacy. Id. at 265; see also
id. (“While the reasonable expectation of privacy
standard for deﬁning oral communications might be
the least restrictive alternative, that approach is not
required under intermediate scrutiny when the privacy of individual conversations is at stake.”).
There remained at that point only what the District Court characterized as Project Veritas’s facial
challenge to Section 99, which sought to invalidate the
statute in its entirety under the First Amendment
overbreadth doctrine. In addressing this challenge,
the District Court observed that, under that doctrine,
a plaintiff may bring a facial challenge to a statute –
under the First Amendment – even “though its application in the case under consideration may be constitutionally unobjectionable.” Id. (quoting Forsyth

App. 18
County v. Nationalist Movement, 505 U.S. 123, 129
(1992)). The District Court went on to hold, however,
that Project Veritas’s First Amendment overbreadth
challenge failed because “[m]ost applications of Section
99 are constitutional,” as “Section 99 constitutionally
protects private conversations in all settings and conversations with government ofﬁcials in nonpublic settings or about non-ofﬁcial matters.” Id. at 266.
In the wake of the District Court’s rulings, Project
Veritas then ﬁled an amended complaint on April 7,
2017. Following some further back and forth, it next
ﬁled a second amended complaint on September 29,
2017. In that complaint, Project Veritas asserted that,
but for Section 99, it would use or would have used secret recordings to:
•

“investigate instances of landlords taking advantage of housing shortages in Boston where
students may live in unsafe and dilapidated
conditions, as well as the ties between these
landlords and public ofﬁcials”;

•

“investigate and report on the public controversy over ‘sanctuary cities’ in Massachusetts
. . . by secretly investigating and recording interactions with government ofﬁcials in Boston
in the discharge of their duties in public
places, including police ofﬁcers, to learn more
about their concerns about immigration policy
and deportation”; and

•

“investigate and record government ofﬁcials
who are discharging their duties at or around
the State House in Boston and other public

App. 19
spaces to learn about their motives and concerns about immigration policy and deportation.”
Project Veritas further alleged that, but for Section 99, its “journalists would have attended” “a large
public event . . . in downtown Boston” on August 19,
2017, that involved “[i]ndividuals and organizations
from other states tied to the ongoing PVA ‘antifa’ investigation,” where they would have “secretly recorded
public ofﬁcials executing their duties as they related to
attendees.” At similar events in the future, the complaint added, Project Veritas planned to “employ cellular phone cameras and ‘button cameras’ ” in order to
“capture whether antifa public events and protests are
peaceful, whether police or other public ofﬁcials’ interactions with antifa members are non-violent, and otherwise capture the events to report to the public.”1
By the summer of 2018, discovery had been conducted and Project Veritas, like the Martin Plaintiffs
in their case, had ﬁled a motion for summary judgment. On December 10, 2018, in the same opinion in
which the District Court granted summary judgment
to the Martin Plaintiffs, the District Court granted
1

Project Veritas’s second amended complaint also requested
that the District Court hold that the statute was constitutionally
inﬁrm insofar as it prohibited the secret, nonconsensual recording
of oral communications made by any person speaking without a
reasonable expectation of privacy. It did not make this request in
its motion for summary judgment, however, partially “in recognition of the fact that the [District] Court ha[d] already dismissed
[its] claims insofar as they pertain[ed] to private individuals.”
Martin, 340 F. Supp. 3d at 104 & n.5.

App. 20
Project Veritas’s motion for summary judgment in
part. See Martin, 340 F. Supp. 3d at 109.
The District Court concluded that Project Veritas
had standing to challenge Section 99’s bar to the secret, nonconsensual audio recording of any government ofﬁcial discharging ofﬁcial duties in public
spaces. Id. at 104. The District Court also noted that
“[t]he breadth of potential conduct” that Project Veritas claimed it wanted to undertake in Massachusetts,
“none of which has actually occurred, creates serious
ripeness concerns.” Id. But, the District Court concluded that it “need[ed] no additional facts to resolve”
the legal dispute over Project Veritas’s challenge to the
statute’s application to the secret, nonconsensual audio recording of government ofﬁcials performing their
duties in public places and thus that the claim was
ripe. Id. at 103.
Then, for largely the same reasons that led the
District Court to grant summary judgment to the Martin Plaintiffs on their narrower-gauged First Amendment challenge to Section 99, it ruled that Project
Veritas’s challenge to the statute – insofar as it applied
to ban the secret, nonconsensual audio recording of
any government ofﬁcials discharging their duties in
public – was meritorious. Just like a ban on secretly
recording the audio of police ofﬁcers without their consent while they are carrying out their ofﬁcial duties in
public places, the District Court determined, a ban on
such recording of government ofﬁcials more generally
was subject to intermediate scrutiny and was not “narrowly tailored to serve a signiﬁcant government

App. 21
interest.” Id. at 106-07 (quoting Rideout v. Gardner, 838
F.3d 65, 72 (1st Cir. 2016)). The District Court explained that this was so because the statute’s total ban
on such recording went far beyond merely protecting
the “diminished privacy interests of government ofﬁcials performing their duties in public.” Id. at 107.
3.
Following the District Court’s summary judgment
rulings in favor of the Martin Plaintiffs and Project
Veritas, the parties participated in brieﬁng regarding
the injunction that the District Court would order. But,
on May 22, 2019, the District Court announced that it
would not issue an injunction and that instead it would
issue a declaratory judgment to the effect that Section
99 violated the First Amendment insofar as it barred
the secret recording “of government ofﬁcials, including
law enforcement ofﬁcers, performing their duties in
public spaces.” Martin v. Gross, 380 F. Supp. 3d 169,
173 (D. Mass. 2019).
The Defendants had requested that the District
Court narrow or specify the meaning of “government
ofﬁcials” and “public space.” Id. at 172. They also had
asked the District Court to alter its ruling so that
Section 99 could “still [be] enforceable where a surreptitious audio recording captures the oral communications of both a government ofﬁcial and a nongovernment official (i.e., a civilian).” Id. at 173 (emphasis
omitted). But, the District Court declined to

App. 22
“reconsider” its approach at that “late stage in the proceedings.” Id.
The District Court explained, however, that it gave
the terms “public space” and “government ofﬁcial” the
same meaning that it understood them to have in Glik,
which addressed whether an individual had a First
Amendment right to openly record the audio of police
ofﬁcers – without their consent – performing their duties in public. Martin, 380 F. Supp. 3d at 172-73 (discussing Glik, 655 F.3d at 82-85). In addition, the
District Court noted that in Glik, this Court found that
the plaintiff had a First Amendment right to record police ofﬁcers discharging their duties in public without
their consent, notwithstanding the fact that the plaintiff captured a private citizen – namely, the individual
the ofﬁcers were arresting – in the process. Id. at 173.
The District Court consequently declined to narrow its
declaratory judgment on that front, too. Id.
4.
The District Attorney ﬁled timely notices of appeal
in both cases. The BPD Commissioner did not appeal.
Project Veritas ﬁled its own timely notice of appeal
from the District Court’s decision dismissing its claims
that challenged Section 99, both in its entirety under
the First Amendment overbreadth doctrine and insofar as it banned the secret, nonconsensual recording of
any oral communication made by any person without
a reasonable expectation of privacy.

App. 23
II.
We begin with the District Attorney’s appeal from
the District Court’s grant of summary judgment to the
Martin Plaintiffs. The District Attorney contends that
the District Court erred in its treatment of both jurisdiction and the merits. We review the District Court’s
ruling granting summary judgment to the Martin
Plaintiffs de novo in determining “if the record, viewed
in the light most favorable to the nonmoving party”
evinces “no genuine issue of material fact,” such that
“the moving party is entitled to a judgment as a matter
of law.” Zabala-De Jesus v. Sanoﬁ-Aventis P.R., Inc.,
959 F.3d 423, 427-28 (1st Cir. 2020) (quoting Iverson v.
City of Boston, 452 F.3d 94, 98 (1st Cir. 2006)).
A.
The District Attorney’s jurisdictional objection
concerns ripeness. The ripeness inquiry is grounded in
Article III’s “prohibition against advisory opinions.”
Sindicato Puertorriqueño de Trabajadores v. Fortuño,
699 F.3d 1, 8 (1st Cir. 2012) (quoting Mangual v. RotgerSabat, 317 F.3d 45, 59 (1st Cir. 2003)). The requirement’s “basic rationale is to prevent the courts,
through avoidance of premature adjudication, from entangling themselves in abstract disagreements.” Id.
(quoting Abbott Lab’ys v. Gardner, 387 U.S. 136, 148
(1967)).
We have long used a “two-part test,” derived from
the Supreme Court’s decision in Abbott Laboratories,
to determine if a claim is ripe:

App. 24
First, the court must consider whether the issue presented is ﬁt for review. This branch of
the test typically involves subsidiary queries
concerning finality, definiteness, and the
extent to which resolution of the challenge
depends upon facts that may not yet be sufﬁciently developed. The second branch of the
Abbott Labs test requires the court to consider the extent to which hardship looms – an
inquiry that typically “turns upon whether
the challenged action creates a ‘direct and immediate’ dilemma for the parties.”
Ernst & Young v. Depositors Econ. Prot. Corp., 45 F.3d
530, 535 (1st Cir. 1995) (citation omitted) (quoting W.R.
Grace & Co. v. EPA, 959 F.2d 360, 364 (1st Cir. 1992)).
“[W]hen free speech is at issue,” however, “concerns over chilling effect call for a relaxation of ripeness requirements.” Sullivan v. City of Augusta, 511
F.3d 16, 31 (1st Cir. 2007). For that reason, “[a] party
need not marshal all its resources and march to the
line of illegality to challenge a statute on First Amendment grounds.” Sindicato Puertorriqueño de Trabajadores, 699 F.3d at 9. Still, “[t]o establish ripeness in a
pre-enforcement context, a party must have concrete
plans to engage immediately (or nearly so) in an arguably proscribed activity. This gives a precise shape to
disobedience, posing a speciﬁc legal question ﬁt for judicial review.” R.I. Ass’n of Realtors, Inc. v. Whitehouse,
199 F.3d 26, 33 (1st Cir. 1999).
To frame the ripeness inquiry here, it helps to describe the Martin Plaintiffs’ challenge more precisely

App. 25
with respect to where it falls along the facial/as-applied spectrum. With their challenge so described, we
then explain why we conclude that they have met their
burden to satisfy both the ﬁtness and hardship prongs
under the ripeness inquiry.
1.
Whether a challenge is facial or as-applied can
bear on whether it is ripe, see Kines v. Day, 754 F.2d
28, 30-31 (1st Cir. 1985), and so it is useful to address
at the outset of our jurisdictional analysis the parties’
dispute over the proper way to characterize the Martin
Plaintiffs’ First Amendment challenge. The dispute
arises because the Martin Plaintiffs contend that they
are bringing only “an as-applied claim,” while the District Attorney contends that they are making a “facial”
attack on Section 99.
This battle over labels is not fruitful. The Martin
Plaintiffs’ challenge takes aim at only a portion of Section 99, but it seeks to block it in circumstances beyond
the Martin Plaintiffs’ own recording. The challenge
thus has both “as-applied” and “facial” characteristics.
There is no obvious sense in which one predominates.
Fortunately, the Supreme Court has confronted
similar half-ﬁsh, half-fowl First Amendment challenges and instructed that where the challengers “do[ ]
not seek to strike [a statute] in all its applications” but
the relief sought “reach[es] beyond the particular circumstances of [the] plaintiffs,” they must “satisfy [the]
standards for a facial challenge to the extent of that

App. 26
reach.” John Doe No. 1 v. Reed, 561 U.S. 186, 194 (2010)
(emphasis added); see also Showtime Ent., LLC v.
Town of Mendon, 769 F.3d 61, 70 (1st Cir. 2014). We
thus proceed on the understanding that the Martin
Plaintiffs seek the invalidation – facially – of Section
99 but only insofar as it applies to bar the secret, nonconsensual audio recording of police ofﬁcers discharging their ofﬁcial duties in public spaces.
We emphasize, though, that the Martin Plaintiffs
contend that Section 99 is unconstitutional as applied
to their own recording. In that respect, they are not
bringing a First Amendment overbreadth challenge.
Nor are they seeking, however, to invalidate the measure only insofar as it applies to their own conduct. They
are bringing a challenge to a portion of Section 99 that
they contend cannot be applied to bar such recording,
whether undertaken by them or by anyone else, because it is not tailored in the way that they contend the
First Amendment requires.
With the Martin Plaintiffs’ challenge now better
in view, we are well positioned to explain why we conclude that it is ripe. We begin with the question
whether it is ﬁt for adjudication in federal court. We
then address whether the hardship prong of the ripeness inquiry has been met. In doing so, we are mindful
of the Supreme Court’s observation in Susan B. Anthony
List v. Driehaus, 573 U.S. 149 (2014), that the notion
that certain ripeness considerations are more prudential than constitutional “is in some tension” with the
Court’s admonition that “ ‘a federal court’s obligation
to hear and decide’ cases within its jurisdiction ‘is

App. 27
virtually unﬂagging.’ ” Id. at 167 (quoting Lexmark
Int’l, Inc. v. Static Control Components, Inc., 572 U.S.
118, 125-26 (2014)). But, because, as there, “the ‘ﬁtness’
and ‘hardship’ factors are easily satisﬁed here,” id., we
conclude the claim is ripe for our adjudication.
2.
Starting with ﬁtness, we discern no problematic
uncertainty as to the category of public ofﬁcials whom
the plaintiffs wish to record. Nor does the District Attorney suggest that the group of public ofﬁcials encompassed by the phrase “police ofﬁcers” is deﬁned in
terms that are too uncertain to permit federal court review.
The District Attorney does argue that there is a
problematic degree of uncertainty as to the locations
in which the recording of police ofﬁcers would occur,
which the Martin Plaintiffs identify as “public spaces.”
But, we do not agree. The Seventh Circuit in American
Civil Liberties Union of Illinois v. Alvarez held that a
pre-enforcement First Amendment challenge to a ban
on the audio recording of police ofﬁcers discharging
their duties in such places was justiciable. 679 F.3d at
594. Yet, the plaintiffs’ recording plan there was not
materially more detailed in describing the locations in
which the recording would occur. See id. at 593-94.
Indeed, the concern that “public spaces” is too
amorphous a category is mitigated here by the fact
that we used that same phrase in Glik and Gericke to
describe the geographical bounds of the citizen’s right

App. 28
to record police ofﬁcers that we recognized there. Glik,
655 F.3d at 84-85; Gericke, 753 F.3d at 8. Our cases
have ﬂeshed out the contours of that category by specifying that it includes traditional public fora, such as
public parks like the Boston Common (which was the
site of the recording in Glik, 655 F.3d at 84); the sites
of trafﬁc stops, including those that occur on the sides
of roads, see Gericke, 753 F.3d at 8 (recognizing the
attempted recording of a trafﬁc stop conducted on a
highway as falling within the First Amendment right
to record law enforcement discharging their duties in
“public spaces”); and other “inescapably” public spaces,
id. at 7, such as the location of the recording that occurred in Iacobucci v. Boulter, 193 F.3d 14 (1st Cir.
1999), which concerned a journalist’s arrest for openly
recording members “of the Pembroke Historic District
Commission” that were having a conversation in “the
hallway” of the town hall immediately following an
open public meeting, id. at 17-18.
Adding still further deﬁnition to the geographic
scope of the recording plan is the fact that – despite
the District Attorney’s contention to the contrary, see
District Att’y’s Br. at 39 – we, like the District Court,
see Martin, 380 F. Supp. 3d at 172-73, understand the
Martin Plaintiffs to be using the phrase “public spaces”
as Glik and Gericke did, and neither case, explicitly or
implicitly, held that publicly accessible private property fell within the scope of “public spaces” for purposes
of the right to record.
Finally, we discern no problematic uncertainty as
to the nature of the police activities that the Martin

App. 29
Plaintiffs’ challenge targets. Because the record sufﬁces to show that the recording for which protection is
sought is of police ofﬁcers only in “public spaces,” the
range of police conduct at issue here is no mystery, just
as it was not in Alvarez, given that the conduct consists
only of the discharge of ofﬁcial functions. See 679 F.3d
at 593-94.
The Martin Plaintiffs do seek protection for “secretly” rather than openly recording, however, and
that does make their challenge different from the one
involved in Alvarez. See id. at 607. But, that feature
of their challenge does not create uncertainty as to
whether Section 99 creates a risk that the Martin
Plaintiffs would be prosecuted for engaging in such recording.
As we have explained, the SJC has construed Section 99 to encompass recording not conducted in “plain
sight” of the person recorded, so long as that person
has no actual knowledge it is occurring. See Hyde, 750
N.E.2d at 971. So, insofar as the record sufﬁces to show
that Section 99 is enforced, there is nothing about the
nature of the recording of the kind in which the Martin
Plaintiffs plan to engage that, legally, insulates it from
such enforcement.
Nor does the fact that the recording will be carried
out secretly make the range of police activities that, in
principle, is subject to the recording different from the
range of such activities that was at issue in Alvarez.
Those activities – as described by the Martin Plaintiffs
– are only ones that ofﬁcers engage in while carrying

App. 30
out their ofﬁcial duties and then only while they are
doing so in public spaces.
The District Attorney counters that precisely because the recording at issue will be conducted secretly,
there is a “discrepancy . . . between the facts needed to
adjudicate [the Martin Plaintiffs’] claim[ ] and the facts
actually presented by [them].” As she sees it, courts
have previously recognized “a right to openly record”
police discharging ofﬁcial duties in public places but
only in cases with well-developed factual records and,
save for Alvarez, only ex post.
The District Attorney contends that a determination as to whether “a right to surreptitiously record”
warrants the same protection as a right to record
openly “is even more likely to depend on the factual
circumstances surrounding the recording,” in terms of
where it occurs, whose audio is recorded, and how the
fact of the recording is concealed. She asserts in this
regard that the Martin Plaintiffs have “failed to present the kind of concrete facts about any prospective
surreptitious recording [they] plan[ ] to make” that
would make it possible for “a court to adjudicate their
novel claims without resort to speculation, abstraction,
and hypothetical facts.” That the Martin Plaintiffs
acknowledge that they may end up capturing the audio
of private persons who interact with the police ofﬁcers
whom they record, the District Attorney suggests, exacerbates the concern.
It is true that, “[e]ven though a challenged statute
is sure to work the injury alleged,” there may be cases

App. 31
in which “adjudication might be postponed until ‘a better factual record might be available.’ ” Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 300
(1979) (quoting Reg’l Rail Reorganization Act Cases,
419 U.S. 102, 143 (1974)). But, this case is not one of
them.
We do not need a more fully developed record to
assess the merits of the Martin Plaintiffs’ purely legal
assertion that, under our decisions in Glik and
Gericke, a criminal statute can constitutionally bar
their planned First Amendment activity only if that activity would interfere with police ofﬁcers performing
their public duties or could be supported by a legitimate interest. Nor do we need additional factual development to be able to assess the purely legal question
that concerns the level of scrutiny that applies to a ban
on recording of this kind. See Susan B. Anthony List,
573 U.S. at 167 (ﬁnding that the challenge was ripe
where it “present[ed] an issue that [was] ‘purely legal,
and [would] not be clariﬁed by further factual development’ ” (quoting Thomas v. Union Carbide Agric. Prods.
Co., 473 U.S. 568, 581 (1985))); Whitehouse, 199 F.3d at
34 (concluding that the claim was ripe because it presented a “single, purely legal question”); see also Commodity Trend Serv. v. Commodity Futures Trading
Comm’n, 149 F.3d 679, 687 n.3 (7th Cir. 1998) (“[A] facial constitutional challenge presents only a legal issue
– the quintessentially ‘ﬁt’ issue for present judicial resolution. . . .”).
There also is no need for additional factual development for us to be able to assess the merits of the

App. 32
Martin Plaintiffs’ assertion that the categorical prohibition that Section 99 places on the recording for which
they seek protection is, on its face, too uncalibrated to
survive such First Amendment review. We may assess
that contention on this record, taking due account of
both the fact that third parties may be recorded and
that secret recording can take many forms. For while
those features bear on the merits of the Martin Plaintiffs’ challenge, they do not render the contention that
the ban at issue is overly broad unﬁt for resolution in
federal court.
Indeed, insofar as the District Attorney posits that
the way to develop a better record would be for the
Martin Plaintiffs to ﬁrst violate the statute, the suggested approach is itself problematic. It runs headlong
into the Supreme Court’s consistent admonition that
we avoid putting First Amendment plaintiffs to the
stark choice of having their speech chilled or committing a crime. See, e.g., Babbitt, 442 U.S. at 298 (“When
the plaintiff has alleged an intention to engage in a
course of conduct arguably affected with a constitutional interest, but proscribed by a statute, and there
exists a credible threat of prosecution thereunder, he
‘should not be required to await and undergo a criminal prosecution as the sole means of seeking relief.’ ”
(quoting Doe v. Bolton, 410 U.S. 179, 188 (1973)));
Dombrowski v. Pﬁster, 380 U.S. 479, 486 (1965) (“Because of the sensitive nature of constitutionally protected expression, we have not required that all of
those subject to overbroad regulations risk prosecution
to test their rights.”).

App. 33
3.
If we shift our focus to the hardship prong of the
ripeness inquiry, we also see no reason to conclude that
there is a ripeness problem. Section 99 plainly makes
it a crime to engage in the type of recording that the
Martin Plaintiffs seek to undertake. In fact, the District Attorney does not dispute that point. Nor has the
District Attorney “convincingly demonstrate[d] that
the statute is moribund or that it simply will not be
enforced.” N.H. Right to Life Pol. Action Comm. v. Gardner, 99 F.3d 8, 16 (1st Cir. 1996). Indeed, Section 99 has
been enforced in the not-too-distant past. Martin, 340
F. Supp. 3d at 93-94. Thus, the Martin Plaintiffs have
met their burden at this stage of the proceedings to establish that it is “highly probable that [they] will at
some point ﬁnd [themselves] either in violation of ”
Section 99 “or be forced to self-censor.” N.H. Right to
Life Pol. Action Comm., 99 F.3d at 16; see also Alvarez,
679 F.3d at 588, 592 (ﬁnding no Article III bar where
the plaintiff explained that “because of a credible fear
of prosecution, it ha[d] not followed through on its [recording] program,” where the “statute plainly prohibit[ed] the [plaintiffs’] proposed audio recording,”
and where “[t]he statute [had] not fallen into disuse”).
4.
The District Attorney does point to various precedents that she contends demonstrate that the Martin
Plaintiffs’ challenge is too unformed to satisfy either
the ﬁtness or the hardship prongs of the ripeness

App. 34
inquiry. But, those authorities, if anything, suggest the
opposite.
The District Attorney ﬁrst points to the portion of
Babbitt in which the Supreme Court found a First
Amendment challenge to a state law denying labor organizers access to farmworkers on privately owned
property not ripe because the challenge “depend[ed] inextricably upon the attributes of the situs involved.”
442 U.S. at 304. But, while the District Attorney contends the same is the case here, the Court was concerned there that only certain privately owned places
to which the plaintiffs might be denied access would be
sufﬁciently analogous to the company town in Marsh
v. Alabama, 326 U.S. 501 (1946), to trigger First
Amendment constraints at all. Babbitt, 442 U.S. at 304.
Here, by contrast, the Martin Plaintiffs seek to engage
in recording only in those “public spaces” that we have
identiﬁed as ones in which First Amendment constraints were triggered. See Gericke, 753 F.3d at 8-9;
Glik, 655 F.3d at 82.
The District Attorney’s reliance on Renne v. Geary,
501 U.S. 312 (1991), is also misplaced. In that case, the
ripeness problem arose from the fact that there was
“no factual record of an actual or imminent application” of the challenged state law measure against the
plaintiffs. Id. at 321-22. But, no similar reason for concern exists in this case, given the record of past enforcement of Section 99.
Finally, the District Attorney relies on Kines v.
Day, which concerned an inmate’s First Amendment

App. 35
challenge to a prison regulation restricting his access
to certain publications. 754 F.2d at 29. But, although
we found that his challenge as to how that regulation
might actually be applied to him in some unspeciﬁed
future circumstance was not ripe, we addressed his facial challenge to that rule without questioning that it
was properly subject to our review of the merits. See
id. at 29-31. Thus, Kines offers no support to the District Attorney, as the Martin Plaintiffs’ challenge more
closely resembles the facial challenge in Kines that we
addressed on the merits than the as-applied challenge
that we held to be unripe in that case. See also Reed,
561 U.S. at 194 (explaining that a claim can have “characteristics” of both a facial and an as-applied challenge
but that it is the “relief that would follow” and not the
“label” that “matters”); see also supra Section II.A.1.
5.
For these reasons, the District Court correctly
ruled that the Martin Plaintiffs’ pre-enforcement challenge satisﬁes both the “ﬁtness” and “hardship” prongs
of the test for ripeness under Abbott Laboratories, 387
U.S. at 148-49, and therefore necessarily meets the
demands of Article III with respect to ripeness. See
Alvarez, 679 F.3d at 594 (“So long as th[e] uncertainty
does not undermine the credible threat of prosecution
or the ability of the court to evaluate the merits of the
plaintiff ’s claim in a preenforcement posture, there is
no reason to doubt standing.”).

App. 36
B.
We move on, then, to the merits. In taking them
up, we ﬁrst need to address whether the recording at
issue – secretly conducted though it is – warrants at
least some degree of First Amendment protection. Because we conclude that it does, we next need to explicate the level of First Amendment scrutiny that
Section 99’s ban on that recording warrants. With that
analytical foundation in place, we then explain why we
conclude that, given the breadth of the measure’s prohibition on that kind of recording, it cannot survive the
degree of scrutiny that we conclude we must apply.
1.
The Martin Plaintiffs challenge a restriction on
their right to collect information rather than on their
right to publish information that has been lawfully
collected. But, the First Amendment limits the government regulation of information collection, as our decisions in Glik and Gericke show. See also Branzburg v.
Hayes, 408 U.S. 665, 681 (1972) (“[W]ithout some protection for seeking out the news, freedom of the press
could be eviscerated.”). In fact, as we next explain,
those decisions show that the First Amendment imposes at least some restrictions on the government’s
authority to bar the audio recording of police ofﬁcers
while they are discharging their ofﬁcial duties in public spaces.
As we explained in Glik, the First Amendment’s
protection “encompasses a range of conduct related to

App. 37
the gathering and dissemination of information.” 655
F.3d at 82. That is so, Glik elaborated, because
“[g]athering information about government ofﬁcials in
a form that can readily be disseminated to others
serves a cardinal First Amendment interest in protecting and promoting ‘the free discussion of governmental
affairs.’ ” Id. (quoting Mills v. Alabama, 384 U.S. 214,
218 (1966)).
In recognizing the “particular signiﬁcance” of First
Amendment newsgathering rights “with respect to
government,” moreover, Glik noted that “the state has
a special incentive to repress opposition and often
wields a more effective power of suppression.” Id.
(quoting First Nat’l Bank v. Bellotti, 435 U.S. 765, 777
n.11 (1978)). Glik explained in this regard that protecting the right to collect information about government
ofﬁcials “not only aids in the uncovering of abuses, but
also may have a salutary effect on the functioning of
government more generally.” Id. at 82-83 (citation
omitted). Glik added that the justiﬁcations for protecting newsgathering were “particularly true” when it
came to collecting information about “law enforcement
ofﬁcials.” Id. at 82.
Based on these observations, Glik held the following. It ruled that the federal constitutional guarantee
of freedom of speech protects the right to record “government ofﬁcials, including law enforcement ofﬁcers,
in the discharge of their duties in a public space,” id. at
85, even when the recording, which there involved both
audio and video, is undertaken without the consent of
the person recorded, id. at 80.

App. 38
Gericke then went on to extend Glik. See Gericke,
753 F.3d at 7-8. There, the person attempting to record
both audio and video was an individual whom the police had pulled over during a trafﬁc stop, id. at 7, and
thus, unlike in Glik, she was not a mere observer to the
police encounter that was recorded but a participant in
it. Further distinguishing the case from Glik, the recording at issue in Gericke attempted to capture an encounter that occurred on the side of a highway rather
than in a public park. Id. at 3-4. But, even though the
recording was attempted by a person the police had
stopped in a location that was hardly a traditional site
for First Amendment expression, Gericke held based
on Glik that the recording at issue warranted First
Amendment protection, at least to some extent. Id. at
7. Indeed, Gericke reafﬁrmed Glik’s broad formulation
of the kind of recording that constituted newsgathering and found that it encompassed the attempted recording there. Id. at 7-9.
Notably, Glik and Gericke accord with the decisions of several of our sister circuits that similarly
have held that such recording warrants some degree of
First Amendment protection as a type of newsgathering. See, e.g., Alvarez, 679 F.3d at 600 (ﬁnding that the
challenged eavesdropping statute “burdens speech and
press rights” because it “interferes with the gathering
and dissemination of information about government
ofﬁcials performing their duties in public”); Fields v.
City of Philadelphia, 862 F.3d 353, 359 (3d Cir. 2017)
(“[R]ecording police activity in public falls squarely
within the First Amendment right of access to

App. 39
information.”); Smith v. City of Cumming, 212 F.3d
1332, 1333 (11th Cir. 2000) (recognizing the First
Amendment “right to gather information about what
public ofﬁcials do on public property” and “to record
matters of public interest”); Fordyce v. City of Seattle,
55 F.3d 436, 442 (9th Cir. 1995) (ﬁnding a genuine dispute of material fact as to whether ofﬁcers had interfered with the plaintiff ’s “First Amendment right to
gather news”). And, while some courts of appeals have
held that this right to record is not clearly established
in some contexts for purposes of qualiﬁed immunity,
see, e.g., Kelly v. Borough of Carlisle, 622 F.3d 248, 263
(3d Cir. 2010), none has held that the right does not
exist.
It is true that these other cases – like Glik and
Gericke themselves – concerned the open rather than
the secret, nonconsensual recording of police ofﬁcers.
But, Glik described the scope of the recording activity
that triggers First Amendment protection as a type of
newsgathering capaciously as recording “government
ofﬁcials, including law enforcement ofﬁcers, in the discharge of their duties in a public space.” 655 F.3d at 85.
Gericke then went on to use that same broad formulation, 753 F.3d at 9, which does not exempt secret recording.
The logic that Glik and Gericke relied on in setting
forth that encompassing description of First Amendment-protected recording of police supplies strong support for understanding it to encompass recording even
when it is conducted “secretly,” at least as Section 99
uses that term. To understand why, one need only

App. 40
consider the Hyde dissent’s example of the recording of
the beating of Rodney King.
Like the many recordings of police misconduct
that have followed, the recording in the King case was
made from a location unlikely to permit it to qualify as
recording conducted in “plain sight” of those recorded,
just as the dissent in Hyde emphasized. But, as recent
events around the nation vividly illustrate, such undetected recording can itself serve “a cardinal First
Amendment interest in protecting and promoting ‘the
free discussion of governmental affairs,’ ” and “not only
aids in the uncovering of abuses . . . but also may have
a salutary effect on the functioning of government
more generally.” Glik, 655 F.3d at 82-83 (quoting Mills,
384 U.S. at 218); cf. Fields, 862 F.3d at 359 (“Civilian
video . . . ﬁlls the gaps created when police choose not
to record video or withhold their footage from the public.”).
In fact, as the Martin Plaintiffs point out, audio
recording of that sort can sometimes be a better tool
for “[g]athering information about” police ofﬁcers conducting their ofﬁcial duties in public, and thereby facilitating “the free discussion of governmental affairs”
and “uncovering . . . abuses,” than open recording is.
See Glik, 655 F.3d at 82 (quoting Mills, 384 U.S. at 218).
That is not only because recording undertaken from a
distance – and thus out of plain sight of the person recorded – will often be the least likely to disrupt the police in carrying out their functions. It is also because
recording that is not conducted with the actual
knowledge of the police ofﬁcer – even if conducted

App. 41
proximate to the person recorded – may best ensure
that it occurs at all, given the allegations that the Martin Plaintiffs set forth about the resistance from ofﬁcial
quarters that open recording sometimes generates.
In sum, a citizen’s audio recording of on-duty police ofﬁcers’ treatment of civilians in public spaces
while carrying out their ofﬁcial duties, even when conducted without an ofﬁcer’s knowledge, can constitute
newsgathering every bit as much as a credentialed reporter’s after-the-fact efforts to ascertain what had
transpired. The circumstances in which such recording
could be conducted from a distance or without the ofﬁcers’ knowledge and serve the very same interest in
promoting public awareness of the conduct of law enforcement – with all the accountability that the provision of such information promotes – are too numerous
to permit the conclusion that recording can be prohibited in all of those situations without attracting any
First Amendment review. We thus hold that the Martin
Plaintiffs’ proposed recording constitutes a type of
newsgathering that falls within the scope of the First
Amendment, even though it will be undertaken secretly within the meaning of Section 99.2

2

We thus need not and do not address here the possible
bounds of this right, such as whether it includes recording via deceptive tactics that would afﬁrmatively mislead ofﬁcers into incorrectly thinking that they are not being recorded.

App. 42
2.
That such recording qualiﬁes as a species of protected newsgathering does not mean that Section 99’s
criminal bar against it necessarily violates the First
Amendment. We cautioned in Glik that the right to record that was recognized there “is not without limitations.” Id. at 84. We thus must determine whether the
“limitations” that Section 99 imposes on this type of
recording – conducted secretly as it will be – comport
with the First Amendment.
Glik had “no occasion to explore those limitations”
because the audio recording of the ofﬁcers at issue
there occurred “peaceful[ly],” from a “comfortable” distance, in a “public space,” and in a manner that did “not
interfere with the police ofﬁcers’ performance of their
duties.” Id. But, although Glik made clear that such
peaceable open recording – which captured an “arrest
on the Boston Common” – was “worlds apart” from the
recording of a “trafﬁc stop,” id. at 85, Gericke explained
that the distinct concerns about public safety and interference with ofﬁcial duties implicated by such a stop
did not, without more, “extinguish” the right we recognized in Glik. Gericke, 753 F.3d at 7 (discussing Glik,
655 F.3d at 82-83). In fact, although Gericke recognized
that the circumstances of a given police encounter
“might justify a safety measure” that could incidentally constrain citizens’ right to record, it held that
“a police order that is speciﬁcally directed at the First
Amendment right to [record] police performing their
duties in public may be constitutionally imposed only
if the ofﬁcer can reasonably conclude that the

App. 43
[recording] itself is interfering, or is about to interfere,
with his duties.” Id. at 8.
Gericke did recognize that the government might
choose to regulate such recording in a more general, ex
ante manner. But, it concluded that the government
would need a “legitimate governmental purpose” to impose a limitation of that sort. Id. Thus, in light of Glik
and Gericke, we must decide whether either the Commonwealth’s interest in prohibiting conduct that “interfere[s]” with police ofﬁcers’ ability to carry out their
duties or some other “legitimate governmental purpose” justiﬁes Section 99’s ban on the secret, nonconsensual audio recording of police ofﬁcers discharging
their ofﬁcial duties in public spaces. Id.; see also Glik,
655 F.3d at 84.
Before answering that question, though, we must
decide how tailored Section 99’s ban on the recording
here needs to be to the legitimate governmental interest that the Commonwealth claims Section 99’s criminal bar against the recording at issue serves, whether
it is the interest in preventing interference with the
discharge of police functions or some other interest altogether. We thus turn to that antecedent question,
which sounds in the familiar vernacular of “level of
scrutiny.”
a.
The District Court agreed with the Martin Plaintiffs that Section 99’s ban is content neutral, because
it prohibits secret recording without regard to the

App. 44
topics or ideas recorded. Martin, 340 F. Supp. 3d at 105;
see also Jean, 492 F.3d at 29 (“[S]ection 99 is a
‘content-neutral law of general applicability.’ ” (quoting Bartnicki v. Vopper, 532 U.S. 514, 526 (2001))). Accordingly, the District Court also agreed with the
Martin Plaintiffs that strict scrutiny would not be appropriate. Martin, 340 F. Supp. 3d at 105.
The District Court expressly pointed out, however,
that the Defendants did not develop an argument that
“a standard lower than intermediate scrutiny” should
be applied, as they merely suggested that such a lower
standard “might” be appropriate. Id. at 106. Thus, the
District Court accepted the Martin Plaintiffs’ argument that Section 99’s bar on the secret recording at
issue should be evaluated under “intermediate scrutiny,” id. at 105, which required the District Court to
determine whether the bar is “narrowly tailored to
serve a signiﬁcant government interest,” id. at 106
(quoting Rideout, 838 F.3d at 71-72). The District
Court also noted that for a law to survive intermediate
scrutiny, it “must ‘leave open ample alternative channels for communication.’ ” Id. (quoting Ward v. Rock
Against Racism, 491 U.S. 781, 791 (1989)).
On appeal, the District Attorney challenges the
District Court’s decision to apply that level of scrutiny
by referencing precedents applying forum analysis to
evaluate restrictions on expression. She notes that the
category “public spaces” encompasses not only traditional public fora like public parks but also limited and
nonpublic fora, such as the shoulders of highways and
certain areas of public buildings like the site of the

App. 45
recording at issue in Iacobucci, 193 F.3d at 18. But, she
points out, the intermediate level of scrutiny that applies to content-neutral restrictions on expression in
traditional public fora, see Cutting v. City of Portland,
802 F.3d 79, 84 (1st Cir. 2015) (applying intermediate
scrutiny), gives way to a lower level of scrutiny when
we evaluate such restrictions in other fora, see Am.
Freedom Def. Initiative v. Mass. Bay Transp. Auth., 781
F.3d 571, 581 (1st Cir. 2015) (asking as to nonpublic
fora whether the restrictions “are not viewpoint-based
and are reasonable in light of the purposes for which
the forum was established”). For that reason, the District Attorney contends, the District Court erred in applying intermediate scrutiny to Section 99’s bar across
the board, as by doing so the District Court failed to
attend to the differing locales in which the planned recording would occur and thus required the government
to satisfy a degree of ﬁt between means and ends that
was unnecessarily demanding.
Neither Glik nor Gericke, however, purported to
predicate the level of scrutiny that applied to the challenged recording restrictions on forum analysis. And
while the Supreme Court has not addressed a challenge to a prohibition against secretly (or, for that matter, openly) recording law enforcement, there is no
indication in its precedent that the “forum based” approach that is used to evaluate a “regulation of speech
on government property,” Int’l Soc’y for Krishna Consciousness v. Lee, 505 U.S. 672, 678 (1992) (emphasis
added), necessarily applies to a regulation on the collection of information on public property, see United

App. 46
States v. Am. Libr. Ass’n, 539 U.S. 194, 205 (2003) (plurality opinion) (“[P]ublic forum principles . . . are out of
place in the context of this case.”); see also id. (“We expressly declined to apply forum analysis [in National
Endowment for the Arts v. Finley, 524 U.S. 569
(1998)].”); Legal Servs. Corp. v. Velazquez, 531 U.S. 533,
544 (2001) (noting that the Court’s limited forum cases
were related to but did not control its subsidy cases).
Compare March v. Mills, 867 F.3d 46, 53-54 (1st Cir.
2017) (applying forum analysis to a statute that “restrict[ed] noisemaking even in public parks . . . [and]
other traditional public fora”), with Pleasant Grove
City v. Summum, 555 U.S. 460, 480 (2009) (“[A]s a general matter, forum analysis simply does not apply to
the installation of permanent monuments on public
property.”). Nor does the District Attorney offer anything beyond assertion as to why forum analysis – in a
strict sense – applies in the context of the right to engage in the newsgathering involved here.
The application of intermediate scrutiny also accords with the approach that we took in Glik and
Gericke, even though neither case explicitly named the
level of scrutiny deployed. Indeed, the District Attorney – by repeatedly emphasizing that the facts underlying Glik took place in a traditional public forum and
by conceding that intermediate scrutiny pertains in
such a setting – implicitly recognizes that we effectively applied that level of scrutiny in Glik. See Glik,
655 F.3d at 84 (recognizing that the right to record may
be subject to appropriate time, place, and manner restrictions); see also, e.g., Rideout, 838 F.3d at 71-72

App. 47
(citing Ward, 491 U.S. at 791, a case about time, place,
or manner restrictions, in articulating the inquiry for
intermediate scrutiny); McGuire v. Reilly, 260 F.3d 36,
43 (1st Cir. 2001) (describing the “level of analysis” that
applies to “time, place, and manner” restrictions as “intermediate scrutiny”). And, while Gericke was no more
express than Glik in naming the level of scrutiny applied, it purported only to be following Glik, despite the
fact that the recording there did not occur in a traditional public forum.
Finally, the intermediate level of scrutiny the District Court applied roughly tracks the scrutiny applied
to restrictions on newsgathering in other locales to
which the public generally has access to collect information. This correspondence reinforces our conclusion
that we have no reason to depart from the District
Court’s approach here. See Press-Enter. Co. v. Superior
Ct., 478 U.S. 1, 13-14 (1986) (holding that a criminal
proceeding may be closed to protect the accused’s right
to a fair trial only if doing so is “narrowly tailored to
serve that interest,” meaning that “there is a substantial probability that the defendant’s right to a fair trial
will be prejudiced by publicity that closure would prevent” and that “reasonable alternatives to closure cannot adequately protect the defendant’s fair trial rights”
(quoting Press-Enter. Co. v. Superior Ct., 464 U.S. 501,
510 (1984))); see also Richmond Newspapers, Inc. v.
Virginia, 448 U.S. 555, 580-81 (1980) (plurality opinion); United States v. Three Juveniles, 61 F.3d 86, 88
(1st Cir. 1995).

App. 48
b.
We have, then, but one task left to complete: We
need to review the District Court’s application of intermediate scrutiny to the bar that Section 99 imposes,
which in turn requires us to evaluate each of the Commonwealth’s purported interests in enacting the ban
on the type of recording in which the Martin Plaintiffs
plan to engage and the extent to which Section 99 furthers those interests.3 As we will explain, we conclude
that the District Court rightly determined that, even
though intermediate scrutiny does not require that a
measure be the least restrictive means of achieving the
government’s interests, Section 99 is not narrowly tailored to further either of the identiﬁed governmental
interests – namely, preventing interference with police
activities and protecting individual privacy – notwithstanding their importance. See Martin, 340 F. Supp. 3d
at 106-08.
i.
The government is under no obligation to permit a
type of newsgathering that would interfere with police
ofﬁcers’ ability to do their jobs. But, neither Glik nor
Gericke accepted the notion that the mere act of open
recording, without more, so severely disrupted ofﬁcers
in carrying out their duties that it justiﬁed the restriction of such recording in the absence of the consent
3

We note also that at least one other circuit has suggested
that restrictions on open recording in public places should be subject to intermediate scrutiny. See Alvarez, 679 F.3d at 604.

App. 49
of all recorded persons. Those cases in this respect establish, at the least, that the police’s own view of
whether recording of their work is desirable is not the
measure of whether it causes interference that would
justify its total prohibition.
Because the recording here will not be done in
plain sight or with the actual knowledge of the ofﬁcers
whose words will be recorded, they will not even be
aware that such recording is occurring. For that reason, they will not be on speciﬁc notice of a need to take
precautions to ensure that words that they do not wish
to have recorded are not. But, insofar as the mere prospect of being recorded leads ofﬁcers to feel the need to
refrain from uttering words or engaging in actions that
would constitute misconduct, it hardly interferes with
their capacity to perform their ofﬁcial duties. Nor does
the record show how heightened consciousness on the
ofﬁcers’ part that recording may be occurring, even if
the ofﬁcers are not on speciﬁc notice that it actually is,
would appreciably alter their ability to protect the public either in gross or at the retail level of more individualized interactions.
It was suggested at oral argument that ofﬁcers
seeking to converse with conﬁdential informants could
be constrained in their ability to do so, in light of the
possibility that any such exchange would be recorded
by an unknown and unseen observer. See also Alvarez,
679 F.3d at 613 (Posner, J., dissenting). But, we presume ofﬁcers are already careful when engaging in
such sensitive conversations within earshot of others,
and the record offers no other details about how any

App. 50
such heightened caution might disrupt police practice.
Thus, the record provides no support for the conclusion
that Section 99 reduces interference with ofﬁcial police
responsibilities in any meaningful way with respect to
at least the mine-run of circumstances – whether involving an arrest in a park, a roadside trafﬁc stop, or a
gathering in a foyer following a public meeting in a
public building – in which police ofﬁcers may be “secretly” recorded without their consent while discharging their ofﬁcial functions in public spaces. See
Gericke, 753 F.3d at 8; cf. City of Houston v. Hill, 482
U.S. 451, 463 n.11 (1987) (explaining that true “physical obstruction of police action” may “constitutionally
be punished under a properly tailored statute” but that
such an objective cannot be accomplished by “broadly
criminalizing” First Amendment activity directed toward an ofﬁcer).
Accordingly, we conclude that the statute’s outright ban on such secret recording is not narrowly tailored to further the government’s important interest in
preventing interference with police doing their jobs
and thereby protecting the public. See Rideout, 838
F.3d at 72; see also Turner Broad. Sys., Inc. v. FCC, 512
U.S. 622, 664 (1994) (plurality opinion) (explaining
that even where the government’s asserted interests
are important it still “must demonstrate that the recited harms are real, not merely conjectural, and that
the regulation will in fact alleviate these harms in a
direct and material way”); City of Los Angeles v. Preferred Commc’ns, Inc., 476 U.S. 488, 496 (1986) (advising that courts should not “simply assume” that a

App. 51
statute “will always advance the asserted state interests sufﬁciently” (quoting Members of City Council v.
Taxpayers for Vincent, 466 U.S. 789, 803 n.22 (1984))).
Rather, despite a record that does little to show how
secret, nonconsensual audio recording of police ofﬁcers
doing their jobs in public interferes with their mission,
Section 99 broadly prohibits such recording, notwithstanding the myriad circumstances in which it may
play a critical role in informing the public about how
the police are conducting themselves, whether by documenting their heroism, dispelling claims of their misconduct, or facilitating the public’s ability to hold them
to account for their wrongdoing.
ii.
There remains the question whether Section 99’s
prohibition against the recording at issue is nevertheless properly calibrated to serve some other “legitimate
governmental purpose.” Gericke, 753 F.3d at 8. The
District Attorney contends that it is, because although
Massachusetts “values public scrutiny of government
affairs, including that accomplished through recordings,” it has a “signiﬁcant interest” in “assur[ing] that
its citizens are aware of when they are being recorded,
safeguarding a speciﬁc type of privacy – not freedom
from being recorded, but rather notice of being recorded.” The District Attorney also presses the related
contention that protecting such a privacy interest
helps ensure “the vibrancy of [ ] public spaces and the
quality of the discourse that occurs there” by allowing

App. 52
speakers to take comfort in the fact that they will not
be unwittingly recorded.
Protecting the privacy of the citizens of Massachusetts is a legitimate and important governmental interest. See Bartnicki, 532 U.S. at 532-33. But, as we
noted in Glik, “[i]n our society, police ofﬁcers are expected to endure signiﬁcant burdens caused by citizens’ exercise of their First Amendment rights.” 655
F.3d at 84; see also City of Houston, 482 U.S. at 462-63
(“The freedom of individuals verbally to oppose or challenge police action without thereby risking arrest is
one of the principal characteristics by which we distinguish a free nation from a police state.”). That includes
the loss of some measure of their privacy when doing
their work in public spaces. See Gertz v. Robert Welch,
Inc., 418 U.S. 323, 344 (1974) (“An individual who decides to seek governmental ofﬁce . . . runs the risk of
closer public scrutiny than might otherwise be the
case. And society’s interest in the ofﬁcers of government is not strictly limited to the formal discharge of
ofﬁcial duties.”); Jean, 492 F.3d at 30 (ﬁnding police ofﬁcers’ privacy interests “virtually irrelevant” where
they were recorded searching a private home). Thus,
even if there might be circumstances in which ofﬁcers
– while in public spaces and working – have some privacy interest that the prospect of secret recording
could threaten, the total ban on all such audio recording of any of their ofﬁcial activities in public spaces
simply because it qualiﬁes as being done “secretly”
within the meaning of Hyde is too unqualiﬁed to be

App. 53
justiﬁed in the name of protecting that degree of privacy.
Rather than dispute this point, the District Attorney focuses on the fact that private citizens in the vicinity of the ofﬁcers are not themselves governmental
employees, let alone law enforcement ofﬁcers on the
job. She argues that “[c]ivilians have many reasons to
voluntarily interact” with government ofﬁcials, including police ofﬁcers, in public and that even civilians who
have no intention of interacting with police “might
simply be within audible recording range.” Yet, the
District Attorney notes, their words may be picked up
by the recording that the Martin Plaintiffs contend
they have a First Amendment right to undertake without those persons having any notice that recording is
taking place.
In pressing this point, the District Attorney contends that special attention must be paid to the fact
that “when a recording is made surreptitiously, the person being recorded unwittingly becomes a captive.” She
supports this argument by invoking the Supreme
Court’s captive-audience cases. See, e.g., Hill v. Colorado, 530 U.S. 703, 716-17 (2000); Rowan v. U.S. Post
Off. Dep’t, 397 U.S. 728, 738 (1970).
In that line of cases, the Court recognized that
government can protect an “interest” in “avoid[ing] unwelcome speech” if “the degree of captivity makes it
impractical for the unwilling viewer or auditor to avoid
exposure.” Hill, 530 U.S. at 717-18 & n.24 (quoting
Erznoznik v. Jacksonville, 422 U.S. 205, 209 (1975)).

App. 54
The District Attorney argues that the recording of an
unwitting private citizen is tantamount to rendering
that person a captive because “that person is unaware
of the recording, and thus is deprived of any meaningful opportunity to do anything about it.”
But, the captive-audience line of authority concerns restrictions on expression that the government
may impose to protect persons from being subjected to
speech they wish to avoid. The risk of being subjected
to unwanted speech, of course, is not a concern here.
Moreover, the only individuals who will be recorded
by the Martin Plaintiffs are those in public spaces
who are within earshot of police ofﬁcers and choose to
speak. Thus, we do not see how – across the board – the
proposed secret recording results in “substantial privacy interests . . . being invaded in an essentially intolerable manner.” Cohen v. California, 403 U.S. 15, 21
(1971). For similar reasons, we are not persuaded by
the District Attorney’s reliance on Bartnicki v. Vopper,
532 U.S. at 517, 533. The differences between the circumstances of the telephone conversation recorded
there and those in which the recording would occur under the Martin Plaintiffs’ desired rule, which pertains
only to a far more public setting, are too great to make
the analogy a persuasive one.
We can envision circumstances in which an individual who is interacting with (or in the vicinity of ) a
police ofﬁcer might have a particularly heightened reason to wish to have notice that her comments are being
recorded. Cf. Fla. Star v. B.J.F., 491 U.S. 524, 537 (1989)
(recognizing a privacy interest in the identity of rape

App. 55
victims); United States v. Cotto-Flores, 970 F.3d 17, 38
(1st Cir. 2020) (recognizing a compelling interest in
“protecting ‘minor victims of sex crimes from further
trauma and embarrassment’ ” (quoting Maryland v.
Craig, 497 U.S. 836, 852 (1990))); United States v. Tse,
375 F.3d 148, 164 (1st Cir. 2004) (recognizing the “important concern[ ]” of preventing unnecessary embarrassment to witnesses). But see Branzburg, 408 U.S. at
693 (minimizing the interest of newspaper informants
who wish to remain anonymous where “[t]hey may fear
that disclosure will threaten their job security or personal safety or that it will simply result in dishonor or
embarrassment”); see Alvarez, 679 F.3d at 611 (Posner,
J., dissenting) (cataloging examples of interactions
that an ofﬁcer may have with private citizens in public). Notice of recording may help such private individuals avoid the shame or embarrassment of the
recording of their unﬁltered comments or help prevent
their statements from being taken out of context. See
1968 Commission Report at 12 (expressing an interest
in protecting “the person who chooses to speak frankly
and freely in personal conversation” from the exposure
of “what he says in jest, with a wink, for its shock value
on his conversational partner, or to test some belief
held by the other party”). But, as a general matter, an
individual’s privacy interests are hardly at their zenith
in speaking audibly in a public space within earshot of
a police ofﬁcer. Cf. Cox Broad. Corp. v. Cohn, 420 U.S.
469, 494-95 (1975). Thus, we conclude that Massachusetts may not deploy the blunderbuss prohibitory approach embodied in Section 99 to protect civilians in
the core set of situations where their privacy interests

App. 56
may be heightened. See Ward, 491 U.S. at 799 (“Government may not regulate expression in such a manner that a substantial portion of the burden on speech
does not serve to advance its goals.”); Frisby v. Schultz,
487 U.S. 474, 485 (1988) (“A complete ban can be narrowly tailored, but only if each activity within the proscription’s scope is an appropriately targeted evil.”);
Cutting, 802 F.3d at 86 (“[B]y demanding a close fit
between ends and means, the tailoring requirement
prevents the government from too readily sacriﬁcing
speech for efﬁciency.” (quoting McCullen v. Coakley,
573 U.S. 464, 486))); cf. Fla. Star, 491 U.S. at 539 (“We
have previously noted the impermissibility of categorical prohibitions upon media access where important
First Amendment interests are at stake.”).
In light of our analysis to this point, we need not
address whether the statute leaves open viable alternative channels for First Amendment activity. See
Watchtower Bible & Tract Soc’y of N.Y., Inc. v. Village
of Stratton, 536 U.S. 150, 168-69 (2002) (striking down
an ordinance on tailoring grounds without reaching
whether alternative channels of communication were
sufﬁcient). We are not persuaded, however, by the District Attorney’s assertion that Section 99 “preserves
adequate alternative channels” because it “does not
limit open recording in any way.” “[A]udio and audiovisual recording are uniquely reliable and powerful
methods of preserving and disseminating news and information about events that occur in public,” Alvarez,
679 F.3d at 607, and the undisputed record supports
the Martin Plaintiffs’ concern that open recording puts

App. 57
them at risk of physical harm and retaliation and
thereby undermines its capacity to serve as an adequate alternative means of newsgathering if the type
of recording at issue here is barred.
c.
We thus conclude that Section 99, which does not
contain the privacy-based exceptions other states recognize in their recording bans, see, e.g., Fla. Stat.
§ 934.02(2), is insufﬁciently tailored to serve the important privacy interests implicated in the context of
the Martin Plaintiffs’ challenge.4 Accordingly, we afﬁrm the District Court’s grant of summary judgment
to the Martin Plaintiffs.
III.
We now turn to the cross-appeals that stem from
Project Veritas’s suit challenging Section 99 on First
Amendment grounds. We ﬁrst consider Project Veritas’s appeal from the District Court’s grant of the Defendants’ motion to dismiss its claim that Section 99 is
invalid in its entirety under the First Amendment’s
overbreadth doctrine. We then consider its challenge to
the District Court’s grant of the Defendants’ motion to
4

The District Attorney also “observes,” in a footnote, that
Section 99 “might alternatively be analyzed as a regulation of
conduct that imposes a mere incidental burden on expression.”
But, the argument is waived for insufﬁcient development. Doe v.
Trs. of Bos. Coll., 892 F.3d 67, 83 n.7 (1st Cir. 2018) (quoting Nat’l
Foreign Trade Council v. Natsios, 181 F.3d 38, 60 n.17 (1st Cir.
1999)).

App. 58
dismiss its claim that Section 99 is unconstitutional
insofar as it prohibits the secret recording of private
individuals whenever they have no expectation of privacy. Finally, we take up the District Attorney’s appeal
from the District Court’s decision to grant summary
judgment to Project Veritas on its claim that this measure violates the First Amendment insofar as it prohibits the secret, nonconsensual audio recording of all
government ofﬁcials performing their duties in public
spaces. The District Attorney challenges that ruling
both on jurisdictional grounds and on the merits.
Our review of these challenges – whether brought by
Project Veritas or the District Attorney – is de novo.
Zabala-De Jesus, 959 F.3d at 427; Lyman v. Baker, 954
F.3d 351, 359 (1st Cir. 2020).
A.
The District Court implicitly ruled that Project
Veritas’s facial overbreadth claim was ripe, Project Veritas Action Fund, 244 F. Supp. 3d at 262, 265, and we
agree. It “presents a single, purely legal question.”
Whitehouse, 199 F.3d at 34; see also Commodity Trend
Serv., 149 F.3d at 687 n.3. Project Veritas also has adequately shown that it has refrained from some secret
recording that it would undertake but for Section 99’s
bar, Project Veritas Action Fund, 244 F. Supp. 3d at
262, which the District Attorney has previously enforced, see Martin, 340 F. Supp. 3d at 93-94.
The District Court rejected Project Veritas’s facial
overbreadth claim on the merits, however, and it is

App. 59
that ruling that Project Veritas challenges on appeal.
We see no error.
A law may be invalidated in its entirety under
the First Amendment overbreadth doctrine only “if
‘a substantial number of its applications are unconstitutional, judged in relation to the statute’s plainly
legitimate sweep.’ ” United States v. Stevens, 559 U.S.
460, 473 (2010) (quoting Wash. State Grange v. Wash.
State Republican Party, 552 U.S. 442, 449 n.6 (2008)).
The District Court determined that Project Veritas’s
overbreadth challenge failed, because “[m]ost” of the
statute’s applications are constitutional. Project Veritas Action Fund, 244 F. Supp. 3d at 266.
Project Veritas does identify ten examples of applications of Section 99 that it argues are unconstitutional and that “[o]ne can expand these ten examples
almost exponentially to grasp the amazing breadth
and reach of this law.” But, by looking solely at one half
of the equation, Project Veritas fails to show, as it must,
that the unconstitutional applications are “substantial” relative to the extensive range of applications it
does not even challenge. We thus afﬁrm the District
Court’s rejection of Project Veritas’s First Amendment
overbreadth challenge.
B.
There remain the challenges to the District
Court’s rulings on Project Veritas’s two more narrowly
targeted attempts to show that Section 99 violates the
First Amendment insofar as it bars certain types of

App. 60
recording. In the ﬁrst of these attempts, Project Veritas
contends that the statute is unconstitutional insofar
as it prohibits the secret, nonconsensual audio recording of any person who does not have a reasonable expectation of privacy in what is recorded. In the second,
Project Veritas contends that the statute is unconstitutional insofar as it prohibits the secret, nonconsensual audio recording of all government ofﬁcials
discharging their ofﬁcial duties in public spaces.
The District Court ruled against Project Veritas on
the merits as to the former claim but for Project Veritas
on the merits as to the latter. Id. at 265; Martin, 340
F. Supp. 3d at 108. Thus, we confront an appeal by Project Veritas as to that ﬁrst ruling and an appeal by the
District Attorney as to the second. As we will explain,
we conclude that neither of the underlying challenges
to Section 99 is ripe.
Our conclusion, we emphasize, does not turn on
any skepticism that, but for Section 99, Project Veritas
would engage in the investigations it describes itself
as intending to undertake. See Torres-Negrón v. J & N
Recs., LLC, 504 F.3d 151, 163 (1st Cir. 2007) (explaining that, in the event that “the plaintiff presents sufﬁcient evidence to create a genuine dispute of material
(jurisdictional) facts,” the case must survive a motion
to dismiss). Instead, as we will explain, it rests on the
fact that Project Veritas has not sought relief in bringing these challenges that is more congruent in scope to
an articulated set of planned investigations. For that
reason, we conclude that the organization through
these challenges impermissibly seeks to transform our

App. 61
First Amendment inquiry “from a necessary means of
vindicating [a party’s] right not to be bound by a statute that is unconstitutional into a means of mounting
gratuitous wholesale attacks upon state and federal
laws.” Renne, 501 U.S. at 324 (quoting Bd. of Trs. of
State Univ. of N.Y. v. Fox, 492 U.S. 469, 484-85 (1989)).
1.
We begin with Project Veritas’s First Amendment
challenge to Section 99 insofar as it bars the secret recording of “individuals who lack[ ] any reasonable expectation of privacy.” In a response to interrogatories
from the District Attorney, Project Veritas explained
that it “deﬁnes ‘reasonable expectation of privacy’ as a
circumstance in which the parties to the communication may reasonably expect that the communication
may not be overheard or recorded.”
That vague yet sweeping deﬁnition, however, is
problematic from the perspective of the ripeness inquiry. It fails to ensure that the “contours” of this challenge to Section 99 are “sharply deﬁned.” Stern v. U.S.
Dist. Ct., 214 F.3d 4, 10 (1st Cir. 2000); cf. Whitehouse,
199 F.3d at 32 (reviewing claim where the “parameters
of the activity that [the plaintiff ] proposed to undertake were discrete and well-deﬁned”).
This lack of precision also prompts the concern
that it is merely “conjectural to anticipate” that Section
99 will ever be applied in many of the distinct contexts
to which Project Veritas’s challenge to that measure –
by the organization’s own terms – extends. Babbitt,

App. 62
442 U.S. at 304. That Project Veritas has emphasized
to us that it intends to record “newsworthy” content “in
which the public has a legitimate concern” but has
made no effort to cabin its request for relief accordingly
only exacerbates the disconnect between the alleged
intended action and the requested relief. And that concern about adjudication of hypothetical rather than
real disputes looms even larger when one considers the
ways in which the First Amendment analysis could be
affected by the types of conversations that are targeted.
In this respect, Project Veritas’s claims are distinct
from those brought in Mangual v. Rotger-Sabat, on
which the organization relies heavily for its jurisdictional arguments. See 317 F.3d at 59-60. There, the
plaintiff sought declaratory and injunctive relief to the
effect that Puerto Rico’s criminal libel statute incorporated constitutionally deﬁcient standards with regard
to statements about public ofﬁcials or ﬁgures. See id.
at 51-52, 69. The scope of that pre-enforcement protection was coextensive with the plaintiff ’s alleged plans
to continue working as an investigative journalist and
publish statements about public ﬁgures. See id. at 58,
69.
Nor is Project Veritas’s reliance on the Seventh
Circuit’s analysis in Alvarez helpful to its cause. As we
explained in our analysis of the ripeness of the Martin
Plaintiffs’ challenge, see supra Section II.A.2, Alvarez
concerned a very different plan of recording – that the
ACLU intended to “use its employees and agents to audio record on-duty police ofﬁcers in public places,” 679

App. 63
F.3d at 593. That plan was congruent to the ACLU’s
request for relief, which sought pre-enforcement protection for that very same activity. Id. at 588.
Accordingly, we conclude not merely that the challenge raises “serious ripeness concerns,” as the District
Court recognized, Martin, 340 F. Supp. 3d at 104, but
that those concerns are so serious that Article III precludes this challenge from going forward in its present
state. We thus must vacate the District Court’s meritsbased ruling on the ground that this aspect of Project
Veritas’s challenge to Section 99 must be dismissed on
ripeness grounds.
2.
Project Veritas’s First Amendment challenge to
Section 99’s bar to the secret, nonconsensual audio recording of “government ofﬁcials discharging their duties in public spaces” raises similar ripeness concerns.
In a response to interrogatories from the District Attorney, the organization deﬁned the phrase “government ofﬁcials” as broadly as we can imagine,
explaining that it intended to refer to “ofﬁcials and
civil servants.”5
5

Project Veritas also listed the Black’s Law Dictionary deﬁnition of each term. See Ofﬁcial, Black’s Law Dictionary (10th ed.
2014) (“Someone who holds or is invested with a public ofﬁce; a
person elected or appointed to carry out some portion of a government’s sovereign powers. – Also termed public ofﬁcial.”); Civil
Servant, Black’s Law Dictionary (10th ed. 2014) (“Someone employed in a department responsible for conducting the affairs of a
national or local government. – Also termed public employee.”).

App. 64
That deﬁnition is of concern with respect to ripeness because Project Veritas has described its planned
investigations in terms that are not nearly so broad.
Project Veritas alleged in connection with this challenge that it seeks to record “government ofﬁcials who
are discharging their duties at or around the State
House in Boston and other public spaces” in hopes of
learning those ofﬁcials’ unvarnished thoughts about
“immigration policy and deportation”; “to capture
whether antifa public events and protests are peaceful,
whether police or other public ofﬁcials’ interactions
with antifa members are non-violent,” and to otherwise
report on those events; and that its “journalists would
have attended” “a large public event” related to “the
ongoing PVA ‘antifa’ investigation” but for Section 99.
Thus, Project Veritas gives no indication that it intends to investigate any and every type of civil servant,
no matter their function or place in the governmental
hierarchy. But, if we take Project Veritas at its word
and construe the term “government ofﬁcials” as
broadly as “ofﬁcials and civil servants,” that category
covers everyone from an elected ofﬁcial to a public
school teacher to a city park maintenance worker.
The contrast between the narrowness of Project
Veritas’s plans and the breadth of the remedy that it
has requested leads to the concern that it has not adequately shown that it intends to engage in much of the
conduct covered by the relief it seeks. Cf. Ohio Forestry
Ass’n v. Sierra Club, 523 U.S. 726, 735 (1998) (“The
ripeness doctrine reﬂects a judgment that the disadvantages of a premature review that may prove too

App. 65
abstract or unnecessary ordinarily outweigh the additional costs of – even repetitive – [more focused] litigation.”). The concern that this disconnect renders this
dispute hypothetical and abstract rather than real and
concrete is compounded by the fact that the First
Amendment analysis might be appreciably affected by
the type of government ofﬁcial who would be recorded.
It is hardly clear that a restriction on the recording of
a mayor’s speech in a public park gives rise to the same
First Amendment concerns as a restriction on the recording of a grammar school teacher interacting with
her students in that same locale while on a ﬁeld trip or
public works employees conversing while tending to a
city park’s grounds.
Thus, we conclude here, too, that the disparity between plan and challenge is too great for us to conclude
that there is a live case or controversy as to Section
99’s enforcement in the context of the full spectrum of
“government ofﬁcials discharging their duties in public
spaces.” For that reason, we vacate the District Court’s
ruling on the merits of Project Veritas’s challenge to
Section 99 insofar as it applies to bar the secret, nonconsensual audio recording of any “government ofﬁcial” discharging ofﬁcial duties in public spaces.
Instead, we hold that this challenge must be dismissed
without prejudice for lack of Article III jurisdiction on
ripeness grounds.

App. 66
IV.
The privacy that we enjoy, even in public, is too
important to be taken for granted. Cf. Carpenter v.
United States, 138 S. Ct. 2206, 2217-18 (2018) (first
citing United States v. Jones, 565 U.S. 400, 430 (2012)
(Alito, J., concurring in judgment), then citing id. at
415 (Sotomayor, J., concurring)). But, so, too, is the role
that laypersons can play in informing the public about
the way public ofﬁcials, and law enforcement in particular, carry out their ofﬁcial duties.
We conclude that, by holding that Section 99 violates the First Amendment in criminalizing the secret,
nonconsensual audio recording of police ofﬁcers discharging their ofﬁcial duties in public spaces and by
granting declaratory relief to the Martin Plaintiffs, the
District Court properly accounted for the values of
both privacy and accountability within our constitutional system. We further conclude that the District
Court properly rejected Project Veritas’s First Amendment overbreadth challenge, in which the organization
sought to invalidate the measure in its entirety, given
the substantial protection for privacy that it provides
in contexts far removed from those that concern the
need to hold public ofﬁcials accountable. Finally, we vacate and remand the District Court’s rulings as to the
remainder of Project Veritas’s challenges, because, in
their present state, they ask us to engage in an inquiry
into sensitive and difﬁcult First Amendment issues –
concerning both privacy in public and government accountability – that is too likely to be a hypothetical
one, given the disconnect between the organization’s

App. 67
concrete allegations regarding its intentions and the
breadth of the relief it seeks. We thus afﬁrm the District Court’s judgment in the Martin Plaintiffs’ case
and afﬁrm in part and vacate and remand in part its
judgment in Project Veritas’s. The parties shall bear
their own costs.

App. 68
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
K. ERIC MARTIN
and RENÉ PÉREZ,
Plaintiffs,
v.
WILLIAM GROSS, in His
Ofﬁcial Capacity as Police
Commissioner for the City
of Boston, and RACHAEL
ROLLINS, in Her Ofﬁcial
Capacity as District
Attorney for Suffolk County,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

)
)
)
Plaintiff,
)
)
v.
)
RACHAEL ROLLINS, in Her )
Ofﬁcial Capacity as Suffolk
)
County District Attorney,
)
)
Defendant.
)

Civil Action
No. 16-11362-PBS

PROJECT VERITAS
ACTION FUND,

Civil Action
No. 16-10462-PBS

App. 69
MEMORANDUM AND ORDER
May 22, 2019
Saris, C.J.
INTRODUCTION
In these two actions, Plaintiffs challenged the constitutionality of Mass. Gen. Laws ch. 272, § 99 (“Section 99”), which, among other things, prohibits secret
audio recordings of government ofﬁcials in Massachusetts.1 On December 10, 2018, the Court allowed Plaintiffs’ motions for summary judgment in both cases and
declared that Section 99 violates the First Amendment
insofar as it prohibits the secret audio recording of government ofﬁcials, including law enforcement ofﬁcers,
performing their duties in public spaces, subject to reasonable time, place, and manner restrictions. Martin v.
Gross, 340 F. Supp. 3d 87, 109 (D. Mass. 2018). The
Court directed the parties to submit a proposed form
of injunction. Id. Defendants, the Suffolk County District Attorney and the Police Commissioner for the
City of Boston, now argue that a permanent injunction
is not necessary, and a declaratory judgment is sufﬁcient. Defendants also ask the Court to narrow the

1

The Court assumes familiarity with its earlier opinions in
both cases. See Martin v. Gross, 340 F. Supp. 3d 87 (D. Mass.
2018); Project Veritas Action Fund v. Conley, 270 F. Supp. 3d 337
(D. Mass. 2017); Project Veritas Action Fund v. Conley, 244
F. Supp. 3d 256 (D. Mass. 2017); Martin v. Evans, 241 F. Supp.
3d 276 (D. Mass. 2017).

App. 70
scope of its previous ruling, for example, by deﬁning
“government ofﬁcials” and “public space.”
For the reasons discussed below, the Court agrees
that a declaratory judgment is sufﬁcient to give effect
to the Court’s ruling but declines the request to narrow
the holding.
DISCUSSION
Defendants argue that the Court should enter a
declaratory judgment that ﬁxes the bounds of constitutionally permissible conduct rather than issue an injunction. They contend that a declaratory judgment is
a less drastic, non-coercive remedy that will have the
same practical effect as an injunction and will better
comport with the principles of federalism and comity.
They also argue for various provisions not contained in
the Court’s December 10 order, including: (1) a deﬁnition of “public space” as “a traditional or designated
public forum”; (2) a more robust deﬁnition of “government ofﬁcial”; and (3) an afﬁrmative declaration that
Section 99 is still enforceable against a person who surreptitiously records the communications of someone
other than a “government ofﬁcial.”
1. Declaratory Judgment or Injunction
The ﬁrst question is whether the Court should issue a declaratory judgment rather than an injunction.
The Supreme Court has explained that Congress enacted the Declaratory Judgment Act (codified at 28

App. 71
U.S.C. §§ 2201-02) to create a form of relief “to act as
an alternative to the strong medicine of the injunction and to be utilized to test the constitutionality of
state criminal statutes in cases where injunctive relief
would be unavailable.” Steffel v. Thompson, 415 U.S.
452, 466 (1974). Although the practical effect of the two
forms of relief is ordinarily the same, see Samuels v.
Mackell, 401 U.S. 66, 73 (1971), a declaratory judgment
is a “milder form of relief ” because it is not coercive,
i.e., noncompliance will not result in contempt proceedings, Steffel, 415 U.S. at 471; see also Doran v. Salem
Inn, Inc., 422 U.S. 922, 931 (1975) (“At the conclusion
of a successful federal challenge to a state statute or
local ordinance, a district court can generally protect
the interests of a federal plaintiff by entering a declaratory judgment, and therefore the stronger injunctive
medicine will be unnecessary.”).
In some cases where a constitutional challenge to
the validity of a state or local statute or regulation has
been successful, the First Circuit has approved the entry of injunctive relief. See Cutting v. City of Portland,
802 F.3d 79, 81 (1st Cir. 2015); Mangual v. Rotger-Sabat, 317 F.3d 45, 69 (1st Cir. 2003); see also Nationalist
Movement v. City of Boston, 12 F. Supp. 2d 182, 195 (D.
Mass. 1998) (entering permanent injunction barring
enforcement of city ordinance regulating parade permitting after the court held the regulation was facially
invalid). But in other cases where the validity of a state
or local statute or regulation is at issue, courts in this
district have issued declaratory judgments rather than
permanent injunctions. See, e.g., McLaughlin v. City of

App. 72
Lowell, 140 F. Supp. 3d 177, 197 & n.16 (D. Mass. 2015)
(in facial challenge to city’s anti-panhandling ordinance, declaring ordinance unconstitutional but declining to enter separate injunction to similar effect);
Nat’l Ass’n of Tobacco Outlets, Inc. v. City of Worcester,
851 F. Supp. 2d 311, 321 n.5 (D. Mass. 2012) (in facial
challenge to city’s prohibition on advertising of tobacco
products, declaring ordinance unconstitutional but declining to enter separate injunction to similar effect);
Canterbury Liquors & Pantry v. Sullivan, 16 F. Supp.
2d 41, 51 (D. Mass. 1998) (declaring state statute relating to the pricing of wholesale liquor was preempted
by the Sherman Act but declining to enter separate injunction to similar effect); S. Bos. Allied War Veterans
Council v. City of Boston, 875 F. Supp. 891, 920 (D.
Mass. 1995) (in as-applied challenge to city’s parade
permitting policy, declaring that permitting requirements for St. Patrick’s Day parade violated the Constitution but declining to enter separate injunction
to similar effect); Mass. Gen. Hosp. v. Sargent, 397
F. Supp. 1056, 1057, 1063 (D. Mass. 1975) (declaring
that state policy of failing to make prompt and full payments under the federal Social Security program violated Article VI of the U.S. Constitution but declining
to enter injunction to similar effect).
The Court holds that a declaratory judgment is
more appropriate than a permanent injunction in this
case for two reasons. First, the Court has held that
Section 99 is invalid as applied to the secret audio recording of government ofﬁcials, “subject to reasonable
time, place, and manner restrictions.” Martin, 340

App. 73
F. Supp. 3d at 109. Because there is room for disagreement about whether a restriction is reasonable, the
threat of contempt for violation of the injunction is too
blunt and coercive an enforcement mechanism in situations where decision-making is necessarily split second. Second, the Court has not deﬁned the meaning of
“public space” or “government ofﬁcial.” The issuance of
an injunction could effectively implicate a judicial second-guessing of the policing function to determine
whether the order was violated. Cf. Badger Catholic,
Inc. v. Walsh, 620 F.3d 775, 782 (7th Cir. 2010) (holding
that a declaratory judgment sufﬁced where an injunction may have effectively required the judge to take
over management of the program for distributing
funds to student groups challenged on First Amendment grounds). For these reasons, the Court concludes
that a declaratory judgment strikes the correct balance
between Plaintiffs’ First Amendment interests and Defendants’ sovereignty as state and local law enforcement ofﬁcials. See Doran, 422 U.S. at 931.
Plaintiffs in Martin claim that a permanent injunction is necessary because there are reasons to
doubt that Defendants will comply with just a declaratory judgment. As evidence, they point to the fact that
Defendants continued to enforce Section 99 for eight
years following the First Circuit’s holding in Glik v.
Cunniffe, 655 F.3d 78, 83 (1st Cir. 2011), “that the First
Amendment protects the ﬁlming of government ofﬁcials in public spaces.” Further, they contend Defendants enforced Section 99 one time during the pendency

App. 74
of this litigation, even after the Court denied their motions to dismiss.
The Court is not persuaded that Defendants will
not comply with its decision going forward. The Court
has interpreted Glik “as standing for the proposition
that the First Amendment protects the right to record
audio and video of government ofﬁcials, including law
enforcement ofﬁcers, performing their duties in public,
subject only to reasonable time, place, and manner restrictions.” Id. at 97-98. As a factual matter, though,
Glik concerned recording done openly rather than secretly. See 655 F.3d at 79, 87. That Defendants read
Glik narrowly in the past is not proof that they will
continue to do so now that the Court has ruled. Defendants have stated they will follow this Court’s ruling,
and the Court will take them at their word. See No. 16cv-11362-PBS, Dkt. No. 166 at 2. The Court “assume[s]
that municipalities and public ofﬁcers will do their
duty when disputed questions have been ﬁnally adjudicated and the rights and liabilities of the parties
have been ﬁnally determined.” Commonwealth v. Town
of Hudson, 52 N.E.2d 566, 572 (Mass. 1943); see also
McLaughlin, 140 F. Supp. 3d at 197 n.16.
Thus, the Court will not issue a permanent injunction and ﬁnds that a declaratory judgment is a sufﬁcient remedy.
2. Scope of Declaratory Judgment
Defendants ask the Court to adopt a declaratory
judgment that narrows the deﬁnitions of “public space”

App. 75
and “government ofﬁcial.” As Defendants acknowledge,
the Court concluded that it would leave “it to subsequent cases to deﬁne these terms on a better record.”
Martin, 340 F. Supp. 3d at 109. With respect to “public
space” and “government ofﬁcial,” in its December 10 order the Court speciﬁcally adopted the language that
the First Circuit employed in Glik. See, e.g., 655 F.3d
at 82 (“The filming of government officials engaged
in their duties in a public place, including police ofﬁcers performing their responsibilities, ﬁts comfortably
within these principles.”); id. at 83 (“Our recognition
that the First Amendment protects the ﬁlming of government ofﬁcials in public spaces accords with the decisions of numerous circuit and district courts.”); id. at
84(“Such peaceful recording of an arrest in a public
space that does not interfere with the police ofﬁcers’
performance of their duties is not reasonably subject
to limitation.”) id. at 85 (“In summary, though not unqualiﬁed, a citizen’s right to ﬁlm government ofﬁcials,
including law enforcement ofﬁcers, in the discharge of
their duties in a public space is a basic, vital, and wellestablished liberty safeguarded by the First Amendment.”). Defendants’ proposal that “public space” be deﬁned as encompassing “traditional and designated
public for[a],” then, is narrower than the plain language of Glik. And, while Defendants have proposed a
list of persons that might qualify as a “government ofﬁcial,” at this late stage in the proceedings the Court
has no basis for evaluating whether it is an overinclusive or underinclusive list. The Court will not reconsider its December 10 order to give either “public
space” or “government ofﬁcial” deﬁnitions.

App. 76
Defendants also ask the Court to narrow its declaration so that Section 99 is still enforceable where a
surreptitious audio recording captures the oral communications of both a government ofﬁcial and a nongovernment ofﬁcial (i.e., a civilian). Defendants contend that this limitation is necessary to protect the privacy interests of civilians (such as victims). However,
in Glik, the plaintiff was arrested for recording several
police ofﬁcers arresting a man on the Boston Common.
Id. at 79. The First Circuit found that the plaintiff had
a First Amendment right to do so notwithstanding the
fact that the recording also captured a civilian (i.e., the
arrestee). See id. at 84. Moreover, the police retain discretion to impose reasonable restrictions.
In sum, Defendants have provided no basis for the
Court to revise the declaration. In this respect, the
Court denies Defendants’ motion for reconsideration.
See United States v. Allen, 573 F.3d 42, 53 (1st Cir.
2009).
DECLARATORY JUDGMENT AND ORDER
The Court declares Section 99 unconstitutional insofar as it prohibits the secret audio recording of government ofﬁcials, including law enforcement ofﬁcers,
performing their duties in public spaces. This prohibition is subject to reasonable time, place, and manner
restrictions. The Court orders that this declaration be
provided to every police ofﬁcer and to all assistant district attorneys within 30 days.

App. 77
SO ORDERED.
/s/ PATTI B. SARIS
Patti B. Saris
Chief United States
District Judge

App. 78
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
K. ERIC MARTIN
and RENÉ PÉREZ,
Plaintiffs,
v.
WILLIAM GROSS, in his
Ofﬁcial Capacity as Police
Commissioner for the City
of Boston, and DANIEL F.
CONLEY, in his Ofﬁcial
Capacity as District
Attorney for Suffolk County,
Defendants.

PROJECT VERITAS
ACTION FUND,
Plaintiff,
v.
DANIEL F. CONLEY, in his
Ofﬁcial Capacity as Suffolk
County District Attorney,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action
No. 16-11362-PBS

Civil Action
No. 16-10462-PBS

App. 79
MEMORANDUM AND ORDER
December 10, 2018
Saris, C.J.
INTRODUCTION
These two cases challenge the application of Mass.
Gen. Laws ch. 272, § 99 (“Section 99”) to secret audio
recordings in Massachusetts.1 Section 99, in relevant
part, criminalizes the willful “interception” of any
“communication.” Mass. Gen. Laws ch. 272, § 99(C)(1).
An “interception” occurs when one is able “to secretly
hear, secretly record, or aid another to secretly hear or
secretly record the contents of any wire or oral communication through the use of any intercepting device”
without the consent of “all parties to such communication.” Mass. Gen. Laws ch. 272, § 99(B)(4). Thus, the
statute does not apply to open (or non-secret) recording
or to video recording (without audio). See id.; Commonwealth v. Hyde, 750 N.E.2d 963, 964 (Mass. 2001) (holding that Section 99 “strictly prohibits the secret
electronic recording . . . of any oral communication”).
The plaintiffs in Martin argue that Section 99 violates the First Amendment insofar as it prohibits the
secret audio recording of police ofﬁcers performing
their duties in public. The plaintiff in Project Veritas
1

The Court assumes familiarity with its earlier opinions
in both cases. See Project Veritas Action Fund v. Conley, 270
F. Supp. 3d 337 (D. Mass. 2017); Project Veritas Action Fund v.
Conley, 244 F. Supp. 3d 256 (D. Mass. 2017); Martin v. Evans,
241 F. Supp. 3d 276 (D. Mass. 2017).

App. 80
makes a similar, though broader, argument: that Section 99 violates the First Amendment insofar as it
prohibits the secret audio recording of government ofﬁcials performing their duties in public. The parties in
each case also clash over certain ancillary issues that
are discussed in more detail below.
On the core constitutional issue, the Court holds
that secret audio recording of government ofﬁcials, including law enforcement ofﬁcials, performing their duties in public is protected by the First Amendment,
subject only to reasonable time, place, and manner
restrictions. Because Section 99 fails intermediate
scrutiny when applied to such conduct, it is unconstitutional in those circumstances.
FACTUAL BACKGROUND
The following facts, drawn from the summary
judgment record in each case, are not subject to genuine dispute.
I.

Martin v. Gross
A. The Parties

The plaintiffs K. Eric Martin and Rene Perez are
two private citizens who live in Jamaica Plain, Massachusetts. The defendants are Suffolk County District

App. 81
Attorney Daniel Conley and City of Boston Police Commissioner William Gross.2
B. The Plaintiffs’ Secret Recordings
Since 2011, Martin has openly recorded police ofﬁcers performing their duties in public at least 26
times; Perez has done so 18 times, often live-streaming
his recordings. The plaintiffs’ recordings of police have
included one-on-one interactions, trafﬁc and pedestrian stops of others, and protests.3 Between the two of
them, the plaintiffs have wanted to secretly record police ofﬁcers performing their duties in public on at
least 19 occasions since 2011, but have refrained from
doing so. Both have stated that their desire to record
secretly stems from a fear that doing so openly will endanger their safety and provoke hostility from ofﬁcers.
The plaintiffs have not advanced any speciﬁc
plans or intentions to surreptitiously record police ofﬁcers in the course of this litigation. But Perez stated
that he would not rule out secretly recording police
officers in various sensitive situations and that he
2

In Martin, Commissioner Gross was automatically substituted for former Commissioner William Evans pursuant to Rule
25(d) of the Federal Rules of Civil Procedure. In both cases, because Conley is no longer the district attorney, his replacement
shall also be substituted upon notice.
3
Two speciﬁc subsets of Martin’s recordings are the subject
of a motion to draw adverse inferences. These recordings depict
interactions between police ofﬁcers and citizens (1) in the vicinity
of the Boston Common and (2) inside the Arizona BBQ restaurant
in Roxbury. In his deposition, Martin refused to testify about
these recordings, invoking the Fifth Amendment.

App. 82
intended to live-stream any secret recordings he is permitted to make. Neither Martin nor Perez has ever
been arrested for violating Section 99.
C. Enforcement of Section 99
Since 2011, the Suffolk County District Attorney’s
Ofﬁce (“SCDAO”) has opened at least 11 case ﬁles that
involve a felony charge under Section 99. These have
included Section 99 charges where the person recorded
was a police ofﬁcer performing her duties in public.
During the same period, the Boston Police Department
(“BPD”) has applied for a criminal complaint on a Section 99 violation against at least nine individuals for
secretly recording police ofﬁcers performing their duties in public.4
When asked what governmental interest Section
99 advances, the district attorney asserted that it protects individuals’ privacy rights – speciﬁcally, the right
of citizens and public ofﬁcials alike to be on notice of
when they are being recorded. Asked the same question, the police commissioner referred generally to Section 99, its legislative history, and judicial decisions
interpreting the statute.
D. Police Training on Section 99
Section 99 is one of several topics on which BPD
ofﬁcers receive training. The methods of training
4

It is unclear on this record whether, or to what extent, the
SCDAO and BPD Section 99 cases overlap.

App. 83
include training bulletins, training videos, and inservice training. In all, BPD recruits receive 50 to 60
hours of criminal law instruction at the police academy. The instructor teaches from his own textbook,
which touches on many, but not all, crimes under Massachusetts law. The text includes a segment on Section
99 -one of over 150 sections discussing various criminal law topics. BPD ofﬁcers are also instructed using
at least two other criminal law manuals that similarly
include segments on Section 99 among 150 to 200 other
criminal laws.
Furthermore, BPD has created a training video
and a training bulletin related to Section 99. Since
2009, BPD has published 28 training videos; one of
them related to Section 99. In recent years, BPD has
disseminated 22 training bulletins. One of them is related to Section 99, and it has been circulated three
times.
The video tells ofﬁcers that Section 99 prohibits
only secret recording. It depicts two scenarios of citizens recording police – one openly and one in secret –
and instructs ofﬁcers that the ﬁrst is not a violation of
Section 99, but the second is. The video became mandatory viewing for current ofﬁcers. New recruits watch
it as well.
The bulletin describes two court cases where defendants were convicted for secretly recording police
ofﬁcers performing their duties in public, instructing
ofﬁcers that they have a “right of arrest” whenever
they have probable cause to believe an individual has

App. 84
secretly recorded a conversation. It was ﬁrst circulated
in November 2010, then again in October 2011, and
most recently in May 2015. The 2011 and 2015 circulations are the only bulletins since 2011 that have required police commanders to read the bulletin aloud to
their ofﬁcers at roll call. A memo accompanying the
2011 recirculation explicitly references the First Circuit decision in Glik v. Cunniffe, 655 F.3d 78 (1st Cir.
2011), discussed in more detail below.
E. Procedural History
The Martin plaintiffs’ claim, brought under 42
U.S.C. 1983, alleged that Section 99 violates the First
and Fourteenth Amendments as applied to the secret
recording of police ofﬁcers engaged in their duties in
public places. Resolving a motion to dismiss, the Court
held that the plaintiffs had adequately stated a claim
that Section 99 violates the First Amendment. The
Court also rejected a challenge to the plaintiffs’ standing, held that the complaint adequately stated a claim
for municipal liability, and held that Pullman abstention was unwarranted.
The defendants now challenge the claim on the
grounds of standing, ripeness, and municipal liability.
The district attorney also asks the Court to draw adverse inferences against Martin. The parties have ﬁled
cross-motions for summary judgment on the constitutional claim.

App. 85
II.

Project Veritas Action Fund v. Conley
A. The Parties

The plaintiff, Project Veritas Action Fund (“PVA”),
is a nonproﬁt organization that engages in undercover
journalism. The defendant is the Suffolk County District Attorney.
B. WA’s Secret Recording Practices
PVA has a history of investigating government ofﬁcials, candidates for public ofﬁce, and others through
the use of secret recording. The organization also investigates suspected fraud, abuse, and corruption. PVA
would like to secretly record government ofﬁcials in
Massachusetts, including when they make statements
in public places while performing their public duties.
PVA has refrained from doing so due to Section 99.
In general, PVA decides to investigate a story
based on considerations like cost, time, level of public
interest or newsworthiness, and the likelihood that it
will obtain “candid information” from sufﬁciently highlevel individuals. Once an investigation is assigned to
a PVA reporter, he or she develops a “cover story” designed to develop trust with the source. The “cover
story” is “rarely” true, but PVA enhances its verisimilitude by, for instance, creating fake email or social media accounts, printing false business cards, or creating
a new business entity. Often the “cover story” involves
volunteering or interning at a target organization, or
donating to it. In other cases, PVA reporters use

App. 86
ﬂattery, sex appeal, or romantic overtures to appeal to
target sources.
PVA reporters use “sophisticated” recording equipment, including hidden necktie cameras, purse cameras, eyeglass cameras, and cameras whose lenses are
small enough to ﬁt into a button or rhinestone. They
have made recordings during campaign staff meetings,
within a target’s ofﬁces, and while meeting with representatives of a target organization. They have also recorded pretextual “dates” with target individuals and
conversations at bars.
PVA’s ultimate product is an edited “video report”
that is released to the public via its website and/or
YouTube channel. The ﬁnal report leaves out portions
of the raw footage. The record includes several examples of PVA’s ﬁnal reports and the raw footage used to
create them.
In this case, PVA identiﬁes four speciﬁc projects
that it has refrained from conducting on account of
Section 99. The projects involve secretly recording:
(1) landlords renting unsafe apartments to college students; (2) government ofﬁcials, including police ofﬁcers, legislators, or members of the Massachusetts
Ofﬁce for Refugees and Immigrants, to ascertain their
positions on “sanctuary cities”; (3) “protest management” activities by both government officials and
private individuals related to Antifa protests; and
(4) interactions with Harvard University ofﬁcials to research its endowment and use of federal funds. PVA
would like to send its journalists into Massachusetts

App. 87
to develop leads on these and other stories that may
emerge.
C. Procedural History
PVA’s original complaint challenged the constitutionality of Section 99 facially and as applied to it, targeting the statute’s prohibition on secret recording in
a public place (Count I) and secret recording of oral
communications of individuals having no reasonable
expectation of privacy (Count II). In March 2017, the
Court dismissed PVA’s claims insofar as they challenged the application of Section 99 to the secret recording of private conversations, and insofar as they
presented facial and overbreadth challenges to Section
99. See Project Veritas Action Fund, 244 F. Supp. 3d at
264-66.
Having preserved its appellate rights as to those
rulings, PVA has ﬁled an amended complaint and has
narrowed its claim to challenge only Section 99’s application to the secret recording of government ofﬁcials
engaged in their duties in public spaces. The district
attorney has moved to dismiss on ripeness grounds.
Both parties seek summary judgment on the constitutional claim.
LEGAL BACKGROUND
I.

Summary Judgment Standard

A party is entitled to summary judgment when
“the movant shows that there is no genuine dispute as

App. 88
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “[T]he
mere existence of some alleged factual dispute between
the parties will not defeat an otherwise properly supported motion for summary judgment; the requirement is that there be no genuine issue of material fact.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986) (emphases in original). An issue is genuine “if
the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Id. at 248. A
fact is material if it “might affect the outcome of the
suit under the governing law.” Id.
II.

Setting the Scene: Glik and Gericke

The discussion that follows requires an understanding of two First Circuit decisions: Glik v. Cunniffe, 655 F.3d 78 (1st Cir. 2011), and Gericke v. Begin,
753 F.3d 1 (1st Cir. 2014).
In Glik, the plaintiff was arrested for using his cell
phone’s digital video camera to openly ﬁlm several police ofﬁcers arresting someone on the Boston Common.
655 F.3d at 79, 87. He was recording audio as well as
video on the cell phone. Id. at 80. The plaintiff was
charged with violating Section 99 and two other statelaw offenses. Id. at 79. These charges were later dismissed. Id. The plaintiff sued the police under 42 U.S.C.
§ 1983, claiming that his arrest for audio and video recording of the ofﬁcers constituted a violation of his
rights under the First and Fourth Amendments. Id.
The police ofﬁcers raised a qualiﬁed immunity defense.

App. 89
Id. A central issue on appeal was whether the arrest
violated the plaintiff ’s First Amendment rights – in
other words, “is there a constitutionally protected right
to videotape police carrying out their duties in public?”
Id. at 82.
The First Circuit answered afﬁrmatively. Id. It
held that the First Amendment’s protection “encompasses a range of conduct related to the gathering and
dissemination of information.” Id. The First Amendment prohibits the government “from limiting the
stock of information from which members of the public
may draw.” Id. (quoting First Nat’l Bank v. Bellotti, 435
U.S. 765, 783 (1978)).
The ﬁlming of government ofﬁcials engaged in
their duties in a public place, including police
ofﬁcers performing their responsibilities, ﬁts
comfortably within these principles. Gathering information about government ofﬁcials in
a form that can readily be disseminated to
others serves a cardinal First Amendment interest in protecting and promoting “the free
discussion of governmental affairs.”
Id. (quoting Mills v. Alabama, 384 U.S. 214, 218 (1966)).
This freedom of expression has particular signiﬁcance
with respect to law enforcement ofﬁcials, “who are
granted substantial discretion that may be misused to
deprive individuals of their liberties.” Id.
Although the First Circuit did not deﬁne “ﬁlming,”
Glik involved a cell phone used to record both audio
and video. At least two of the cases cited in Glik

App. 90
involved both audio and video recording. See Fordyce
v. City of Seattle, 55 F.3d 436, 439 (9th Cir. 1995) (recognizing a “First Amendment right to ﬁlm matters of
public interest” where plaintiff ’s videotaping of people
on the streets of Seattle simultaneously captured audio); Demarest v. Athol/Orange Cty. Television, Inc.,
188 F. Supp. 2d 82, 94-95 (D. Mass. 2002) (recognizing
“constitutionally protected right to record matters of
public interest” where a reporter was punished for
broadcasting video and audio recordings of communication with government ofﬁcials).
The First Circuit acknowledged that the right to
record “may be subject to reasonable time, place, and
manner restrictions.” Id. at 84. But it did not explore
those limitations because the plaintiff ’s conduct –
openly recording both audio and video of police arresting someone on the Boston Common – “fell well within
the bounds of the Constitution’s protections.” Id. It also
held that the right was “clearly established,” concluding that “a citizen’s right to ﬁlm government ofﬁcials,
including law enforcement ofﬁcers, in the discharge of
their duties in a public space is a basic, vital, and wellestablished liberty safeguarded by the First Amendment.” Id. at 85.
More recently, in Gericke, a case involving an attempted open audiovisual recording of a late-night
trafﬁc stop, the First Circuit reiterated an individual’s
First Amendment right to film police officers performing their duties carried out in public, subject to
reasonable restrictions. 753 F.3d at 7. Therefore, “a
police order that is speciﬁcally directed at the First

App. 91
Amendment right to ﬁlm police performing their duties in public may be constitutionally imposed only if
the ofﬁcer can reasonably conclude that the ﬁlming itself is interfering or about to interfere with his duties.”
Id. The First Circuit repeated the admonition from
Glik that police ofﬁcers “are expected to endure significant burdens caused by citizens’ exercise of their First
Amendment rights.” Id. at 8 (quotation omitted).
Like Glik, Gericke did not directly address audio
recording. However, it did rely on American Civil Liberties Union of Illinois v. Alvarez, 679 F.3d 583, 607
(7th Cir. 2012), for the proposition that the First
Amendment right to record may be subject to reasonable orders to maintain safety and control. Gericke, 753
F.3d at 7-8. Alvarez itself resonates with this case because it held that “[t]he act of making an audio or audiovisual recording is necessarily included within the
First Amendment’s guarantee of speech and press
rights as a corollary of the right to disseminate the resulting recording.” 679 F.3d at 595. This was due, in
part, to the Seventh Circuit’s observation “that audio
and audiovisual recording are uniquely reliable and
powerful methods of preserving and disseminating
news and information about events that occur in public. Their self-authenticating character makes it highly
unlikely that other methods could be considered reasonably adequate substitutes.” Id. at 607.
All of which is to say that the Court interprets
Glik as standing for the proposition that the First
Amendment protects the right to record audio and video
of government officials, including law enforcement

App. 92
ofﬁcers, performing their duties in public, subject only
to reasonable time, place, and manner restrictions.
DISCUSSION
I.

Preliminary Issues in Martin v. Gross

Before the paths of these two cases converge
again, the Court must ﬁrst address three preliminary
issues that arise only in Martin.
A. Standing
In Martin, the police commissioner ﬁrst argues
that the plaintiffs lack standing to bring this case because their claims are speculative, the scope of the
right they assert is amorphous, and their fear of arrest
and prosecution is not caused by Section 99. The commissioner’s line of argument is essentially identical to
the one that the Court addressed, and rejected, in its
prior opinion in this case. See Martin, 241 F. Supp. 3d
at 281-83. There, the Court “easily conclude[d]” that
the plaintiffs intended to secretly record police if not
for Section 99. Id. at 282. The Court found a credible
threat of prosecution because “Section 99 is alive and
well.” Id. at 283. And the Court found causation and
redressability satisﬁed because the alleged injury
arose from the potential arrest and/or prosecution of
the plaintiffs by BPD or the SCDAO. Id.
The current record only solidiﬁes those conclusions because now, instead of allegations, the plaintiffs
have provided facts that are not subject to genuine

App. 93
dispute. The commissioner points to nothing that
would change the Court’s analysis. The plaintiffs still
have standing to bring this case.
B. Municipal Policy
1. Parties’ Arguments
The police commissioner next argues that merely
training police ofﬁcers on how to enforce Section 99 is
not a municipal policy for purposes of a § 1983 claim.
More pointedly, he argues that even under the framework of Vives v. City of New York, 524 F.3d 346 (2d Cir.
2008), the record does not demonstrate a municipal
“choice” to enforce Section 99. He also argues that the
plaintiffs’ fear of making secret recordings is caused by
Section 99 itself, not by any municipal policy to enforce
Section 99, and therefore the plaintiffs have failed to
show a causal connection between any municipal policy and their alleged harm.
The plaintiffs argue that nothing requires BPD to
enforce Section 99 against individuals who secretly
record police. Therefore, enforcement of the law must
be the result of a conscious policy choice by the city, as
evidenced by repeated efforts to train ofﬁcers on Section 99. The plaintiffs further argue that answering
the question on the existence of a municipal policy simultaneously resolves the causation question.

App. 94
2. Legal Standard
Local governments (and local ofﬁcials sued in their
ofﬁcial capacities) can be sued under § 1983 “for monetary, declaratory, or injunctive relief where . . . the action that is alleged to be unconstitutional implements
or executes a policy statement, ordinance, regulation,
or decision ofﬁcially adopted and promulgated by that
body’s ofﬁcers.” Monell v. Dep’t of Soc. Servs. of City of
N.Y., 436 U.S. 658, 690 (1978). “[T]he word ‘policy’ generally implies a course of action consciously chosen
from among various alternatives.” City of Okla. City v.
Tuttle, 471 U.S. 808, 823 (1985).
3. Analysis
The parties ﬁrst dispute the appropriate legal
standard for evaluating the existence of a “policy” for
purposes of a Monell claim – an issue on which courts
have diverged. The plaintiffs argue that the Court
should apply the Second Circuit’s framework from Vives,
as it did at the motion to dismiss. Under Vives, the existence of a municipal “policy” depends on “(1) whether
the City had a meaningful choice as to whether it
would enforce [the statute in question]; and (2) if so,
whether the City adopted a discrete policy to enforce
[the statute in question] that represented a conscious
choice by a municipal policymaker.” 524 F.3d at 353.
The police commissioner urges the Court to adopt
the Seventh Circuit’s decision in Surplus Store & Exchange, Inc. v. City of Delphi, which stated:

App. 95
It is difﬁcult to imagine a municipal policy
more innocuous and constitutionally permissible, and whose causal connection to the alleged violation is more attenuated, than the
“policy” of enforcing state law. If the language
and standards from Monell are not to become
a dead letter, such a “policy” simply cannot be
sufﬁcient to ground liability against a municipality.
928 F.2d 788, 791-92 (7th Cir. 1991). The First Circuit
has not weighed in on this question, aside from brief
dicta in a concurrence that positively cited Surplus
Store. See Yeo v. Town of Lexington, 131 F.3d 241, 257
(1st Cir. 1997) (Stahl, J., concurring).
Surplus Store does not govern here because the
record demonstrates that BPD has done more than
merely “enforc[e] state law.” Rather, BPD has highlighted what it believes Section 99 allows (open recording of police ofﬁcers) and does not allow (secret
recording of police ofﬁcers).
To show the existence of a municipal policy, the
plaintiffs rely on an array of BPD training materials
that discuss Section 99, including a video and a training bulletin. The roughly seven-minute video begins
with a summary of the statute. It then reenacts two
scenarios. In the ﬁrst, a bystander holds up a cell
phone and records police ofﬁcers interacting with a
couple arguing in the street. The video instructs that
this does not constitute an “interception” under Section
99 because the bystander is openly, not secretly, recording the interaction. The second scenario parallels the

App. 96
facts of Commonwealth v. Hyde, 750 N.E.2d 963 (Mass.
2001), in which the SJC affirmed the Section 99 conviction of a defendant who surreptitiously recorded
his conversation with police during a trafﬁc stop. The
video instructs ofﬁcers that charges are appropriate in
this scenario, although it emphasizes that, in order to
violate Section 99, the recording “Must be SECRET!”
The bulletin, issued in November 2010, provides
Section 99’s deﬁnitions of “interception” and “oral communication,” and breaks down the crime into elements.
It also summarizes Hyde and Commonwealth v. Manzelli, 864 N.E.2d 566 (Mass. App. Ct. 2007), two Massachusetts appellate cases interpreting Section 99. The
bulletin describes Section 99 as “designed to prohibit
secret recordings of oral communications.” It twice
states, “Public and open recordings are allowed under
the Wiretap statute. There is no right of arrest for public and open recordings under this statute.”
The bulletin has been recirculated twice. In October 2011, the bulletin was accompanied by a memo
from the Commissioner citing the Glik decision. The
memo instructs ofﬁcers that “public and open recording of police ofﬁcers by a civilian is not a violation” of
Section 99. The cover memo for the May 2015 recirculation “remind[s] all ofﬁcers that civilians have a First
Amendment right to publicly and openly record ofﬁcers
while in the course of their duties.”
Section 99 is discussed in other training materials
as well. For instance, the Municipal Police Training
Committee, a state agency that sets minimum training

App. 97
standards for police academies in Massachusetts, discusses Section 99 in at least two training manuals
used by the BPD. The record includes four additional
manuals or texts that appear to discuss the statute as
well.
These materials – particularly the video and bulletin -demonstrate why Surplus Store is inapt here.
They instruct ofﬁcers that Section 99 permits open, but
not secret, recording of police ofﬁcers’ actions. But Glik
did not clearly restrict itself to open recording. Rather,
it held that the First Amendment provides a “right to
ﬁlm government ofﬁcials or matters of public interest
in public space.” Glik, 655 F.3d at 84-85. The right is
“fundamental and virtually self-evident,” subject only
to reasonable time, place, and manner restrictions. Id.
The BPD training materials narrowly read this holding, which amounts to more than mere enforcement of
state law.
The same considerations demonstrate the existence of a policy under the two-prong Vives test. The
parties do not dispute the ﬁrst prong. That is, they
seem to agree – correctly – that local police have discretion about whether and when to enforce Section 99.
The second prong asks whether BPD has adopted a
“discrete policy” to enforce Section 99 that “represent[s] a conscious choice by a municipal policymaker.”
Vives, 524 F.3d at 353. The police commissioner does
not dispute that these training materials exist and
have been disseminated to BPD personnel. Because
there is no genuine dispute as to this factual basis for
the alleged municipal policy, the only remaining

App. 98
question is one of law, appropriate for resolution on
summary judgment: Do these training materials
evince a “conscious choice” by BPD to enforce Section
99?
The answer is yes. Although an individual police
ofﬁcer retains discretion about whether to arrest someone for violating Section 99, the training materials
cited above make clear that BPD “put ﬂesh on the
bones” of Section 99 and “apparently instructed ofﬁcers
that they could make arrests” for what the plaintiffs
now claim was constitutionally protected conduct.
Vives, 524 F.3d at 356. The video, bulletin, and manuals all speak with one voice regarding when Section 99
is and is not violated. The Court concludes, as a matter
of law, that this evidence demonstrates a “conscious
choice” and amounts to a municipal policy for purposes
of a Monell claim.
The police commissioner protests that BPD’s guidance was in accordance with, and pursuant to, cases
interpreting Section 99, and it is unfair to subject BPD
to liability for trying to ensure that its ofﬁcers comply
with the law. He also argues that ﬁnding a municipal
policy here will create “a perverse incentive not to train
police ofﬁcers.” But the training materials go beyond
telling ofﬁcers when it is impermissible to arrest; taking a narrow construction of Glik, they also communicate that it is permissible to arrest for secretly audiorecording the police under all circumstances. In other
words, it gives the green light to arrests that, as the
Court holds below, are barred by Glik.

App. 99
As the plaintiffs predicted, this analysis also resolves the causation question. “Where a plaintiff
claims that a particular municipal action itself violates
federal law, or directs an employee to do so, resolving
these issues of fault and causation is straightforward.”
Bd. of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S.
397, 404 (1997). Here, the commissioner acknowledges
that BPD’s training materials were intended to ensure
that ofﬁcers complied with Glik. But Glik did not distinguish between First Amendment protection applicable to audio and video recording. BPD’s policymakers
interpreted (in the Court’s view, misinterpreted) the
case as permitting arrest for secret audio recording in
all circumstances without regard for the First Amendment interest at stake of police performing their duties
in public. BPD’s policies narrowly interpreting Glik
caused the injury complained of in this case.
Accordingly, the Court concludes that the plaintiffs have proven the existence of a municipal policy
and causation for purposes of their Monell claim
against the police commissioner.
C. Adverse Inferences
1. Parties’ Arguments
The district attorney argues that, for purposes of
summary judgment, the Court should draw adverse inferences against Martin based on his refusal to answer
certain questions during his deposition by invoking his
Fifth Amendment privilege. The motion concerns two
sets of videos produced in discovery: one from the

App. 100
Boston Common and one from the Arizona BBQ restaurant in Roxbury. The district attorney argues that
he is prejudiced by Martin’s assertion of the privilege
because it prevents him from learning details about
these videos, such as whether Martin created them,
whether the recorder was holding the recording device in plain view, and whether the recorder had the
subjects’ permission to record. As a consequence, the
district attorney asks the Court to make certain inferences about the videos – for instance, that Martin did
create them, that the recording device was not held in
plain view, and that Martin did not have permission to
record from persons in the videos.
Martin opposes the motion only in two respects.
First, he seeks to ensure that none of the adverse inferences can be used in any criminal proceeding. Second, he opposes one speciﬁc inference – that the
Arizona BBQ restaurant is a “public place” for purposes of the plaintiffs’ requested relief on their constitutional claim. He argues that this inference is outside
the scope of his assertion of the Fifth Amendment privilege.
2. Legal Standard
In general, “ ‘the Fifth Amendment does not forbid
adverse inferences against parties in civil actions
when they refuse to testify,’ . . . nor does it mandate
such inferences, especially as regards topics unrelated
to the issues they refused to testify about.” MuleroRodriguez v. Ponte, Inc., 98 F.3d 670, 678 (1st Cir. 1996)

App. 101
(quoting Baxter v. Palmigiano, 425 U.S. 308, 318
(1976)). Moreover, the First Circuit has “expressed
doubt as to whether a court can draw [such an adverse]
inference at the summary judgment stage, where
all reasonable inferences must be drawn for the nonmovant.” In re Marrama, 445 F.3d 518, 522-23 (1st Cir.
2006).
3. Analysis
Because Martin opposes the inferences only in
part, the Court generally allows the district attorney’s
motion. This comes with two caveats. First, as both
parties seem to agree, the Court draws these inferences solely for the purpose of summary judgment in
this case. Second, the Court agrees with Martin that
the requested inference about the Arizona BBQ restaurant is outside the scope of his invocation of the Fifth
Amendment privilege. That is, whether the Arizona
BBQ restaurant constitutes a “public place” is a legal
determination that likely would turn on facts outside
the scope of any testimony Martin would offer on the
topic. The district attorney’s motion, therefore, is allowed in part and denied in part.
II.

Ripeness
A. Parties’ Arguments

In both cases, the district attorney moves to dismiss for lack of jurisdiction on the grounds that the
case is unripe for judicial review. He argues that the
plaintiffs’ claims turn upon a host of fact-dependent

App. 102
considerations, but the plaintiffs have yet to develop a
sufﬁcient record to enable the Court to evaluate them.
The plaintiffs in Martin contend primarily that
their claims do not turn on the factual considerations
that the district attorney identiﬁes. Even if they did,
the plaintiffs argue that they have provided plenty of
facts to decide their respective cases. The plaintiff in
Project Veritas argues that its history of secret recording activity in other states amply supports its intent to
engage in the same conduct in Massachusetts and that
this satisﬁes ripeness.
B. Legal Standard
Ripeness is an aspect of justiciability rooted in
both the Article III case-or-controversy requirement
and in prudential considerations. Reddy v. Foster, 845
F.3d 493, 500 (1st Cir. 2017). Its purpose is “to prevent
the adjudication of claims relating to ‘contingent future events that may not occur as anticipated, or indeed may not occur at all.’ ” Id. (quoting Texas v. United
States, 523 U.S. 296, 300 (1998)). As such, “plaintiffs
bear the burden of alleging facts sufﬁcient to demonstrate ripeness.” Id. at 501. “Even a facial challenge to
a statute is constitutionally unripe until a plaintiff can
show that federal court adjudication would redress
some sort of imminent injury that he or she faces.” Id.
In general, the ripeness analysis has two prongs:
fitness and hardship. Id. The fitness prong has both
jurisdictional and prudential components. Id. The jurisdictional component of ﬁtness asks “whether there

App. 103
is a sufﬁciently live case or controversy, at the time of
the proceedings, to create jurisdiction in the federal
courts.” Id. (quoting Roman Catholic Bishop of Springﬁeld v. City of Springﬁeld, 724 F.3d 78, 89 (1st Cir.
2013)). The prudential component of ﬁtness concerns
“whether resolution of the dispute should be postponed
in the name of judicial restraint from unnecessary decision of constitutional issues.” Id. (quoting Roman
Catholic Bishop, 724 F.3d at 89). The hardship prong is
not disputed here.
In the context of a First Amendment challenge like
this one, Supreme Court and First Circuit precedent
describes two types of cognizable injury. The ﬁrst is
when the plaintiff has alleged an intention to engage
in a course of conduct arguably affected with a constitutional interest, but proscribed by the statute, and
there exists a credible threat of prosecution. Mangual
v. Rotger-Sabat, 317 F.3d 45, 56-57 (1st Cir. 2003). The
second is when a plaintiff is chilled from exercising her
right to free expression or forgoes expression in order
to avoid enforcement consequences. Id. at 57.
C. Analysis: Martin
The plaintiffs in Martin satisfy both aspects of ﬁtness (the only ingredients of ripeness at issue here).
The First Circuit has recognized that, “though not unqualiﬁed, a citizen’s right to ﬁlm government ofﬁcials,
including law enforcement officers, in the discharge
of their duties in a public space is a basic, vital, and
well-established liberty safeguarded by the First

App. 104
Amendment.” Glik, 655 F.3d at 85. Both plaintiffs have
attested to their prior recordings of police ofﬁcers. The
plaintiffs aver that they desire to secretly record police
ofﬁcers but have refrained from doing so because of
Section 99. And the defendants have sought criminal
complaints or charged persons for violating Section 99
numerous times since 2011. In this case and its companion, the government has not disavowed enforcement of Section 99. See Project Veritas Action Fund,
270 F. Supp. 3d at 342; Martin, 241 F. Supp. 3d at 283.
These facts give rise to a live controversy over genuine First Amendment injuries. Therefore, both the jurisdictional and prudential components of ﬁtness are
satisﬁed. That is, the plaintiffs have shown “a sufﬁciently live case or controversy . . . to create jurisdiction in the federal courts,” while also satisfying the
Court that resolution of the case need not (indeed,
ought not) be postponed. Reddy, 845 F.3d at 501 (quoting Roman Catholic Bishop, 724 F.3d at 89). This conclusion is bolstered by the principle that “courts
sometimes exhibit a greater willingness to decide cases
that turn on legal issues not likely to be signiﬁcantly
affected by further factual development.” Ernst &
Young v. Depositors Econ. Prot. Corp., 45 F.3d 530, 536
(1st Cir. 1995). Such is the case here.
Many of the district attorney’s arguments about
an underdeveloped factual record seem to relate to
his concern that secret recordings could somehow endanger police officers or the public. This concern is
not directly relevant to the issue of fitness. Moreover,
nothing in Glik or in the relief sought by these

App. 105
plaintiffs would prohibit an ofﬁcer from taking reasonable steps to preserve public safety. See Glik, 655 F.3d
at 84 (noting that right to record “may be subject to
reasonable time, place, and manner restrictions”); cf.
Gericke, 753 F.3d at 8 (“[A]n individual’s exercise of her
First Amendment right to ﬁlm police activity carried
out in public . . . necessarily remains unfettered unless
and until a reasonable restriction is imposed or in
place.”); Alvarez, 679 F.3d at 607 (noting that First
Amendment right to record does not prevent ofﬁcers
from “tak[ing] all reasonable steps to maintain safety
and control, secure crime scenes and accident sites,
and protect the integrity and conﬁdentiality of investigations”).
D. Analysis: Project Veritas
The undisputed facts in Project Veritas show a live
controversy over, at a minimum, whether the plaintiff
has been “chilled from exercising [its] right to free expression or [has] forgo[ne] expression in order to avoid
enforcement consequences.” Mangual, 317 F.3d at 57.
It is beyond dispute that PVA has used secret audiovisual recording in the past. This has included secret
audiovisual recording of government ofﬁcials, such as
New Hampshire voting ofﬁcials during the 2016 primaries, and of private citizens, such as those depicted
in PVA’s recordings during the August 2017 protests in
Charlottesville, Virginia. Further, according to PVA,
Glik extends to secret recording, and therefore Section
99 chills them from engaging in protected conduct. The
district attorney disagrees that the right recognized in

App. 106
Glik covers secret audio recording. The Court needs no
additional facts to resolve that legal dispute. See Ernst
& Young, 45 F.3d at 536 (describing how courts often
“exhibit a greater willingness to decide cases that turn
on legal issues not likely to be signiﬁcantly affected by
further factual development”).
The district attorney further emphasizes deposition testimony where PVA’s designated witness, when
asked whether PVA had any present intentions of secretly recording in Massachusetts, stated:
Not in Massachusetts, no, that would be
against the law. We can’t do that. I would love
to probably secretly record a whole bunch of
people because that’s what I do. I think it is a
very important and valuable kind of journalism. We don’t have any plans to because we
can’t. It’s against the law, and we don’t break
the law.
The district attorney is correct that this testimony undercuts a speciﬁc threat-of-prosecution injury, since
the witness admitted not having a current “intention
to engage in a course of conduct arguably affected with
a constitutional interest.” Mangual, 317 F.3d at 56. But
by the same token, this testimony is unmistakable evidence that Section 99 has “chilled [PVA] from exercising [its] right to free expression” and that PVA is
“forgo[ing] expression in order to avoid enforcement
consequences.” Id. at 57.
The district attorney also asserts that ripeness
requires additional details about PVA’s foregone

App. 107
investigations. But for many of the same reasons just
discussed with respect to Martin, the First Circuit has
not indicated that the right to record is as fact-bound
as the district attorney suggests. In addition, waiting
for additional details to develop on a case-by-case basis
could exacerbate the “pull toward self-censorship” that
First Amendment pre-enforcement review is supposed
to avoid. See N.H. Right to Life Political Action Comm.
v. Gardner, 99 F.3d 8, 13-14 (1st Cir. 1996).
That said, the four investigations that PVA proposes are described with such sparse detail that they
could encompass a vast array of settings and subjects
for secret recording. The breadth of potential conduct
involved, none of which has actually occurred, creates
serious ripeness concerns. See Texas v. United States,
523 U.S. at 300; Babbitt v. United Farm Workers Nat’l
Union, 442 U.S. 289, 298 (1979). On this score, PVA has
narrowed the scope of its summary judgment motion
to only those applications of Section 99 that involve the
recording of government ofﬁcials performing their duties in public.5 Signiﬁcantly, PVA’s challenge remains
broader than the one in Martin, which challenges the
5

In part, this was in recognition of the fact that the Court
has already dismissed PVA’s claims insofar as they pertain to private individuals. See Project Veritas Action Fund, 244 F. Supp.
3d at 265 (holding that Section 99 survives intermediate scrutiny
insofar as it permits only non-secret recording of private conversations). Although PVA continues to advance some of those arguments (e.g., by now arguing that Section 99 is unconstitutionally
overbroad and is unconstitutional whenever the subject of a recording lacks a reasonable expectation of privacy), the Court has
already rejected them.

App. 108
statute only with respect to the secret recording of police ofﬁcers. But with respect to Project Veritas, the
Court’s ensuing analysis will focus solely on PVA’s
“government ofﬁcials” claim. That claim is ripe to the
extent just discussed, and the motion to dismiss is denied.
III. First Amendment Challenge
On the core constitutional question, the parties
contest three issues: (1) whether to treat the plaintiffs’ claims as “facial” or “as applied” challenges;
(2) whether Section 99 is subject to strict scrutiny,
intermediate scrutiny, or rational basis review; and
(3) whether Section 99 survives whatever level of constitutional scrutiny governs. The Court addresses each
of those issues before turning to a few loose ends.
A. “Facial” or “As Applied” Challenge
The parties dispute whether the plaintiffs’ First
Amendment claims are “as applied” or “facial” in nature. As sometimes occurs, the claims in these cases
“obviously [have] characteristics of both.” John Doe No.
1 v. Reed, 561 U.S. 186, 194 (2010). They are “as applied” in the sense that the plaintiffs only challenge
Section 99 insofar as it applies to the secret recording
of police officers (in Martin) or government officials
(in Project Veritas) performing their duties in public.
They are “facial” in the sense that the relief sought in
both cases would block the application of Section 99 to
any situation involving the secret recording of police

App. 109
ofﬁcers or government ofﬁcials performing their duties
in public, not just in a speciﬁc instance of the plaintiffs
engaging in such conduct.
The Supreme Court faced a similar situation in
Reed and instructed that “[t]he label is not what matters.” 561 U.S. at 194. Rather, the point of inquiry is
whether the claim and the relief that would follow
“reach beyond the particular circumstances of [the]
plaintiffs” in the case. Id. If so, the plaintiffs must satisfy the “standards for a facial challenge to the extent
of that reach.” Id.; see also Showtime Entm’t, LLC v.
Town of Mendon, 769 F.3d 61, 70 (1st Cir. 2014) (applying Reed to hold that a strip club’s challenge to a town’s
zoning laws was facial because the club sought to invalidate the zoning laws, not merely to change the way
those laws applied to the club).
Here, there is no genuine dispute that the relief
the plaintiffs seek in both cases “reach[es] beyond
[their] particular circumstances.” Reed, 561 U.S. at
194. Speciﬁcally, the plaintiffs all seek to partially invalidate Section 99. Thus, under Reed, their claim is
facial to a certain extent. However, there are only two
“set[s] of circumstances” at issue: the secret recording
of police ofﬁcers performing their duties in public, and
the secret recording of government ofﬁcials doing the
same. That is the limited “extent” of the facial challenges in these cases. See id.

App. 110
B. Level of Constitutional Scrutiny
The parties also dispute the appropriate level of
constitutional scrutiny. PVA argues that Section 99 is
a content-based restriction on expression because it
primarily injures undercover journalists, and therefore
strict scrutiny should apply. This argument is easily
dispatched. A content-based restriction is one that “applies to particular speech because of the topic discussed or the idea or message expressed.” Reed v. Town
of Gilbert, 135 S. Ct. 2218, 2227 (2015) (emphasis
added). Section 99 does not do this. Rather, in the scenarios at issue here – the secret recording of police ofﬁcers or other government ofﬁcials performing their
duties in public – Section 99 acts as a content-neutral
restriction on conduct that, under Glik, is protected by
the First Amendment (for citizens and journalists
alike). See Jean v. Mass. State Police, 492 F.3d 24, 29
(1st Cir. 2007) (noting that Section 99 “is a contentneutral law of general applicability” (internal quotation marks omitted)). Thus, intermediate scrutiny applies. See Rideout v. Gardner, 838 F.3d 65, 71-72 (1st
Cir. 2016) (“Content-neutral restrictions are subject to
intermediate scrutiny. . . .”), cert. denied, 137 S. Ct.
1435 (2017). The plaintiffs in Martin agree that this
standard governs here.
Finally, the district attorney suggests in a footnote
that a standard lower than intermediate scrutiny
“might” apply. He does not convincingly develop this
argument, and neither Glik nor Jean supports it. See
655 F.3d at 82-84; 492 F.3d at 29.

App. 111
C. Intermediate Scrutiny
Intermediate scrutiny requires that the law be
“narrowly tailored to serve a signiﬁcant government
interest.” Rideout, 838 F.3d at 72 (quoting Ward v. Rock
Against Racism, 491 U.S. 781, 791 (1989)). In this context, narrow tailoring does not require that the law be
the least restrictive or least intrusive means of serving
the government’s interests. Id. However, it requires a
“close ﬁt between ends and means” and dictates that
the government “may not regulate expression in such
a manner that a substantial portion of the burden on
speech does not serve to advance its goals.” McCullen
v. Coakley, 134 S. Ct. 2518, 2534-35 (2014). The law
also must “leave open ample alternative channels for
communication of the information.” Ward, 491 U.S. at
791.
The defendants state that the purpose of Section
99 is to ensure that all citizens – government ofﬁcials
and private citizens alike – receive “guaranteed notice
of being recorded, so that one can respond appropriately.” The defendants describe this as a privacy interest of both the government ofﬁcials and the private
individuals with whom they interact.6

6

The district attorney also suggests that this interest falls
within the First Amendment’s protection against compelled participation in the expressive conduct of another. In other words, if
notice of recording permits a person to modulate her behavior to
account for the recording, a lack of notice forces the person to
unknowingly participate in the expressive conduct (here, recording) of another. Conley cites no case that applies this “compelled participation” line of First Amendment jurisprudence in a

App. 112
The argument that Section 99 protects privacy interests is consistent with case law from the Massachusetts Supreme Judicial Court, which has stated that
Section 99 “was designed to prohibit the use of electronic surveillance devices by private individuals because of the serious threat they pose to the ‘privacy
of all citizens.’ ” Hyde, 750 N.E.2d at 967-68 (quoting
Mass. Gen. Laws ch. 272, § 99). Generally speaking,
protection of individual privacy is a legitimate and signiﬁcant government interest. See Bartnicki v. Vopper,
532 U.S. 514, 532 (2001) (“Privacy of communication is
an important interest. . . .”); cf. Frisby v. Schultz, 487
U.S. 474, 484 (1988) (recognizing protection of residential privacy as a “signiﬁcant government interest” for
purposes of First Amendment claim).
The Martin plaintiffs contend that allowing police
ofﬁcers to “respond appropriately” to notice of recording will permit them to alter any inappropriate behavior. They point to the important First Amendment
interest in monitoring the conduct of law enforcement officials. In Glik, the First Circuit recognized
the First Amendment’s protection for informationgathering has special force with respect to law enforcement ofﬁcials who are granted so much discretion in
depriving individuals of their liberties. See 655 F.3d at
83. But the same basic interest applies generally to
government ofﬁcials: “Ensuring the public’s right to
gather information about their ofﬁcials not only aids in
the uncovering of abuses, but also may have a salutary
right-to-record dispute, and the First Circuit has not done so in
its recent explorations of the topic (i.e., Gericke and Glik).

App. 113
effect on the functioning of government more generally.” Glik, 655 F.3d at 82-83 (citations omitted).
The Court holds that Section 99 is not narrowly
tailored to protect a signiﬁcant government interest
when applied to law enforcement ofﬁcials discharging
their duties in a public place. See id. at 84 (“In our society, police ofﬁcers are expected to endure signiﬁcant
burdens caused by citizens’ exercise of their First
Amendment rights.”). The same goes for other government ofﬁcials performing their duties in public. Id. at
82-83, 85; see Gertz v. Robert Welch, Inc., 418 U.S. 323,
344 (1974) (“An individual who decides to seek governmental ofﬁce must accept certain necessary consequences of that involvement in public affairs. He runs
the risk of closer public scrutiny than might otherwise
be the case. And society’s interest in the ofﬁcers of government is not strictly limited to the formal discharge
of ofﬁcial duties.”).
This is not to say that police and government officials have no privacy interests. However, the diminished privacy interests of government officials
performing their duties in public must be balanced by
the First Amendment interest in newsgathering and
information-dissemination. The First Amendment prohibits the “government from limiting the stock of information from which members of the public may draw.”
Bellotti, 435 U.S. at 783. “An important corollary to this
interest in protecting the stock of public information is
that ‘[t]here is an undoubted right to gather news from
any source by means within the law.’ ” Glik, 655 F.3d at

App. 114
82 (quoting Houchins v. KQED, Inc., 438 U.S. 1, 11
(1978)) (internal quotation marks omitted).
The First Circuit has recognized that “[t]he ﬁlming of government ofﬁcials engaged in their duties in a
public place, including police ofﬁcers performing their
responsibilities, ﬁts comfortably within these principles.” Id.; see also Alvarez, 679 F.3d at 595 (recognizing
audio and audiovisual recording as among forms of information-gathering protected by First Amendment).
Based on this case law, the Court holds that the First
Amendment protects both audio and video recording.
Because “the public’s right of access to information is
coextensive with that of the press,” this right inures to
individual citizens and journalists alike. Glik, 655 F.3d
at 83. The right “may be subject to reasonable time,
place, and manner restrictions,” although Glik does not
discuss what those restrictions might entail. Id. at 84.
Here, the defendants counter with several hypotheticals that might implicate individual privacy or
public safety issues – for instance, when an ofﬁcer
meets with a conﬁdential informant or encounters a
crime victim on the street. But these examples miss
the mark. When such situations arise, police are free
to “take all reasonable steps to maintain safety and
control, secure crime scenes and accident sites, and
protect the integrity and conﬁdentiality of investigations.” Alvarez, 679 F.3d at 607; see also Glik, 655 F.3d
at 84 (“[T]he right to ﬁlm . . . may be subject to reasonable time, place, and manner restrictions.”). Nothing in
the relief these plaintiffs seek would require otherwise.
If an ofﬁcer needs to protect the safety of an informant

App. 115
or her fellow ofﬁcers, or seeks to preserve conversational privacy with a victim, the ofﬁcer may order the
recording to stop or to conduct the conversation at a
safe remove from bystanders or in a private (i.e., nonpublic) setting. See Alvarez, 679 F.3d at 607. (“Police
discussions about matters of national and local security do not take place in public where bystanders are
within earshot. . . .”). A reasonable restriction would
remove the conversation from the scope of the relief
sought (and ordered) in this case.
In short, Section 99 prohibits all secret audio
recording of any encounter with a law enforcement
official or any other government ofﬁcial. It applies regardless of whether the ofﬁcial being recorded has a
signiﬁcant privacy interest and regardless of whether
there is any First Amendment interest in gathering
the information in question. “[B]y legislating this
broadly – by making it a crime to audio record any conversation, even those that are not in fact private – the
State has severed the link between [Section 99’s]
means and its end.” Alvarez, 679 F.3d at 606. The lack
of a “close ﬁt” between means and end is plain. See
McCullen, 134 S. Ct. at 2534-35.
Further, “[b]ecause [Section 99] is not closely tailored to the government’s interest in protecting conversational privacy, [the Court] need[s] not decide
whether it leaves open adequate alternative channels for this kind of speech.” Alvarez, 679 F.3d at 607.
Even if it reached that issue, however, the “selfauthenticating character” of audio recording “makes

App. 116
it highly unlikely that other methods could be considered reasonably adequate substitutes.” Id.
D. Loose Ends
Some difﬁcult questions remain about what constitutes a “public space” and who is considered a “government ofﬁcial” for purposes of the right to record.
The facts of Glik provide some guidance on the “public
space” issue. There, the recording took place on the
Boston Common, “the apotheosis of a public forum”
in which “the rights of the state to limit the exercise
of First Amendment activity are ‘sharply circumscribed.’ ” Glik, 655 F.3d at 84 (quoting Perry Educ.
Ass’n v. Perry Local Educators’ Ass’n, 460 U.S. 37, 45
(1983)). Many of the police-involved scenarios that the
plaintiffs desire to secretly record would occur in similar locations – traditional public forums like parks,
streets, and sidewalks. See Minn. Voters All. v. Mansky,
138 S. Ct. 1876, 1885 (2018) (describing framework for
traditional public forums, designated public forums,
and nonpublic forums); Gericke, 753 F.3d at 7 (extending the right to record to trafﬁc stops). It seems clear
enough from Glik and Gericke that the right to record
a government ofﬁcial, including a law enforcement ofﬁcial, performing her duties generally applies in public
forums.
But the holding of Glik uses the phrase “public
space,” not “public forum.” 655 F.3d at 85. The plaintiffs
in Martin believe the right to secretly record the police
extends to private property that is open to the general

App. 117
public, such as a restaurant. For example, one of Martin’s recordings of police activity occurred at the Arizona BBQ restaurant from a vantage point on the
sidewalk outside the restaurant. In general, though,
the First Amendment does not guarantee a right to
free expression on private property. See Hudgens v.
NLRB, 424 U.S. 507, 520-21 (1976) (holding that federal constitution did not protect employees’ right to
picket inside shopping center).
Moreover, there is a deﬁnitional issue with Glik’s
use of the term “government ofﬁcial.” Glik, Gericke,
and cases cited therein teach that a police ofﬁcer falls
within the ambit of “government ofﬁcial.” But who are
these other government ofﬁcials? The First Amendment doctrine surrounding “public ofﬁcials” may provide some guidance. See, e.g., Mangual, 317 F.3d at 6566 (describing how deﬁnition of “public ofﬁcial” has
evolved to “include[ ] many government employees, including police ofﬁcers”).
The parties did not focus on deﬁning “public space”
or “government ofﬁcial,” and it is not prudential, under
the ripeness doctrine, to do so now. While Glik’s use of
the term “public space” seems to indicate something
broader than “public forum,” and its use of the term
“government ofﬁcial” includes a broader scope of public
ofﬁcial than “law enforcement ofﬁcer,” the Court leaves
it to subsequent cases to deﬁne these terms on a better
record.

App. 118
CONCLUSION
Consistent with the language of Glik, the Court
holds that Section 99 may not constitutionally prohibit
the secret audio recording of government officials, including law enforcement officials, performing their
duties in public spaces, subject to reasonable time,
manner, and place restrictions.
ORDER
In Martin, the motion for adverse inferences (Dkt.
No. 115) is ALLOWED IN PART and DENIED IN
PART. The plaintiffs’ motion for summary judgment
(Dkt. No. 121) is ALLOWED. The defendants’ motion
to dismiss for lack of jurisdiction and motions for summary judgment (Dkt. Nos. 110, 111, and 116) are DENIED.
In Project Veritas, the motion to dismiss on ripeness grounds (Dkt. No. 112) is DENIED. The motions for summary judgment (Dkt. Nos. 101, 117, and
126) are ALLOWED IN PART and DENIED IN
PART.
The Court declares Section 99 unconstitutional insofar as it prohibits audio recording of government ofﬁcials, including law enforcement ofﬁcers, performing
their duties in public spaces, subject to reasonable
time, place, and manner restrictions. The Court will issue a corresponding injunction against the defendants

App. 119
in these actions. The parties shall submit a proposed
form of injunction by January 10, 2019.
/s/ PATTI B. SARIS
Patti B. Saris
Chief United States
District Judge

App. 120
APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
)
)
Plaintiff,
)
)
v.
)
DANIEL F. CONLEY, in his )
Ofﬁcial Capacity as Suffolk )
County District Attorney,
)
)
Defendant.
)
PROJECT VERITAS
ACTION FUND,

Civil Action
No. 16-10462-PBS

MEMORANDUM AND ORDER
March 23, 2017
Saris, C.J.
Plaintiff Project Veritas Action Fund (“Project Veritas”), a news gathering organization, brings facial and
as-applied challenges to the Massachusetts Wiretap
Statute, Mass. Gen. Laws ch. 272, § 99 (“Section 99”),
on the ground that it violates the First and Fourteenth
Amendments by prohibiting secret recording of the
oral conversations of public and private individuals.1
The veriﬁed complaint, brought under 28 U.S.C.
1

Other plaintiffs raised similar claims before this Court in
Martin v. Evans, No. CV 16-11362-PBS, 2017 WL 1015000, at *1
(D. Mass. Mar. 13, 2017). The Court assumes familiarity with
that opinion.

App. 121
§§ 2201-02 and 42 U.S.C. § 1983, seeks declaratory and
injunctive relief. The Defendant, Suffolk County District Attorney, Daniel Conley, moves to dismiss on the
grounds that plaintiff lacks standing and the complaint fails to state a claim.
After hearing, the Court DENIES the Motion to
Dismiss (Docket No. 26) in part and ALLOWS it in
part. The Court holds that Project Veritas survives the
standing challenge with respect to its claim that the
state prohibition of the secret recording of private individuals violates the First Amendment. However, the
Court holds that Section 99’s ban on the secret recording of conversations by private individuals does not violate the First Amendment because the statute is
narrowly tailored to promote the signiﬁcant governmental interest of protecting the conversational privacy of Massachusetts residents. The Motion for
Preliminary Injunction (Docket No. 21) is DENIED.
FACTUAL BACKGROUND
For the purposes of the motion to dismiss, the facts
are taken as true, as alleged in the veriﬁed complaint.
Project Veritas is a national media organization
primarily engaged in undercover journalism. Its undercover newsgathering techniques involve recording
and intercepting oral communications of persons without their knowledge or consent. This secret recording
often occurs in public places such as polling places,
sidewalks, and hotel lobbies.

App. 122
These undercover techniques are used in news
gathering in a variety of scenarios. In 2014, Project
Veritas utilized “undercover newsgathering” to discover “a stark contrast between the public statements
of a candidate for United States Senate in Kentucky
and the statements of her campaign staff.” Docket No. 1
¶ 22. In September 2015, Project Veritas “exposed campaign ﬁnance violations in New York using undercover
techniques.” Id. ¶ 23. It exposed “electoral malfeasance” in Nevada using similar recording techniques.
Id. ¶ 24. Most recently, it “detailed the weakness of
voter registration laws in New Hampshire by focusing
on the surreptitiously recorded statements of government ofﬁcials.” Id. ¶ 25.
Project Veritas has not previously engaged in any
surreptitious recording in Massachusetts, though it
wants to, because of a fear that utilizing undercover
techniques in Massachusetts would expose it to criminal and civil liability under Section 99.2 Project Veritas
hopes to undertake undercover investigation of public
issues in Boston and throughout Massachusetts. Id.
¶ 27. Speciﬁcally, Project Veritas alleges that it “would
like to investigate the recently reported instances of
landlords taking advantage of housing shortages in
Boston where students may live in unsafe and dilapidated conditions. Likewise, [Project Veritas] would like
2

Project Veritas also alleges that another provision of the
statute, § 99(Q), “would subject it to civil lawsuits under Massachusetts law from aggrieved persons, subjecting it to claims for
actual damages, punitive damages, and attorney’s fees.” Docket
No. 1 ¶ 19. However, PVA does not seek any relief regarding this
section. See id. at 9.

App. 123
to investigate the trustworthiness and accountability
of government ofﬁcials, including police ofﬁcers, in a
variety of public and non-public settings.” Id. ¶ 21.
LEGAL FRAMEWORK
I.

Motion to Dismiss Standard

Courts evaluate motions to dismiss for lack of
standing under Federal Rule of Civil Procedure 12(b)(1).
See United Seniors Ass’n, Inc. v. Philip Morris USA,
500 F.3d 19, 23 (1st Cir. 2007). In assessing Project Veritas’ standing, the court must take the complaint’s
well-pleaded facts as true and indulge all reasonable
inferences in its favor. Hochendoner v. Genzyme Corp.,
823 F.3d 724, 730 (1st Cir. 2016). “[A]t the pleading
stage, the plaintiff bears the burden of establishing
sufﬁcient factual matter to plausibly demonstrate his
standing to bring the action. Neither conclusory assertions nor unfounded speculation can supply the necessary heft.” Id. at 731.
The same basic principles apply to evaluating a
Rule 12(b)(6) motion used to dismiss complaints that
do not “state a claim upon which relief can be granted.”
See Fed. R. Civ. P. 12(b)(6). In evaluating a Rule
12(b)(6) motion, the Court must accept the factual allegations in the plaintiff ’s complaint as true, construe
reasonable inferences in its favor, and “determine
whether the factual allegations in the plaintiff ’s complaint set forth a plausible claim upon which relief may
be granted.” Foley v. Wells Fargo Bank, N.A., 772 F.3d
63, 71 (1st Cir. 2014).

App. 124
To survive a motion to dismiss pursuant to Rule
12(b)(6), the factual allegations in a complaint must
“state a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. at 678 (citing Twombly, 550
U.S. at 556). To reach the threshold of plausibility,
the allegations must be “more than merely possible.”
Schatz v. Repub. State Leadership Comm., 669 F.3d 50,
55 (1st Cir. 2012). Dismissal for failure to state a claim
pursuant to Rule 12(b)(6) is appropriate when the complaint fails to set forth “factual allegations, either direct or inferential, respecting each material element
necessary to sustain recovery under some actionable
legal theory.” Berner v. Delahanty, 129 F.3d 20, 25 (1st
Cir. 1997) (quoting Gooley v. Mobil Oil Corp., 851 F.2d
513, 515 (1st Cir. 1988)).
II.

Massachusetts Wiretap Statute

The Massachusetts Wiretap Statute makes it a
crime to “willfully commit[ ] an interception, attempt[ ]
to commit an interception, or procure[ ] any other person to commit an interception or to attempt to commit
an interception of any wire or oral communication.”
Mass. Gen. Laws ch. 272, § 99(C)(1). Interception is
deﬁned as “to secretly hear, secretly record, or aid another to secretly hear or secretly record the contents of
any wire or oral communication through the use of any

App. 125
intercepting device by any person other than a person
given prior authority by all parties to such communication.” Id. § 99(B)(4). An oral communication is deﬁned as “speech, except such speech as is transmitted
over the public air waves by radio or other similar device.” Id. § 99(B)(2).
DISCUSSION
I.

Standing for Pre-Enforcement Review

Defendant Conley moves to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(1) arguing that
Project Veritas lacks standing to bring this suit since
it fails to allege facts that show, with any plausible degree of speciﬁcity, that it intends to secretly record the
oral communications of individuals in Suffolk County
without their consent in violation of Massachusetts
law.
Project Veritas alleges that if not for Section 99, it
would secretly record “landlords taking advantage of
housing shortages in Boston where students may live
in unsafe and dilapidated conditions” and would also
record communications in order to investigate “the
trustworthiness and accountability of government ofﬁcials, including police ofﬁcers, in a variety of public and
non-public settings.” Docket No. 1 ¶ 21. James O’Keefe,
President of Project Veritas, “verif[ied] under penalty
of perjury under the laws of the United States of
America that the factual statements contained in [Project Veritas’] Veriﬁed Complaint concerning [Project
Veritas’] existing and proposed activities are true and

App. 126
correct.” Docket No. 1 ex. 1. Project Veritas argues that
it cannot provide any more speciﬁc details about whom
it intends to record, where, when and how frequently
because it cannot know all the developments an investigation may involve. To disclose this type of information would severely hinder the success of the
investigation.
The First Circuit has stated that “when dealing
with pre-enforcement challenges to recently enacted
(or, at least, non-moribund) statutes that facially restrict expressive activity by the class to which the
plaintiff belongs, courts will assume a credible threat
of prosecution in the absence of compelling contrary
evidence.” N.H. Right to Life Political Action Comm. v.
Gardner, 99 F.3d 8, 15 (1st Cir. 1996). See generally Susan B. Anthony List v. Driehaus, 134 S. Ct. 2334 (2014).
In Martin v. Evans, the Court set forth the caselaw
governing pre-enforcement challenges to statutes
based on the First Amendment. 2017 WL 1015000, at
*2-4. There the Court concluded that the plaintiffs,
two civil rights activists, would face a credible threat
of prosecution should they engage in their intended actions of secretly tape recording police ofﬁcers. Id. at *4.
In Martin, the complaint alleged recent instances of
Section 99 prosecutions in the state “against secret recording of police ofﬁcers performing their duties in
public.” Id. at *2. The complaint also alleged that the
Boston Police Department has “ofﬁcial training materials [that] instruct ofﬁcers that they have a ‘right of
arrest’ whenever a person secretly records oral communications.” Id.

App. 127
Section 99 is not a moribund law. Although there
are no statistics in this record about how often persons
are arrested or charged for a Section 99 violation, the
Supreme Judicial Court reafﬁrmed the vitality of the
statute in Commonwealth v. Hyde. 750 N.E.2d 963, 964
(Mass. 2001) (ﬁnding that an individual may be prosecuted under Section 99 for secretly tape recording
statements made by police ofﬁcers during a routine
trafﬁc stop). Moreover, when asked at the hearing in
Martin, Conley’s counsel did not disavow enforcement
of Section 99. See Blum v. Holder, 744 F.3d 790, 799 (1st
Cir. 2014) (ﬁnding no standing where “the Government
. . . disavowed any intention to prosecute plaintiffs for
their stated intended conduct”).
Project Veritas stated in its veriﬁed complaint that
it intends to investigate private landlords. Project Veritas is an aggressive news gathering organization that
has engaged in signiﬁcant undercover surveillance of
private individuals in states that permit it. There is no
reason to believe it would not be doing so in Massachusetts if it were not deterred by the law. As such, the
Court ﬁnds a credible threat of enforcement against
Project Veritas that has chilled its speech with respect
to its speciﬁc intent to investigate “scofﬂaw” landlords.
With respect to Project Veritas’ claim that it intends to investigate government ofﬁcials, however, the
allegations are too vague to pass muster. Project Veritas does not specify any particular investigation it
seeks to undertake. While Project Veritas states it
would be tipping its hand by being too speciﬁc about
individuals it is investigating, the law requires a

App. 128
plausible showing of true intent to investigate that has
been chilled. In evaluating a pre-enforcement challenge, a court must distinguish between situations
where the plaintiff ’s “interest was manifest and the
parameters of the activity that it proposed to undertake were discrete and well-deﬁned,” from cases involving “plaintiffs who were unlikely to engage in the
proscribed activity or plaintiffs who had formulated no
ﬁrm plans for doing so.” R.I. Ass’n of Realtors, Inc. v.
Whitehouse, 199 F.3d 26, 32 n. 2 (1st Cir. 1999).
The Court concludes that Project Veritas has sufﬁciently alleged standing with respect to the First
Amendment challenge to the ban on the secret audio
recording of private individuals. However, the motion
to dismiss is allowed with respect to government ofﬁcials without prejudice to repleading more speciﬁc allegations.
II.

First Amendment As-Applied Challenge

Conley argues that Project Veritas fails to state a
claim under the First Amendment because the First
Amendment does not provide a right to secretly record
oral communications. The First Circuit has recognized
that the First Amendment protects “a citizen’s right to
ﬁlm government ofﬁcials, including law enforcement
ofﬁcers, in the discharge of their duties in a public
space. . . .” Glik v. Cunniffe, 655 F.3d 78, 85 (1st Cir.
2011). Although information gathering about matters
of public interest through audio and audio-visual recording in public spaces is protected by the First

App. 129
Amendment, it is subject to reasonable restrictions. Id.
at 83-84. The Fifth Circuit recently cited Glik in
Turner v. Lieutenant Driver, concluding that a “First
Amendment right to record the police does exist, subject only to reasonable time, place, and manner restrictions.” 848 F.3d 678, 688 (5th Cir. 2017); see also
Smith v. City of Cumming, 212 F.3d 1332, 1333 (11th
Cir. 2000) (ﬁnding a “First Amendment right, subject
to reasonable time, manner and place restrictions, to
photograph or videotape police conduct”).
As the Court explained in Martin, the Court must
apply intermediate scrutiny because Section 99 is a
content-neutral law. 2017 WL 1015000, at *7. The
Court found “[t]he government does not have a signiﬁcant interest in protecting the privacy of law enforcement ofﬁcials discharging their duties in a public
space” and that the law was not narrowly tailored to
serve other important government interests. Id. at *8.
As such, the Court held, “Section 99, as applied to the
secret recording of government ofﬁcials in the performance of their duties in public, violates the First
Amendment.” Id. Martin did not involve a claim challenging Section 99’s prohibition on secretly recording
the conversations of private individuals.
The cutting-edge issue in this case is whether Section 99 violates the First Amendment by categorically
prohibiting the intentional secret recording of private
individuals.
The Supreme Court has held, “[p]rivacy of communication is an important interest.” Bartnicki v. Vopper,

App. 130
532 U.S. 514, 532 (2001) (involving the illegal tape-recording and broadcast of a private conversation about
a matter of public concern published by the media in a
union dispute). “Moreover, the fear of public disclosure
of private conversations might well have a chilling effect on private speech.” Id. at 532-33. The government
has a signiﬁcant interest in protecting the “conversational privacy” of its citizens. Am. Civil Liberties Union
of Ill. v. Alvarez, 679 F.3d 583, 608 (7th Cir. 2012) (holding that the Illinois eavesdropping statute violated the
First Amendment in an action involving the open recording of police ofﬁcers).
The express legislative purpose of Section 99’s unequivocal ban of secret audio recording is to protect
Massachusetts citizens’ privacy. The statute’s preamble states that secret recording “pose[s] grave dangers
to the privacy of all citizens of the commonwealth.”
Mass. Gen. Laws ch. 272 § 99(A). The Supreme Judicial
Court (“SJC”) stated: “The statute’s preamble expresses the Legislature’s general concern that ‘the
uncontrolled development and unrestricted use of
modern electronic surveillance devices pose[d] grave
dangers to the privacy of all citizens of the commonwealth’ and this concern was relied on to justify the
ban on the public’s clandestine use of such devices.”
Commonwealth v. Hyde, 750 N.E.2d 963, 967 (Mass.
2001) (quoting Mass. Gen. Laws ch. 272 § 99(A)); see
Commonwealth. v. Gordon, 666 N.E.2d 122, 134 (Mass.
1996) (“It is apparent from the preamble that the legislative focus was on the protection of privacy
rights. . . .”).

App. 131
The SJC has found that the statute is meant to
protect individuals independent of their reasonable expectation of privacy: “[W]e would render meaningless
the Legislature’s careful choice of words if we were to
interpret ‘secretly’ as encompassing only those situations where an individual has a reasonable expectation
of privacy. If the Legislature had intended to [prohibit
only secret recording where an individual has a reasonable expectation of privacy], the statute would have
been written in terms similar to those used in the California eavesdropping statute. . . . Rather, it is apparent from the Report of the Special Commission on
Electronic Eavesdropping, 1968 Senate Doc. No. 1132,
that the legislative intent was to impose more stringent restrictions on the use of electronic devices by
private individuals than is done in other States.” Commonwealth v. Jackson, 349 N.E.2d 337, 340 (Mass.
1976).
Project Veritas argues that it has the First Amendment right to record private conversations of individuals speaking in public places where there is no
reasonable expectation of privacy. But, “private talk in
public places is common.” Alvarez, 679 F.3d at 606. Individuals have conversations they intend to be private,
in public spaces, where they may be overheard, all the
time – they meet at restaurants and coffee shops, talk
with co-workers on the walk to lunch, gossip with
friends on the subway, and talk too loudly at holiday
parties or in restaurant booths. These types of conversations are ones where one might expect to be overheard, but not recorded and broadcast. There is a

App. 132
signiﬁcant privacy difference between overhearing a
conversation in an area with no reasonable expectation
of privacy and recording and replaying that conversation for all to hear. See Alvarez, 679 F.3d at 605-06 (recognizing that the First Amendment permits greater
protection for conversational privacy than for the public conversations of public ofﬁcials); see also State v.
O’Brien, 774 A.2d 89, 96 (R.I. 2001) (“Although we may
expect individuals with whom we are communicating
to hear and even to remember what we are saying (and
perhaps how we have said it), we usually do not expect
them to acquire surreptitiously an exact audio reproduction of the conversation that they can later replay
at will for themselves or for others.”).
Project Veritas protests that it intends to record
individuals such as “scofﬂaw” landlords and such
newsgathering serves an important public policy interest protected by the First Amendment. Of course, reporters can take notes, but Project Veritas makes a fair
argument that audio-recording of an individual will
carry a more powerful punch than a reporter’s recounting of an encounter. Alvarez, 679 F.3d at 606 (“We
acknowledge the difference in accuracy and immediacy
that an audio recording provides as compared to notes
or even silent videos or transcripts.”).
Project Veritas claims that Section 99 fails the intermediate scrutiny standard because the statute is
not narrowly tailored to protect conversational privacy
only in those circumstances where there is a reasonable expectation of privacy. “Most state electronic privacy statutes apply only to private conversations; that

App. 133
is, they contain (or are construed to include) an expectation-of-privacy requirement that limits their scope to
conversations that carry a reasonable expectation of
privacy.” Alvarez, 679 F.3d at 607 (citing Jesse Harlan
Alderman, Police Privacy in the iPhone Era?, 9 First
Amend. L. Rev. 487, 533-45 (2011) (collecting state
statutes)); see, e.g., Cal. Penal Code § 632(c) (deﬁning
“confidential communication” to exclude circumstances
“in which the parties to the communication may reasonably expect that the communication may be overheard or recorded”). Project Veritas points out that
without the reasonable expectation of privacy benchmark, it could be charged with a felony for intercepting
oral communications made by a private person giving
a speech on the Boston Public Common where the
speaker had no possible legitimate expectation of
privacy. The SJC has eschewed an approach that limits the reach of the statute to situations where the
speaker did not have a reasonable expectation that his
speech is conﬁdential. Commonwealth v. Rivera, 833
N.E.2d 1113 (Mass. 2005). However, the First Circuit
pointed out: “Although the case was resolved on other
grounds, four of the seven justices of the Supreme Judicial Court concurred to note that the defendant’s unawareness of the audio recording capabilities of the
security cameras did not render the recordings ‘secret’
under the wiretap statute where the cameras were in
plain sight.” Glik, 655 F.3d at 87 (citing Commonwealth v. Rivera, 833 N.E.2d 1113, 1125 (Mass. 2005)
(Cowin, J., concurring in part) (“That the defendant did
not know the camera also included an audio component does not convert this otherwise open recording

App. 134
into the type of ‘secret’ interception prohibited by the
Massachusetts wiretap statute.”); id. at 1130 (Cordy, J.,
concurring) (“Just because a robber with a gun may not
realize that the surveillance camera pointed directly at
him is recording both his image and his voice does not,
in my view, make the recording a ‘secret’ one within the
meaning and intent of the statute.”)). Thus, the statute
permits open recording in plain sight by cameras or
cell phones with an audio component.
Project Veritas argues that incorporating a reasonable expectation of privacy limitation would adequately protect a right to privacy that was enforceable
in courts under state tort or statutory law. See Mass.
Gen. Laws ch. 214, § 1B (creating statutory right to privacy). The Massachusetts Legislature, though, is not
limited to using these after-the-fact tort remedies
which apply only after private conversations are
broadcast in public. While the reasonable expectation
of privacy standard for deﬁning oral communications
might be the least restrictive alternative, that approach is not required under intermediate scrutiny
when the privacy of individual conversations is at
stake.
In sum, under the intermediate scrutiny standard,
Section 99 is narrowly tailored to serve the purpose of
protecting privacy by permitting only non-secret recordings of private conversations. Project Veritas has
failed to state a claim that Section 99, as applied to the
secret recording of private individuals, violates the
First Amendment.

App. 135
III. Facial Challenge
To succeed on a facial challenge a plaintiff generally “must establish that no set of circumstances exists
under which [a legislative act] would be valid.” United
States v. Salerno, 481 U.S. 739, 745 (1987). In the First
Amendment context, however, the overbreadth doctrine applies to facial challenges. Virginia v. Hicks, 539
U.S. 113, 118 (2003) (citing Members of City Council of
L.A. v. Taxpayers for Vincent, 466 U.S. 789, 796 (1984)).
“It is well established that in the area of freedom of
expression an overbroad regulation may be subject to
facial review and invalidation, even though its application in the case under consideration may be constitutionally unobjectionable. This exception from general
standing rules is based on an appreciation that the
very existence of some broadly written laws has the
potential to chill the expressive activity of others not
before the court.” Forsyth Cty., Ga. v. Nationalist Movement, 505 U.S. 123, 129 (1992) (internal citations omitted).
The overbreadth doctrine requires a substantial
number of a statute’s applications to be unconstitutional, “judged in relation to the statute’s plainly legitimate sweep.” Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449 n.6 (2008). The Supreme Court has recognized the overbreadth doctrine
as “strong medicine” and has limited its application to
instances where a law “prohibits a substantial amount
of protected speech.” United States v. Williams, 553
U.S. 285, 29293 (2008). To the extent that a statute infringes on First Amendment rights, chills the exercise

App. 136
of a protected activity, and is “sweeping” and without
limitation, it is more likely to be found constitutionally
invalid. See, e.g., New York v. Ferber, 458 U.S. 747, 77172 (1982). However, if the reach of the statute is limited,
the statute is less likely to be found constitutionally
overbroad. Id. “It has long been recognized that the
First Amendment needs breathing space and that statutes attempting to restrict or burden the exercise of
First Amendment rights must be narrowly drawn and
represent a considered legislative judgment that a particular mode of expression has to give way to other
compelling needs of society.” Broadrick v. Oklahoma,
413 U.S. 601, 611-12 (1973).
Most applications of Section 99 are constitutional.
Section 99 constitutionally protects private conversations in all settings and conversations with government ofﬁcials in nonpublic settings or about nonofﬁcial matters.
Although Martin found Section 99 unconstitutional as applied to the recording of government ofﬁcials in the discharge of their duties in public, a wide
range of legitimate applications remain. When the
likelihood of unjustiﬁable applications of the statute is
a small fraction of the constitutional applications, the
statute is unlikely to be substantially overbroad. See,
e.g., Ferber, 458 U.S. at 773 (ﬁnding statutory ban on
child pornography did not constitute substantial overbreadth because medical, educational, or artistic works
containing nude children doubtfully “amount[ed] to
more than a tiny fraction of the materials within the
statute’s reach”). Since the reach of the statute is

App. 137
limited and the majority of its applications are legitimate, Section 99 is not substantially overbroad and it
is not, therefore, unconstitutional on its face.
ORDER
Project Veritas’ Motion for a Preliminary Injunction (Docket no. 21) is DENIED. Conley’s Motion to
Dismiss (Docket No. 26) is ALLOWED with respect to
the secret recording of private individuals. Pursuant to
Fed. R. Civ. P. 12(b)(1), the Motion to Dismiss (Docket
No. 26) is ALLOWED as to government ofﬁcials but
without prejudice to amending the complaint within
30 days.
/s/ PATTI B. SARIS
Patti B. Saris
Chief United States District Judge

App. 138
APPENDIX E
M.G.L.A. 272 § 99
§ 99. Interception of wire and oral communications
A.

Preamble.

The general court ﬁnds that organized crime exists
within the commonwealth and that the increasing activities of organized crime constitute a grave danger to
the public welfare and safety. Organized crime, as it
exists in the commonwealth today, consists of a continuing conspiracy among highly organized and disciplined groups to engage in supplying illegal goods and
services. In supplying these goods and services organized crime commits unlawful acts and employs brutal
and violent tactics. Organized crime is inﬁltrating legitimate business activities and depriving honest businessmen of the right to make a living.
The general court further ﬁnds that because organized
crime carries on its activities through layers of insulation and behind a wall of secrecy, government has been
unsuccessful in curtailing and eliminating it. Normal
investigative procedures are not effective in the investigation of illegal acts committed by organized crime.
Therefore, law enforcement ofﬁcials must be permitted
to use modern methods of electronic surveillance, under strict judicial supervision, when investigating
these organized criminal activities.
The general court further ﬁnds that the uncontrolled
development and unrestricted use of modern electronic
surveillance devices pose grave dangers to the privacy

App. 139
of all citizens of the commonwealth. Therefore, the secret use of such devices by private individuals must be
prohibited. The use of such devices by law enforcement
ofﬁcials must be conducted under strict judicial supervision and should be limited to the investigation of organized crime.
B.

Deﬁnitions. As used in this section –

1. The term “wire communication” means any communication made in whole or in part through the use
of facilities for the transmission of communications by
the aid of wire, cable, or other like connection between
the point of origin and the point of reception.
2. The term “oral communication” means speech, except such speech as is transmitted over the public air
waves by radio or other similar device.
3. The term “intercepting device” means any device
or apparatus which is capable of transmitting, receiving, amplifying, or recording a wire or oral communication other than a hearing aid or similar device which
is being used to correct subnormal hearing to normal
and other than any telephone or telegraph instrument,
equipment, facility, or a component thereof, (a) furnished to a subscriber or user by a communications
common carrier in the ordinary course of its business
under its tariff and being used by the subscriber or
user in the ordinary course of its business; or (b) being
used by a communications common carrier in the ordinary course of its business.

App. 140
4. The term “interception” means to secretly hear, secretly record, or aid another to secretly hear or secretly
record the contents of any wire or oral communication
through the use of any intercepting device by any person other than a person given prior authority by all
parties to such communication; provided that it shall
not constitute an interception for an investigative or
law enforcement ofﬁcer, as deﬁned in this section, to
record or transmit a wire or oral communication if the
ofﬁcer is a party to such communication or has been
given prior authorization to record or transmit the
communication by such a party and if recorded or
transmitted in the course of an investigation of a designated offense as deﬁned herein.
5. The term “contents”, when used with respect to
any wire or oral communication, means any information concerning the identity of the parties to such
communication or the existence, contents, substance,
purport, or meaning of that communication.
6. The term “aggrieved person” means any individual
who was a party to an intercepted wire or oral communication or who was named in the warrant authorizing
the interception, or who would otherwise have standing to complain that his personal or property interest
or privacy was invaded in the course of an interception.
7. The term “designated offense” shall include the following offenses in connection with organized crime as
deﬁned in the preamble: arson, assault and battery
with a dangerous weapon, extortion, bribery, burglary,
embezzlement, forgery, gaming in violation of section

App. 141
seventeen of chapter two hundred and seventy-one of
the general laws, intimidation of a witness or juror,
kidnapping, larceny, lending of money or things of
value in violation of the general laws, mayhem, murder, any offense involving the possession or sale of a
narcotic or harmful drug, perjury, prostitution, robbery,
subornation of perjury, any violation of this section, being an accessory to any of the foregoing offenses and
conspiracy or attempt or solicitation to commit any of
the foregoing offenses.
8. The term “investigative or law enforcement ofﬁcer”
means any ofﬁcer of the United States, a state or a political subdivision of a state, who is empowered by law
to conduct investigations of, or to make arrests for, the
designated offenses, and any attorney authorized by
law to participate in the prosecution of such offenses.
9. The term “judge of competent jurisdiction” means
any justice of the superior court of the commonwealth.
10. The term “chief justice” means the chief justice of
the superior court of the commonwealth.
11. The term “issuing judge” means any justice of the
superior court who shall issue a warrant as provided
herein or in the event of his disability or unavailability
any other judge of competent jurisdiction designated
by the chief justice.
12. The term “communication common carrier” means
any person engaged as a common carrier in providing
or operating wire communication facilities.

App. 142
13. The term “person” means any individual, partnership, association, joint stock company, trust, or corporation, whether or not any of the foregoing is an ofﬁcer,
agent or employee of the United States, a state, or a
political subdivision of a state.
14. The terms “sworn” or “under oath” as they appear
in this section shall mean an oath or afﬁrmation or a
statement subscribed to under the pains and penalties
of perjury.
15. The terms “applicant attorney general” or “applicant district attorney” shall mean the attorney general
of the commonwealth or a district attorney of the commonwealth who has made application for a warrant
pursuant to this section.
16. The term “exigent circumstances” shall mean the
showing of special facts to the issuing judge as to the
nature of the investigation for which a warrant is
sought pursuant to this section which require secrecy
in order to obtain the information desired from the interception sought to be authorized.
17. The term “ﬁnancial institution” shall mean a
bank, as deﬁned in section 1 of chapter 167, and an investment bank, securities broker, securities dealer, investment adviser, mutual fund, investment company
or securities custodian as deﬁned in section 1.16512(c)(1) of the United States Treasury regulations.
18. The term “corporate and institutional trading
partners” shall mean ﬁnancial institutions and general
business entities and corporations which engage in the

App. 143
business of cash and asset management, asset management directed to custody operations, securities
trading, and wholesale capital markets including foreign exchange, securities lending, and the purchase,
sale or exchange of securities, options, futures, swaps,
derivatives, repurchase agreements and other similar
ﬁnancial instruments with such ﬁnancial institution.
C.

Offenses.

1.

Interception, oral communications prohibited.

Except as otherwise speciﬁcally provided in this section any person who –
willfully commits an interception, attempts to commit
an interception, or procures any other person to commit an interception or to attempt to commit an interception of any wire or oral communication shall be
ﬁned not more than ten thousand dollars, or imprisoned in the state prison for not more than ﬁve years,
or imprisoned in a jail or house of correction for not
more than two and one half years, or both so ﬁned and
given one such imprisonment.
Proof of the installation of any intercepting device by
any person under circumstances evincing an intent to
commit an interception, which is not authorized or permitted by this section, shall be prima facie evidence of
a violation of this subparagraph.

App. 144
2. Editing of tape recordings in judicial proceeding
prohibited.
Except as otherwise speciﬁcally provided in this section any person who willfully edits, alters or tampers
with any tape, transcription or recording of oral or wire
communications by any means, or attempts to edit, alter or tamper with any tape, transcription or recording
of oral or wire communications by any means with the
intent to present in any judicial proceeding or proceeding under oath, or who presents such recording or permits such recording to be presented in any judicial
proceeding or proceeding under oath, without fully indicating the nature of the changes made in the original
state of the recording, shall be ﬁned not more than ten
thousand dollars or imprisoned in the state prison for
not more than ﬁve years or imprisoned in a jail or
house of correction for not more than two years or both
so ﬁned and given one such imprisonment.
3. Disclosure or use of wire or oral communications
prohibited.
Except as otherwise speciﬁcally provided in this section any person who –
a. willfully discloses or attempts to disclose to any
person the contents of any wire or oral communication,
knowing that the information was obtained through
interception; or
b. willfully uses or attempts to use the contents of
any wire or oral communication, knowing that the information was obtained through interception, shall be

App. 145
guilty of a misdemeanor punishable by imprisonment
in a jail or a house of correction for not more than two
years or by a ﬁne of not more than ﬁve thousand dollars or both.
4. Disclosure of contents of applications, warrants,
renewals, and returns prohibited.
Except as otherwise speciﬁcally provided in this section any person who –
willfully discloses to any person, any information concerning or contained in, the application for, the granting or denial of orders for interception, renewals, notice
or return on an ex parte order granted pursuant to this
section, or the contents of any document, tape, or recording kept in accordance with paragraph N, shall be
guilty of a misdemeanor punishable by imprisonment
in a jail or a house of correction for not more than two
years or by a ﬁne of not more than ﬁve thousand dollars or both.
5.

Possession of interception devices prohibited.

A person who possesses any intercepting device under
circumstances evincing an intent to commit an interception not permitted or authorized by this section, or
a person who permits an intercepting device to be used
or employed for an interception not permitted or authorized by this section, or a person who possesses an
intercepting device knowing that the same is intended
to be used to commit an interception not permitted or
authorized by this section, shall be guilty of a misdemeanor punishable by imprisonment in a jail or house

App. 146
of correction for not more than two years or by a ﬁne of
not more than ﬁve thousand dollars or both.
The installation of any such intercepting device by
such person or with his permission or at his direction
shall be prima facie evidence of possession as required
by this subparagraph.
6. Any person who permits or on behalf of any other
person commits or attempts to commit, or any person
who participates in a conspiracy to commit or to attempt to commit, or any accessory to a person who commits a violation of subparagraphs 1 through 5 of
paragraph C of this section shall be punished in the
same manner as is provided for the respective offenses
as described in subparagraphs 1 through 5 of paragraph C.
D.

Exemptions.

1. Permitted interception of wire or oral communications.
It shall not be a violation of this section –
a. for an operator of a switchboard, or an ofﬁcer, employee, or agent of any communication common carrier,
whose facilities are used in the transmission of a wire
communication, to intercept, disclose, or use that communication in the normal course of his employment
while engaged in any activity which is a necessary incident to the rendition of service or to the protection of
the rights or property of the carrier of such communication, or which is necessary to prevent the use of such
facilities in violation of section fourteen A of chapter

App. 147
two hundred and sixty-nine of the general laws; provided, that said communication common carriers shall
not utilize service observing or random monitoring except for mechanical or service quality control checks.
b. for persons to possess an ofﬁce intercommunication system which is used in the ordinary course of
their business or to use such ofﬁce intercommunication
system in the ordinary course of their business.
c. for investigative and law enforcement ofﬁcers of
the United States of America to violate the provisions
of this section if acting pursuant to authority of the
laws of the United States and within the scope of their
authority.
d. for any person duly authorized to make speciﬁed
interceptions by a warrant issued pursuant to this section.
e. for investigative or law enforcement ofﬁcers to violate the provisions of this section for the purposes of
ensuring the safety of any law enforcement ofﬁcer or
agent thereof who is acting in an undercover capacity,
or as a witness for the commonwealth; provided, however, that any such interception which is not otherwise
permitted by this section shall be deemed unlawful for
purposes of paragraph P.
f. for a financial institution to record telephone
communications with its corporate or institutional
trading partners in the ordinary course of its business; provided, however, that such financial institution shall establish and maintain a procedure to

App. 148
provide semi-annual written notice to its corporate
and institutional trading partners that telephone communications over designated lines will be recorded.
2. Permitted disclosure and use of intercepted wire or
oral communications.
a. Any investigative or law enforcement ofﬁcer, who,
by any means authorized by this section, has obtained
knowledge of the contents of any wire or oral communication, or evidence derived therefrom, may disclose
such contents or evidence in the proper performance of
his ofﬁcial duties.
b. Any investigative or law enforcement ofﬁcer, who,
by any means authorized by this section has obtained
knowledge of the contents of any wire or oral communication, or evidence derived therefrom, may use such
contents or evidence in the proper performance of his
ofﬁcial duties.
c. Any person who has obtained, by any means authorized by this section, knowledge of the contents of
any wire or oral communication, or evidence derived
therefrom, may disclose such contents while giving testimony under oath or afﬁrmation in any criminal proceeding in any court of the United States or of any
state or in any federal or state grand jury proceeding.
d. The contents of any wire or oral communication intercepted pursuant to a warrant in accordance with
the provisions of this section, or evidence derived
therefrom, may otherwise be disclosed only upon a
showing of good cause before a judge of competent jurisdiction.

App. 149
e. No otherwise privileged wire or oral communication intercepted in accordance with, or in violation of,
the provisions of this section shall lose its privileged
character.
E.

Warrants: when issuable:

A warrant may issue only:
1. Upon a sworn application in conformity with this
section; and
2. Upon a showing by the applicant that there is
probable cause to believe that a designated offense has
been, is being, or is about to be committed and that evidence of the commission of such an offense may thus
be obtained or that information which will aid in the
apprehension of a person who the applicant has probable cause to believe has committed, is committing, or
is about to commit a designated offense may thus be
obtained; and
3. Upon a showing by the applicant that normal investigative procedures have been tried and have failed
or reasonably appear unlikely to succeed if tried.
F.

Warrants: application.

1. Application. The attorney general, any assistant
attorney general specially designated by the attorney
general, any district attorney, or any assistant district
attorney specially designated by the district attorney
may apply ex parte to a judge of competent jurisdiction
for a warrant to intercept wire or oral communications.
Each application ex parte for a warrant must be in

App. 150
writing, subscribed and sworn to by the applicant authorized by this subparagraph.
2.

The application must contain the following:

a. A statement of facts establishing probable cause
to believe that a particularly described designated offense has been, is being, or is about to be committed;
and
b. A statement of facts establishing probable cause to
believe that oral or wire communications of a particularly described person will constitute evidence of such
designated offense or will aid in the apprehension of a
person who the applicant has probable cause to believe
has committed, is committing, or is about to commit a
designated offense; and
c. That the oral or wire communications of the particularly described person or persons will occur in a
particularly described place and premises or over particularly described telephone or telegraph lines; and
d. A particular description of the nature of the oral or
wire communications sought to be overheard; and
e. A statement that the oral or wire communications
sought are material to a particularly described investigation or prosecution and that such conversations
are not legally privileged; and
f. A statement of the period of time for which the interception is required to be maintained. If practicable,
the application should designate hours of the day or
night during which the oral or wire communications

App. 151
may be reasonably expected to occur. If the nature of
the investigation is such that the authorization for the
interception should not automatically terminate when
the described oral or wire communications have been
ﬁrst obtained, the application must speciﬁcally state
facts establishing probable cause to believe that additional oral or wire communications of the same nature
will occur thereafter; and
g. If it is reasonably necessary to make a secret entry
upon a private place and premises in order to install
an intercepting device to effectuate the interception, a
statement to such effect; and
h. If a prior application has been submitted or a warrant previously obtained for interception of oral or wire
communications, a statement fully disclosing the date,
court, applicant, execution, results, and present status
thereof; and
i. If there is good cause for requiring the postponement of service pursuant to paragraph L, subparagraph 2, a description of such circumstances, including
reasons for the applicant’s belief that secrecy is essential to obtaining the evidence or information sought.
3. Allegations of fact in the application may be based
either upon the personal knowledge of the applicant or
upon information and belief. If the applicant personally knows the facts alleged, it must be so stated. If the
facts establishing such probable cause are derived in
whole or part from the statements of persons other
than the applicant, the sources of such information and
belief must be either disclosed or described; and the

App. 152
application must contain facts establishing the existence and reliability of any informant and the reliability of the information supplied by him. The application
must also state, so far as possible, the basis of the informant’s knowledge or belief. If the applicant’s information and belief is derived from tangible evidence or
recorded oral evidence, a copy or detailed description
thereof should be annexed to or included in the application. Afﬁdavits of persons other than the applicant
may be submitted in conjunction with the application
if they tend to support any fact or conclusion alleged
therein. Such accompanying afﬁdavits may be based
either on personal knowledge of the afﬁant or information and belief, with the source thereof, and reason
therefor, speciﬁed.
G.

Warrants: application to whom made.

Application for a warrant authorized by this section
must be made to a judge of competent jurisdiction in
the county where the interception is to occur, or the
county where the office of the applicant is located, or
in the event that there is no judge of competent jurisdiction sitting in said county at such time, to a judge
of competent jurisdiction sitting in Suffolk County;
except that for these purposes, the office of the attorney general shall be deemed to be located in Suffolk
County.
H.

Warrants: application how determined.

1. If the application conforms to paragraph F, the issuing judge may examine under oath any person for
the purpose of determining whether probable cause

App. 153
exists for the issuance of the warrant pursuant to
paragraph E. A verbatim transcript of every such interrogation or examination must be taken, and a transcription of the same, sworn to by the stenographer,
shall be attached to the application and be deemed a
part thereof.
2. If satisﬁed that probable cause exists for the issuance of a warrant the judge may grant the application
and issue a warrant in accordance with paragraph I.
The application and an attested copy of the warrant
shall be retained by the issuing judge and transported
to the chief justice of the superior court in accordance
with the provisions of paragraph N of this section.
3. If the application does not conform to paragraph F,
or if the judge is not satisﬁed that probable cause has
been shown sufﬁcient for the issuance of a warrant, the
application must be denied.
I.

Warrants: form and content.

A warrant must contain the following:
1.

The subscription and title of the issuing judge; and

2. The date of issuance, the date of effect, and termination date which in no event shall exceed thirty days
from the date of effect. The warrant shall permit interception of oral or wire communications for a period not
to exceed ﬁfteen days. If physical installation of a device is necessary, the thirty-day period shall begin
upon the date of installation. If the effective period of
the warrant is to terminate upon the acquisition of

App. 154
particular evidence or information or oral or wire communication, the warrant shall so provide; and
3. A particular description of the person and the
place, premises or telephone or telegraph line upon
which the interception may be conducted; and
4. A particular description of the nature of the oral or
wire communications to be obtained by the interception including a statement of the designated offense to
which they relate; and
5. An express authorization to make secret entry
upon a private place or premises to install a speciﬁed
intercepting device, if such entry is necessary to execute the warrant; and
6. A statement providing for service of the warrant
pursuant to paragraph L except that if there has been
a ﬁnding of good cause shown requiring the postponement of such service, a statement of such ﬁnding together with the basis therefor must be included and an
alternative direction for deferred service pursuant to
paragraph L, subparagraph 2.
J.

Warrants: renewals.

1. Any time prior to the expiration of a warrant or a
renewal thereof, the applicant may apply to the issuing
judge for a renewal thereof with respect to the same
person, place, premises or telephone or telegraph line.
An application for renewal must incorporate the warrant sought to be renewed together with the application therefor and any accompanying papers upon
which it was issued. The application for renewal must

App. 155
set forth the results of the interceptions thus far conducted. In addition, it must set forth present grounds
for extension in conformity with paragraph F, and the
judge may interrogate under oath and in such an event
a transcript must be provided and attached to the renewal application in the same manner as is set forth
in subparagraph 1 of paragraph H.
2. Upon such application, the judge may issue an order renewing the warrant and extending the authorization for a period not exceeding ﬁfteen (15) days from
the entry thereof. Such an order shall specify the
grounds for the issuance thereof. The application and
an attested copy of the order shall be retained by the
issuing judge to be transported to the chief justice in
accordance with the provisions of subparagraph N of
this section. In no event shall a renewal be granted
which shall terminate later than two years following
the effective date of the warrant.
K.

Warrants: manner and time of execution.

1. A warrant may be executed pursuant to its terms
anywhere in the commonwealth.
2. Such warrant may be executed by the authorized
applicant personally or by any investigative or law enforcement ofﬁcer of the commonwealth designated by
him for the purpose.
3. The warrant may be executed according to its
terms during the hours speciﬁed therein, and for the
period therein authorized, or a part thereof. The authorization shall terminate upon the acquisition of the

App. 156
oral or wire communications, evidence or information
described in the warrant. Upon termination of the authorization in the warrant and any renewals thereof,
the interception must cease at once, and any device installed for the purpose of the interception must be removed as soon thereafter as practicable. Entry upon
private premises for the removal of such device is
deemed to be authorized by the warrant.
L.

Warrants: service thereof.

1. Prior to the execution of a warrant authorized by
this section or any renewal thereof, an attested copy of
the warrant or the renewal must, except as otherwise
provided in subparagraph 2 of this paragraph, be
served upon a person whose oral or wire communications are to be obtained, and if an intercepting device
is to be installed, upon the owner, lessee, or occupant
of the place or premises, or upon the subscriber to the
telephone or owner or lessee of the telegraph line described in the warrant.
2. If the application specially alleges exigent circumstances requiring the postponement of service and the
issuing judge ﬁnds that such circumstances exist, the
warrant may provide that an attested copy thereof
may be served within thirty days after the expiration
of the warrant or, in case of any renewals thereof,
within thirty days after the expiration of the last renewal; except that upon a showing of important special
facts which set forth the need for continued secrecy to
the satisfaction of the issuing judge, said judge may direct that the attested copy of the warrant be served on

App. 157
such parties as are required by this section at such
time as may be appropriate in the circumstances but
in no event may he order it to be served later than
three (3) years from the time of expiration of the warrant or the last renewal thereof. In the event that the
service required herein is postponed in accordance
with this paragraph, in addition to the requirements of
any other paragraph of this section, service of an attested copy of the warrant shall be made upon any aggrieved person who should reasonably be known to the
person who executed or obtained the warrant as a result of the information obtained from the interception
authorized thereby.
3. The attested copy of the warrant shall be served on
persons required by this section by an investigative or
law enforcement ofﬁcer of the commonwealth by leaving the same at his usual place of abode, or in hand, or
if this is not possible by mailing the same by certiﬁed
or registered mail to his last known place of abode. A
return of service shall be made to the issuing judge,
except, that if such service is postponed as provided in
subparagraph 2 of paragraph L, it shall be made to the
chief justice. The return of service shall be deemed a
part of the return of the warrant and attached thereto.
M.

Warrant: return.

Within seven days after termination of the warrant
or the last renewal thereof, a return must be made
thereon to the judge issuing the warrant by the applicant therefor, containing the following:

App. 158
a. a statement of the nature and location of the communications facilities, if any, and premise or places
where the interceptions were made; and
b. the periods of time during which such interceptions were made; and
c. the names of the parties to the communications intercepted if known; and
d. the original recording of the oral or wire communications intercepted, if any; and
e. a statement attested under the pains and penalties
of perjury by each person who heard oral or wire communications as a result of the interception authorized
by the warrant, which were not recorded, stating everything that was overheard to the best of his recollection at the time of the execution of the statement.
N. Custody and secrecy of papers and recordings
made pursuant to a warrant.
1. The contents of any wire or oral communication intercepted pursuant to a warrant issued pursuant to
this section shall, if possible, be recorded on tape or
wire or other similar device. Duplicate recordings may
be made for use pursuant to subparagraphs 2 (a) and
(b) of paragraph D for investigations. Upon examination of the return and a determination that it complies
with this section, the issuing judge shall forthwith order that the application, all renewal applications, warrant, all renewal orders and the return thereto be
transmitted to the chief justice by such persons as he
shall designate. Their contents shall not be disclosed

App. 159
except as provided in this section. The application, renewal applications, warrant, the renewal order and the
return or any one of them or any part of them may be
transferred to any trial court, grand jury proceeding of
any jurisdiction by any law enforcement or investigative ofﬁcer or court ofﬁcer designated by the chief justice and a trial justice may allow them to be disclosed
in accordance with paragraph D, subparagraph 2, or
paragraph O or any other applicable provision of this
section.
The application, all renewal applications, warrant, all
renewal orders and the return shall be stored in a secure place which shall be designated by the chief justice, to which access shall be denied to all persons
except the chief justice or such court ofﬁcers or administrative personnel of the court as he shall designate.
2. Any violation of the terms and conditions of any
order of the chief justice, pursuant to the authority
granted in this paragraph, shall be punished as a criminal contempt of court in addition to any other punishment authorized by law.
3. The application, warrant, renewal and return shall
be kept for a period of ﬁve (5) years from the date of
the issuance of the warrant or the last renewal thereof
at which time they shall be destroyed by a person designated by the chief justice. Notice prior to the destruction shall be given to the applicant attorney general or
his successor or the applicant district attorney or his
successor and upon a showing of good cause to the chief
justice, the application, warrant, renewal, and return

App. 160
may be kept for such additional period as the chief justice shall determine but in no event longer than the
longest period of limitation for any designated offense
speciﬁed in the warrant, after which time they must be
destroyed by a person designated by the chief justice.
O. Introduction of evidence.
1. Notwithstanding any other provisions of this section or any order issued pursuant thereto, in any criminal trial where the commonwealth intends to offer in
evidence any portions of the contents of any interception or any evidence derived therefrom the defendant
shall be served with a complete copy of each document
and item which make up each application, renewal application, warrant, renewal order, and return pursuant
to which the information was obtained, except that he
shall be furnished a copy of any recording instead of
the original. The service must be made at the arraignment of the defendant or, if a period in excess of thirty
(30) days shall elapse prior to the commencement of
the trial of the defendant, the service may be made at
least thirty (30) days before the commencement of the
criminal trial. Service shall be made in hand upon the
defendant or his attorney by any investigative or law
enforcement ofﬁcer of the commonwealth. Return of
the service required by this subparagraph including
the date of service shall be entered into the record of
trial of the defendant by the commonwealth and such
return shall be deemed prima facie evidence of the service described therein. Failure by the commonwealth
to make such service at the arraignment, or if delayed,
at least thirty days before the commencement of the

App. 161
criminal trial, shall render such evidence illegally obtained for purposes of the trial against the defendant;
and such evidence shall not be offered nor received at
the trial notwithstanding the provisions of any other
law or rules of court.
2. In any criminal trial where the commonwealth intends to offer in evidence any portions of a recording or
transmission or any evidence derived therefrom, made
pursuant to the exceptions set forth in paragraph B,
subparagraph 4, of this section, the defendant shall be
served with a complete copy of each recording or a
statement under oath of the evidence overheard as a
result of the transmission. The service must be made
at the arraignment of the defendant or if a period in
excess of thirty days shall elapse prior to the commencement of the trial of the defendant, the service
may be made at least thirty days before the commencement of the criminal trial. Service shall be made in
hand upon the defendant or his attorney by any investigative or law enforcement officer of the commonwealth. Return of the service required by this
subparagraph including the date of service shall be entered into the record of trial of the defendant by the
commonwealth and such return shall be deemed prima
facie evidence of the service described therein. Failure
by the commonwealth to make such service at the arraignment, or if delayed at least thirty days before the
commencement of the criminal trial, shall render such
service illegally obtained for purposes of the trial
against the defendant and such evidence shall not be

App. 162
offered nor received at the trial notwithstanding the
provisions of any other law or rules of court.
P.

Suppression of evidence.

Any person who is a defendant in a criminal trial in a
court of the commonwealth may move to suppress the
contents of any intercepted wire or oral communication or evidence derived therefrom, for the following
reasons:
1. That the communication was unlawfully intercepted.
2. That the communication was not intercepted in accordance with the terms of this section.
3. That the application or renewal application fails to
set forth facts sufﬁcient to establish probable cause for
the issuance of a warrant.
4. That the interception was not made in conformity
with the warrant.
5. That the evidence sought to be introduced was illegally obtained.
6. That the warrant does not conform to the provisions of this section.
Q.

Civil remedy.

Any aggrieved person whose oral or wire communications were intercepted, disclosed or used except as
permitted or authorized by this section or whose personal or property interests or privacy were violated by

App. 163
means of an interception except as permitted or authorized by this section shall have a civil cause of action against any person who so intercepts, discloses or
uses such communications or who so violates his personal, property or privacy interest, and shall be entitled to recover from any such person –
1. actual damages but not less than liquidated damages computed at the rate of $100 per day for each day
of violation or $1000, whichever is higher;
2.

punitive damages; and

3. a reasonable attorney’s fee and other litigation disbursements reasonably incurred. Good faith reliance
on a warrant issued under this section shall constitute
a complete defense to an action brought under this paragraph.
R. Annual report of interceptions of the general
court.
On the second Friday of January, each year, the attorney general and each district attorney shall submit a
report to the general court stating (1) the number of
applications made for warrants during the previous
year, (2) the name of the applicant, (3) the number of
warrants issued, (4) the effective period for the warrants, (5) the number and designation of the offenses
for which those applications were sought, and for each
of the designated offenses the following: (a) the number of renewals, (b) the number of interceptions made
during the previous year, (c) the number of indictments believed to be obtained as a result of those

App. 164
interceptions, (d) the number of criminal convictions
obtained in trials where interception evidence or evidence derived therefrom was introduced. This report
shall be a public document and be made available to
the public at the ofﬁces of the attorney general and district attorneys. In the event of failure to comply with
the provisions of this paragraph any person may compel compliance by means of an action of mandamus.

App. 165
APPENDIX F
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
EASTERN DIVISION
)
)
)
Plaintiff,
)
)
v.
)
DANIEL F. CONLEY, IN HIS )
OFFICIAL CAPACITY AS
)
SUFFOLK COUNTY
)
DISTRICT ATTORNEY,
)
)
Defendant.
)
PROJECT VERITAS
ACTION FUND,

C.A. No. 1:16-cv10462-PBS

-----------------------------------------------------------------------

SECOND AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
-----------------------------------------------------------------------

(Filed Sep. 29, 2017)
Plaintiff Project Veritas Action Fund respectfully
brings this action for declaratory and injunctive relief
and complains as follows:

App. 166
INTRODUCTION
1. Project Veritas Action Fund (“PVA”) is a national media organization on the forefront of undercover investigative journalism.
2. Because Massachusetts maintains an unconstitutional recording law, PVA is prohibited from exercising its First Amendment right to engage in
undercover newsgathering and journalism. See G.L. c.
272, §99.
3. PVA’s undercover investigative journalism reports have averaged over 100,000 views online and
PVA’s stories are often reported by other news outlets.
Through its undercover investigative journalism, PVA
is able to educate and inform the public about newsworthy topics of public concern and government accountability.
4. However, PVA’s undercover newsgathering
and reporting could result in criminal charges and civil
lawsuits if undertaken in Massachusetts. PVA would
focus its efforts on various issues within the Commonwealth, but is unconstitutionally restrained by an
overbroad statute prohibiting the interception and
disclosure of oral communications. See G.L. c. 272, §99.
5. Based on past experience, PVA has not uncovered newsworthy matters to report by publicly announcing its recording efforts and seeking the consent
of all parties to be recorded. Rather, PVA has uncovered newsworthy matters to report through secretive
recording of discussions, often in areas held open to the

App. 167
public such as voting places, sidewalks, and hotel lobbies. Without utilizing such techniques, PVA is unable
to exercise its First Amendment rights to engage in undercover newsgathering and journalism in Massachusetts.
6. Across the United States, the First Amendment interests in free speech and a free press have provided ample protection to investigate and report issues
of public concern. This protection includes preventing
interception laws from going beyond the legitimate
protection of individual privacy. Court decisions in the
United States Court of Appeals for the First Circuit
have curtailed such abuses on a case-by-case basis. See,
e.g., Jean v. Mass. State Police, 492 F.3d 24, 29–30 (1st
Cir. 2007) (recognizing First Amendment right to publish recording of illegally intercepted communications
over the prohibition in G.L. c. 272, §99); Glik v. Cuniffe,
655 F.3d 78, 82–84 (1st Cir. 2011) (recognizing “a constitutionally protected right to videotape police carrying out their ofﬁcial duties in public” under the First
Amendment); see also Gericke v. Begin, 753 F.3d 1 (1st
Cir. 2014). Although this precedent is welcome, it does
not guarantee the protection of additional instances
where surreptitious recording would be protected under the First Amendment. Massachusetts maintains a
facially overbroad eavesdropping law that must be declared unconstitutional to prevent a prior restraint on
PVA’s future efforts within Massachusetts. See, e.g.,
Commonwealth v. Manzelli, 68 Mass. App. Ct. 691, 694
(2007).

App. 168
JURISDICTION AND VENUE
7. This Court has jurisdiction pursuant to 28
U.S.C. § 1331 because Plaintiffs claims arise under the
First and Fourteenth Amendments to the Constitution
of the United States. This Court also has jurisdiction
under the Declaratory Judgment Act, 28 U.S.C.
§§ 2201–02, and the Civil Rights Act, 42 U.S.C. § 1983.
8. This Court has jurisdiction to award attorneys’ fees, in its discretion, in this action. 42 U.S.C.
§ 1988(b).
9. Venue is proper in this Court under 28 U.S.C.
§§ 1391(b)(1)–(2) because Defendant resides in the
District of Massachusetts and all of the events or omissions giving rise to the claims occurred in this division.
PARTIES
10. Plaintiff PVA is a nonproﬁt corporation organized under section 501(c)(4) of the Internal Revenue
Code. It is headquartered in Mamaroneck, New York.
11. Defendant Daniel F. Conley is the Suffolk
County District Attorney, whose ofﬁce is located in Boston, Massachusetts. District Attorney Conley has the
power to prosecute for illegal interception of oral communications under G.L. c. 272, §99 that occurs within
the ofﬁce’s jurisdiction. See G.L. c. 12, §13.

App. 169
STATEMENT OF FACTS
12. Massachusetts law requires consent of all
persons who are party to a conversation for PVA to
legally record, rather than illegally intercept, conversations. See G.L., c. 272, §99(B)(4) (“The term ‘interception’ means to secretly hear, secretly record, or aid
another to secretly hear or secretly record the contents
of any wire or oral communication through the use of
any intercepting device by any person other than a person given prior authority by all parties to such communication . . . ” (emphasis added)).
13. PVA’s undercover newsgathering techniques
involve intercepting oral communications of persons
using intercepting devices as deﬁned in statute. See
G.L. c. 272, §§99(B)(2) (deﬁning “oral communication”);
(B)(3) (deﬁning “intercepting device”); (B)(4) (deﬁning
“interception”); (B)(13) (deﬁning “person”).
14. PVA does not engage and has no intention of
engaging in the interception of wire communications
as deﬁned in the statute. See G.L. c. 272, §99(B)(1).
15. PVA’s undercover newsgathering techniques
would subject it to felony prosecution under Massachusetts law for prohibited interception of oral communications. G.L. c. 272, §99(C)(1).
16. PVA’s newsgathering techniques would subject it to misdemeanor prosecution under Massachusetts law for prohibited possession of interception
devices. G.L. c. 272, §99(C)(5).

App. 170
17. PVA’s news reporting would subject it to
misdemeanor prosecution under Massachusetts law
for prohibited disclosure of oral communications. G.L.
c. 272, §99(C)(3).
18. A single PVA reporter’s newsgathering and
news reporting activities would subject most of PVA’s
staff to conspiracy or accessory charges that carry the
same penalties for prohibited interception, prohibited
possession of interception devices and prohibited disclosure of oral communications. G.L. c. 272, §99(C)(6).
19. PVA’s newsgathering and news reporting activities would subject it to civil lawsuits under Massachusetts law from aggrieved persons, subjecting it to
claims for actual damages, punitive damages, and attorney’s fees. G.L. c. 272, §99(B)(6); (Q); see, e.g., Johnson v. Frei, 2016 Mass. App. Div. 122 (Mass. Dist. App.
Div. 2016).
20. PVA and its respective journalists do not
qualify for any exemptions under the statute. See G.L.
c. 272, §99(B)(4), (D).
21. But for the prohibitions throughout “Section
99,” PVA would engage in undercover investigative
journalism projects in Massachusetts. In particular,
PVA would investigate instances of landlords taking
advantage of housing shortages in Boston where students may live in unsafe and dilapidated conditions,
as well as the ties between these landlords and public
ofﬁcials.

App. 171
22. But for Section 99, PVA would investigate
and report on the public controversy over “sanctuary
cities” in Massachusetts. It would accomplish this by
secretly investigating and recording interactions with
government officials in Boston in the discharge of
their duties in public places, including police ofﬁcers,
to learn more about their concerns about immigration
policy and deportation. Further, PVA would secretly investigate and record government ofﬁcials who are discharging their duties at or around the State House in
Boston and other public spaces to learn about their
motives and concerns about immigration policy and
deportation. PVA’s intention is that through secretly
recorded, informal discussions with police ofﬁcers and
legislative representatives that it will obtain more information about the impact of immigration policies in
Massachusetts and share that with the public to better
educate it.
23. In 2014, through undercover newsgathering,
PVA uncovered a stark contrast between the public
statements of a candidate for United States Senate in
Kentucky and the statements of her campaign staff.
See Grimes’ campaign workers caught on hidden
camera: “It’s a lying game”, YOUTUBE, Oct. 6, 2014,
https://www.youtube.com/watch?v=A1N3rbwRA_k. This
exposé provided the citizens of Kentucky with relevant
information about a candidate seeking election to federal ofﬁce. If undertaken in Massachusetts, the methods utilized by PVA in this investigation would subject
it to criminal and civil penalties under Section 99.

App. 172
24. In September 2015, PVA exposed campaign
ﬁnance violations in New York using undercover techniques. See HIDDEN CAM: Hillary’s National Marketing Director Illegal Accepting Foreign Contribution,
YOUTUBE, Sept. 1, 2015, https://www.youtube.com/
watch?v=-qxF7Z2N7Y4. If undertaken in Massachusetts, the methods utilized by PVA in this investigation
would subject it to criminal and civil penalties under
Section 99.
25. Just one week later, PVA brought national
attention to electoral malfeasance in Nevada using
similar techniques. See Hidden Cameras Capture
Clinton Campaign Staff in Nevada not Only Skirting
the Law but Mocking it, PROJECT VERITAS ACTION
FUND, http://www.projectveritasaction.com/video/hiddencameras-capture-clinton-campaign-staff-nevada-not-onlyskirting-law-mocking-it. If undertaken in Massachusetts,
the methods utilized by PVA in this investigation
would subject it to criminal and civil penalties under
Section 99.
26. In February, 2016, a PVA report detailed the
weaknesses of voter registration laws in New Hampshire by focusing on the surreptitiously recorded
statements of government officials. Chuck Ross, EXCLUSIVE: New O’Keefe Video Shows How Easy It Is
to Commit Voter Fraud in New Hampshire, DAILY
CALLER, Feb. 2, 2016, http://dailycaller.com/2016/02/10/
exclusive-new-okeefe-video-shows-how-easy-it-is-tocommit-voter-fraud-in-new-hampshire-video/. If undertaken in Massachusetts, the methods utilized by

App. 173
PVA in this investigation would subject it to criminal
and civil penalties under Section 99.
27. PVA conducted a secret investigation into the
wrongdoings of political operatives connected to various campaigns during the 2016 presidential election,
including operations seeking to provoke violence at
political rallies. Rigging the Election, Video 1: Clinton
Campaign and DNC Incite Violence at Trump Rallies,
YOUTUBE, Oct. 17, 2016, https://www.youtube.com/
watch?v=5IuJGHuIkzY. In the course of this investigation, PVA uncovered evidence of serious violations of
federal election law. It detailed those violations to the
public in its investigations and ﬁled an appropriate
complaint with the Federal Election Commission for
redress. Notably, these secret recordings were of private political actors whose actions would have an effect
on the outcome of the 2016 presidential election. If undertaken in Massachusetts, the methods utilized by
PVA in this investigation would subject it to criminal
and civil penalties under Section 99.
28. PVA has continued to investigate the ties between sophisticated political operations and public
protests outside of Massachusetts. PVA’s journalists
have embedded in certain groups that identify as “antifa,” or “anti-fascist,” and have documented support
within some of these groups for instigating violence at
public events relating to free speech or contrarian political beliefs. In this capacity, PVA’s journalists have
attended numerous public rallies since April, 2017
while secretly recording in a manner that would violate Section 99. Secret recording in this capacity has

App. 174
included recording interactions between police and attendees at such events, including in Charlottesville,
Virginia on August 12, 2017 and in Atlanta, Georgia on
August 13, 2017. These recordings raised numerous
concerns over how police interact with people expressing different viewpoints at public events, and PVA is
including the issue of protest management as part of
its investigation.
29. On August 19, 2017, a large public event occurred in downtown Boston. Individuals and organizations from other states tied to the ongoing PVA “antifa”
investigation attended this event. But for the unequivocal ban on secret recording in Section 99, PVA journalists would have attended the event and secretly
recorded public ofﬁcials executing their duties as they
related to attendees.
30. On information and belief, public events will
continue to occur in Suffolk County that relate to PVA’s
investigation into “antifa” groups, immediately and indeﬁnitely. But for the unequivocal ban on secret recording in Section 99, PVA journalists would attend
these events and secretly record public ofﬁcials executing their duties as they relate to attendees. PVA would
employ cellular phone cameras and “button cameras”
to achieve these recordings. It would seek to capture
whether antifa public events and protests are peaceful,
whether police or other public ofﬁcials’ interactions
with antifa members are non-violent, and otherwise
capture the events to report to the public.

App. 175
31. In its newsgathering activities, PVA journalists would not impede police or other public ofﬁcials
executing their duties, would remain at least ﬁve feet
away from such ofﬁcials while recording, would comply
with requests from these ofﬁcials, and would not engage in otherwise harassing or interfering behavior.
Rather, PVA journalists would quietly and secretly record such interactions while ensuring that public ofﬁcials are able to carry out their duties.
32. Undercover investigative journalism employing surreptitious recording is the sole method through
which PVA is able to uncover newsworthy matters
concerning government fraud, abuses in the political
process and other areas of public concern. In a substantial amount of instances, the public’s interest in being
informed about such matters outweighs the government’s interest in prohibiting all surreptitious newsgathering. Indeed, on a national basis, undercover
journalism is responsible for uncovering police corruption, environmental pollution, poor airport security,
and white collar crime.
33. But for the unequivocal ban in Section 99,
PVA would undertake undercover investigation of public issues in Boston and throughout Massachusetts, including: (1) public ofﬁcials discharging their duties in
public spaces; (2) public ofﬁcials in places with no expectation of privacy; and (3) private individuals in
places with no expectation of privacy. PVA cannot attest to where its investigations would lead because
most are spontaneous in nature—journalists are deployed to an area, begin researching and discussing

App. 176
on-the-ground controversies, and follow where the
facts lead them. As to PVA’s usual operations, one cannot predict (or plead) where these sorts of spontaneous
investigations will lead and how they will develop. Rather, PVA can only attest that the investigations would
be extensive, immediate, and that its lost opportunities
under Section 99’s alarming ban are immeasurable.
COUNT I
The Prohibition in Section 99 Against
Intercepting the Oral Communications of
Government Officials in the Discharge of
Their Duties in a Public Place is Unconstitutional
Facially and as Applied to PVA.
34. The First Amendment provides that “Congress shall make no law . . . abridging the freedom of
speech, or of the press[.]” U.S. CONST. amend. I. “[T]he
First Amendment is applicable to the States through
the Fourteenth [Amendment.]” First Nat’l Bank of
Boston v. Bellotti, 435 U.S. 765, 778 (1978). “The filming of government officials engaged in their duties in
a public place, including police officers performing
their responsibilities, fits comfortably within [the]
principles [of the First Amendment].” Glik, 655 F.3d
at 82.
35. “In the First Amendment context,” the Supreme Court “recognizes ‘a . . . type of facial challenge,’
whereby a law may be invalidated as overbroad if ‘a
substantial number of its applications are unconstitutional, judged in relation to the statute’s plainly legitimate sweep.’ ” U.S. v. Stevens, 559 U.S. 460, 473 (2010),

App. 177
citing Washington State Grange v. Washington State
Republican Party, 552 U.S. 442, 449 n.6 (2008) (emphasis added).
36. Section 99 prohibits PVA from recording and
disclosing any conversation in Massachusetts without
the consent of all parties, including government ofﬁcials engaged in ofﬁcial duties in a public place. The
Commonwealth’s courts have afﬁrmed this interpretation on numerous occasions. Manzelli, 68 Mass. App.
Ct. at 694 (allowing conviction for public recording
of police ofﬁcers); Commonwealth. v. Hyde, 434 Mass.
594, 605 (2001) (“Secret tape recording by private individuals has been unequivocally banned . . . unless and
until the Legislature changes the statute[.]” (emphasis
added)).
37. As applied, Section 99 fails First Amendment
scrutiny by prohibiting the secret recording of government ofﬁcials, including law enforcement ofﬁcers, in
the discharge of their duties in a public space.
38. While prior First Circuit precedent has afforded limited protection on a case-by-case basis, particularly for the recording of police ofﬁcers in public
spaces, these cases do not protect PVA’s First Amendment rights to engage in future exposés that would
surreptitiously record other government ofﬁcials in
public areas.
39. The law “create[s] a criminal prohibition of
alarming breadth.” Stevens, 559 U.S. at 474. It is unconstitutional, facially and as applied to PVA.

App. 178
COUNT II
Section 99’s Prohibition Against Intercepting
Oral Communications of Individuals Having
No Reasonable Expectation of Privacy is
Unconstitutionally Overbroad on Its
Face and as Applied to PVA.
40. Even relying on the First Circuit’s previous
recognition of First Amendment protection for recording
police ofﬁcers engaged in their ofﬁcial duties in public
places, PVA remains unconstitutionally burdened by
Section 99.
41. PVA is prohibited from secretly recording
oral communications made in any conversation—even
when the communications occur in circumstances with
no reasonable expectation of privacy—without prior
authority of all parties. G.L. c. 272, §§99(B)(2), (B)(4),
(C)(1).
42. PVA is prohibited from secretly recording
speeches made in public places by non-government ofﬁcials without prior authority by the speaker. G.L. c.
272, §§99(B)(2), (B)(3), (B)(4), (C)(1).
43. PVA is prohibited from simply possessing intercepting devices and “evincing an intent to commit
an interception not permitted or authorized by this
section[.]” As discussed, despite First Circuit precedent, PVA remains “unequivocally banned” from engaging in all of its undercover newsgathering activities
under the statute. Hyde, 434 Mass. at 605.

App. 179
44. The unequivocal ban in Section 99 cannot be
overcome by prosecutorial discretion. Stevens, 559 U.S.
at 480 (“[T]he First Amendment protects against the
Government; it does not leave us at the mercy of noblesse oblige. We would not uphold an unconstitutional
statute merely because the Government promised to
use it responsibly.”)
45. PVA retains the First Amendment right to
publish information of public concern about political
processes through its undercover journalism about
governmental and nongovernmental individuals involved in investigations. PVA should likewise be afforded prepublication protection as it gathers such
information.
46. Section 99 fails to survive constitutional
scrutiny, prohibiting interception far beyond conversations undertaken with a reasonable expectation of privacy, and is invalid under the First Amendment,
facially and as applied to PVA.
PRAYER FOR RELIEF
Wherefore, PVA prays for the following relief:
1. A declaratory judgment that G.L. c. 272,
§99(B)(4), (C)(1), (C)(3), (C)(5) and (C)(6) are unconstitutional facially and as applied to PVA.
2. Preliminary and permanent injunctive relief
pursuant to 42 U.S.C. § 1983 against enforcement of
G.L. c. 272, §99(B)(4), (C)(1), (C)(3), (C)(5) and (C)(6)
against activity that constitutes the interception of

App. 180
oral communications of public ofﬁcials engaged in their
duties in public places.
3. Preliminary and permanent injunctive relief
pursuant to 42 U.S.C. § 1983 against enforcement of
G.L. c. 272, §99(B)(4), (C)(1), (C)(3), (C)(5) and (C)(6)
against activity that constitutes the interception of
oral communications of persons when such communications occur in circumstances with no reasonable expectation of privacy.
4. Plaintiffs’ reasonable costs and attorneys’ fees
pursuant to 42 U.S.C. § 1988 or any applicable statute
or authority, and further relief this Court may grant in
its discretion.
5. Any other relief that the Court deems just and
appropriate.
[REMAINDER OF THIS PAGE
INTENTIONALLY LEFT BLANK]
Respectfully submitted,
PROJECT VERITAS ACTION FUND,
By its attorneys,
/s/ Stephen R. Klein
Stephen R. Klein (Pro Hac Vice)
500 Madison Street #419
Alexandria, VA 22314
734.233.1705 [Tel.]
stephen.klein.esq@gmail.com
admitted pro hac vice

App. 181
Daniel J. Kelly, BBO# 553926
dkelly@mccarter.com
Gregory D. Cote, BBO# 645943
gcote@mccarter.com
McCarter & English, LLP
265 Franklin Street
Boston, MA 02110
617-449-6500 – o
617-326-3098 – f
Benjamin Barr (Pro Hac Vice)
444 North Michigan Avenue
Suite 1200
Chicago, Illinois 60611
202.595.4671 [Tel.]
benjamin.barr@gmail.com
admitted pro hac vice
September 29, 2017.
[Certiﬁcate Of Service Omitted]

